<html>
<title> - LEGISLATIVE HEARING ON H.R. 357, H.R. 562, H.R. 631, H.R. 844, H.R. 1305, H.R. 1316, H.R. 1402, A DRAFT BILL ENTITLED ``IMPROVING JOB OPPORTUNITIES FOR VETERANS ACT OF 2013,'' AND A DRAFT BILL ENTITLED TO AMEND TITLE 39, UNITED STATES CODE, TO EXTEND THE AUTHORITY TO PROVIDE WORK-STUDY ALLOWANCE FOR CERTAIN ACTIVITIES BY INDIVIDUALS RECEIVING EDUCATIONAL ASSISTANCE BY THE SECRETARY OF VETERANS AFFAIRS''</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
           LEGISLATIVE HEARING ON H.R. 357, H.R. 562, 
             H.R. 631, H.R. 844, H.R. 1305, H.R. 1316, 
             H.R. 1402, A DRAFT BILL ENTITLED ``IMPROVING 
             JOB OPPORTUNITIES FOR VETERANS ACT OF 
             2013,'' AND A DRAFT BILL ENTITLED TO 
             AMEND TITLE 39, UNITED STATES CODE, TO 
             EXTEND THE AUTHORITY TO PROVIDE WORK-STUDY 
             ALLOWANCE FOR CERTAIN ACTIVITIES 
             BY INDIVIDUALS RECEIVING EDUCATIONAL 
             ASSISTANCE BY THE SECRETARY OF VETERANS AFFAIRS''
=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, APRIL 10, 2013

                               __________

                           Serial No. 113-13

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
80-452                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS


                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

               SUBCOMMITTEE ON ECONOMIC OPPORTUNITY (EO)

                      BILL FLORES, Texas, Chairman

JON RUNYAN, New Jersey               MARK TAKANO, California, Ranking 
MIKE COFFMAN, Colorado               Minority Member
PAUL COOK, California                JULIA BROWNLEY, California
BRAD R. WENSTRUP, Ohio               DINA TITUS, Nevada
                                     ANN M. KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 10, 2013

                                                                   Page

Legislative Hearing On H.R. 357, H.R. 562, H.R. 631, H.R. 844, 
  H.R. 1305, H.R. 1316, H.R. 1402, A Draft Bill Entitled 
  ``Improving Job Opportunities For Veterans Act of 2013,'' And A 
  Draft Bill Entitled ``To Amend Title 39, United States Code, To 
  Extend The Authority To Provide Work-Study Allowance For 
  Certain Activities By Individuals Receiving Educational 
  Assistance By The Secretary Of Veterans Affairs''..............     1

                           OPENING STATEMENTS

Hon. Bill Flores, Chairman, Subcommittee on Economic Opportunity 
  (EO)...........................................................     1
    Prepared Statement of Hon. Flores............................    52
Hon. Mark Takano, Ranking Minority Member, Subcommittee on 
  Economic Opportunity (EO)......................................     3
    Prepared Statement of Hon. Takano............................    53
Hon. Mike Coffman, Chairman, Subcommittee on Oversight and 
  Investigations, House Committee on Veterans' Affairs...........     4
Hon. Jeff Miller, Chairman, House Committee on Veterans' Affairs.     5
Hon. Brad Wenstrup, House Committee on Veterans' Affairs, 
  Subcommittee on Health.........................................     7

                               WITNESSES

Curtis Coy, Deputy Under Secretary for Economic Opportunity, 
  Veterans Benefits Administration, U.S. Department of Veterans 
  Affairs........................................................     8
    Prepared Statement of Mr. Coy................................    53
    Accompanied by:

      Mr. Danny Pummill, Director, Veterans Benefits 
          Administration/Department of Defense Program Office, 
          U.S. Department of Veterans Affairs
Susan Kelly, Deputy Director, Transition to Veterans Program 
  Office, U.S. Department of Defense.............................    10
    Prepared Statement of Dr. Kelly..............................    58
    Executive Summary of Dr. Kelly...............................    59
Hon. Keith Kelly, Assistant Secretary, Veterans' Employment and 
  Training Service, U.S. Department of Labor.....................    11
    Prepared Statement of Hon. Kelly.............................    60
Charles Huebner, Chief of U.S. Paralympics, U.S. Olympic 
  Committee......................................................    26
    Prepared Statement of Mr. Huebner............................    63
    Executive Summary of Mr. Huebner.............................    65
Susan Aldridge, Senior Fellow, American Association of State 
  Colleges and Universities......................................    28
    Prepared Statement of Dr. Aldridge...........................    66
Col. G. Michael Denning (USMC) Ret., Director of Graduate 
  Military Programs, University of Kansas (On Behalf of 
  Association of Public and Land Grant Universities..............    30
    Prepared Statement of Mr. Denning............................    68
    Executive Summary of Mr. Denning.............................    71
Lt. Gen. Joseph F. Weber (USMC) Ret., Vice President for Student 
  Affairs, Texas A&M University..................................    31
    Prepared Statement of Mr. Weber..............................    72
    Executive Summary of Mr. Weber...............................    75
Alexander Nicholson, Chief Policy Officer, Iraq and Afghanistan 
  Veterans of America............................................    40
    Prepared Statement of Mr. Nicholson..........................    76
Ryan M. Gallucci, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    42
    Prepared Statement of Mr. Gallucci...........................    79
Steve L. Gonzalez, Assistant Director, National Economic 
  Commission, The American Legion................................    44
    Prepared Statement of Mr. Gonzalez...........................    82
    Executive Summary of Mr. Gonzalez............................    87
Michael Dakduk, Executive Director, Student Veterans of America..    46
    Prepared Statement of Mr. Dakduk.............................    87
    Executive Summary of Mr. Dakduk..............................    89

                        STATEMENT FOR THE RECORD

The National Coalition for Homeless Veterans.....................    90
VETSFirst........................................................    92
Gold Star Wives of America, Inc..................................    92


  LEGISLATIVE HEARING ON H.R. 357, H.R. 562, H.R. 631, H.R. 844, H.R. 
   1305, H.R. 1316, H.R. 1402, A DRAFT BILL ENTITLED ``IMPROVING JOB 
  OPPORTUNITIES FOR VETERANS ACT OF 2013,'' AND A DRAFT BILL ENTITLED 
  ``TO AMEND TITLE 39, UNITED STATES CODE, TO EXTEND THE AUTHORITY TO 
  PROVIDE WORK-STUDY ALLOWANCE FOR CERTAIN ACTIVITIES BY INDIVIDUALS 
RECEIVING EDUCATIONAL ASSISTANCE BY THE SECRETARY OF VETERANS AFFAIRS''

                       Wednesday, April 10, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 334, Cannon House Office Building, Hon. Bill Flores 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Flores, Runyan, Coffman, Cook, 
Wenstrup, Takano, Brownley, Kirkpatrick.
    Also Present: Representative Miller.

           OPENING STATEMENT OF CHAIRMAN BILL FLORES

    Mr. Flores. Good morning, everyone. The Subcommittee will 
come to order.
    We have a total of nine bills before us and a host of 
witnesses, so I promise to keep my opening statement brief.
    Two of the nine bills before us today are bills I 
introduced earlier this year. The first is H.R. 631, the 
Service Members Choice and Transition Act of 2013, which I 
introduced with Ranking Member Takano.
    This bill is meant as a follow-on to the VOW to Hire Heroes 
Act that would improve the Transition Assistance Program or TAP 
as we call it for separating servicemembers.
    The VOW Act made TAP mandatory for all but a very few 
servicemembers and since the enactment of that bill, the 
services and the Administration have nearly completed an 
overhaul of the TAP Program for the first time in decades.
    From what I have heard from veterans and my staff, though, 
the new curriculum is much improved, but more can be done.
    DoD has created several tracks or courses for 
servicemembers that focus on some of the most common transition 
paths the servicemembers take when separating. These tracks 
focus on the following areas: Education, Vo-Tech, Employment, 
and Entrepreneurship.
    These tracks are meant to provide in-depth knowledge on 
these topics and allow servicemembers the choice in picking 
training that best fits their transition goals. Unfortunately, 
that option is not included in the mandatory portion of TAP.
    For example, if a veteran was planning to go to college and 
use their Post-9/11 GI Bill, the education track would help 
them decide whether they are ready for post-secondary education 
and, if not, how to get ready. This will allow them to 
determine what should be their education or training goal, what 
schools would be best to meet their education or training goal, 
how to complete the admissions process, and, finally, how to 
finance their education or training.
    [Slide]
    Mr. Flores. As you can see from this slide on the screen, 
the Post-9/11 GI Bill benefit can provide over $270,000 over 
four years at one of the most expensive schools in the country, 
in this case Stanford University.
    If taxpayers are going to provide this generous benefit, it 
is our duty to ensure that our military men and women and our 
veterans know how to make the best use of this benefit.
    As I said, from everything we have heard from DoD and as 
they will shortly testify to as well, they will not require 
that these tracks be part of the mandatory portion of TAP.
    As a non-mandatory option, servicemembers could take the 
optional track only if their supervisor would allow them to 
miss more days of work or if they do not meet the still 
undefined career readiness standards.
    Regarding these standards, how can we expect the commanding 
officer to reasonably determine whether a servicemember's 
individual transition plan accurately reflects the attainable 
objectives given the infinite variations in a member's life.
    Therefore, I believe that H.R. 631 would fill that gap by 
making the optional tracks of the mandatory portion of TAP--
while making the optional parts--tracks part of the mandatory 
portion of TAP while giving the services the flexibility to 
meet these requirements.
    As you can see on the screen, the model I am proposing 
provides each servicemember with an executive summary of each 
track followed by time to take the track of their choice along 
with the classes on VA benefits and service-specific separation 
counseling. The model shows five days, but it could be done in 
seven or eight days, whatever it takes to get the job done.
    It is important to note that this model is based off the 
system that the Marines have been piloting with great success 
for some time.
    My second bill, H.R. 1316, seeks to codify the roles and 
responsibilities of directors of Veterans' Employment and 
Training or DVETs as they are known. DVETs are Federal 
employees who represent the Veterans' Employment and Training 
Service on the state level and whose primary responsibility is 
to oversee the DVOPs and LVERs who are funded by the Jobs for 
Veterans State Grant Program.
    Curiously, Title 38 contains no specific responsibilities 
for the DVETs. It only says that there shall be DVETs and 
assistant DVETs.
    The performance of the DVOPs and LVERs programs continues 
to be a topic of concern for this Committee and by codifying 
the responsibilities of DVETs, we will strengthen our position 
with the state to improve the performance of the DVOPs and 
LVERs, something I am sure that we agree must happen.
    With that, I am happy to yield to the Ranking Member, Mr. 
Takano, for any opening statement he may have.
    [The prepared statement of Hon. Flores appears in the 
Appendix]

             OPENING STATEMENT OF HON. MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman, and good morning.
    I would like to thank everyone for joining us and I would 
like to thank our witnesses for taking the time to testify and 
answer our questions.
    We have a number of bills before us today which extend or 
redefine important veterans' programs like the Post-9/11 GI 
Bill, Veterans' Vocational Rehabilitation and Retraining, 
Transition Assistance, Work-Study, and participation in U.S. 
Paralympics programs, among others.
    I have to take a breath after all that list of programs we 
are going to cover.
    I want to thank Chairman Flores for introducing H.R. 631, 
which I have co-sponsored. I support this bill and I am 
interested in making the optional tracks in the Transition 
Assistance Program mandatory.
    The bill requires that additional time be spent helping 
warriors understand the educational training and employment 
resources they have earned and how and where to access them.
    Mr. Chairman, I want to highlight two bills that I have 
sponsored. The first one is the VetSuccess Enhancement Act, 
H.R. 844, which extends by five years the time period when 
veterans with service-connected disabilities are eligible to 
enroll in VA Vocational Education and Rehabilitation programs.
    Veterans with traumatic brain injury or spinal cord injury 
often require years to complete rehabilitation and adjust to 
the new realities of the basic activities of daily living. Once 
this has been achieved, those who wish to return to work and 
need vocational rehabilitative services have often passed the 
12-year eligibility period and many other veterans do not 
become aware of this program until they are no longer eligible.
    My legislation will give these veterans five additional 
years to receive this help.
    The second bill I introduced is the Work-Study for Student 
Veterans Act. It is a five-year extension of the Veterans Work-
Study Program at the Department of Veterans Affairs.
    As an educator and community college trustee, I know how 
important these programs are to students, allowing them to earn 
a little extra cash to live on while they attend school. The VA 
program pays veterans to assist other transitioning veterans in 
navigating VA's claims and benefits system.
    It is an important program to veteran students in my 
district and to thousands of others in schools across the 
country. Without my legislation, it will expire at the end of 
June.
    Thank you, Mr. Chairman, for scheduling this hearing to 
review these bills. I look forward to the testimony and the 
discussion we will have today.
    [The prepared statement of Hon. Takano appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Takano.
    I also am happy to co-sponsor your Work-Study Program bill 
with you and I think it will be a great opportunity and improve 
our veteran services.
    Mr. Takano. Thank you.
    Mr. Flores. We will now hear from any other Members who 
wish to make opening statements about the bills they have 
introduced or for anything else related to this hearing.
    Any----
    Mr. Coffman. Mr. Chairman.
    Mr. Flores. Mr. Coffman.

             OPENING STATEMENT OF HON. MIKE COFFMAN

    Mr. Coffman. Thank you, Mr. Chairman.
    Thank you, Chairman Flores and Ranking Member Takano, for 
holding this legislative hearing today. And I am pleased to 
have my two pieces of legislation be a part of the discussion.
    The first bill which I introduced along with Representative 
Mark Takano is H.R. 1402, the Veteran Paralympic Act. The bill 
would extend through the 2018 fiscal year a joint program 
operated by the U.S. Department of Veterans Affairs and the 
U.S. Olympic Committee that funds grants to a host adaptive 
sports programs for disabled veterans across the country.
    The Veterans Paralympic Act will ensure that disabled 
veterans in local communities throughout the country continue 
to have opportunities for rehabilitation, stress release, and 
higher achievement through adaptive sports.
    The U.S. Olympic Committee's Paralympic chief, Charlie 
Huebner, who will testify today, has said he is proud to 
support its reauthorization. I am proud to lead the effort to 
extend and sup`port this important program.
    Additionally, my bill, H.R. 1412, the Improving Job 
Opportunities for Veterans Act of 2013, seeks to increase the 
availability of on-the-job training and apprenticeship programs 
to help veterans make the transition to the civilian workforce.
    This legislation will build on an existing yet little known 
and underutilized on-the-job training program that assists 
veterans by allowing them to use their educational benefits 
that they have earned through their military service to learn a 
trade or a skill by participating in an approved apprenticeship 
or on-the-job training program.
    There are three pillars of the legislation. First, this 
bill will highlight this program by requiring the secretary of 
Veterans Affairs to initiate a public information campaign 
about the availability of on-the-job training programs for 
eligible veterans.
    Second, the bill will decrease the final percentage of the 
veteran's salary paid by the employer from 85 percent to 75 
percent as a means to further incentivize employers to 
participate.
    And, lastly, the legislation will expand this training 
program by opening it up to agencies of the Federal Government 
including the VA.
    This bill will be a great tool for both private sector and 
Federal employers to hire our veterans who are struggling to 
make that transition from the military to the civilian 
workforce.
    I want to thank all the panelists and I look forward to 
hearing their thoughts as well as those of the other Members of 
the Committee on these important bills.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Flores. Thank you, Mr. Coffman.
    I ask unanimous consent that Chairman Miller, the Chairman 
of the Full Committee, be permitted to sit at the dais and ask 
questions. Hearing no objection, so ordered.
    I now recognize Chairman Miller to talk about his bill, 
H.R. 357, or for any other purposes.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    Mr. Miller. Thank you very much, Mr. Chairman. I appreciate 
you holding this hearing and giving me the opportunity to talk 
to you just a little bit.
    With your permission, I would like to respond to some of 
today's written testimony on H.R.s and 357 and 631.
    And let me first begin by saying state schools, and I am a 
proud graduate of a state college, really cannot have it both 
ways.
    First, the intent of my bill is to expand education 
opportunities for veterans by making all public schools more 
affordable and that Dr. Aldridge's testimony in my opinion is 
factually wrong in stating that veterans already enrolled in an 
institution would be denied GI Bill benefits through my bill. 
The bill is really clear in stating that their benefits will 
continue. The denial applies only to enrollments after the 
effective date.
    Second, while it may be difficult to change residency 
requirements, it is an opportunity for the appropriate 
governing bodies and those bodies that determine tuition rates 
to recognize the contribution of the one percent who defend the 
99 percent. And in my view, it is the least that the 99 percent 
can do for veterans.
    Thirdly, Dr. Aldridge's statement that veterans could be 
forced to seek other likely costlier programs is exactly what 
this bill is designed to prevent.
    According to the College Board, the average nonresident 
tuition rate at public four-year schools is $21,706 while 
resident rates average $8,655. That is an average of 250 
percent increase over in-state tuition rates and in many 
states, the increase is about 300 percent for nonresidents.
    My bill would reduce what is often a $24,000 tuition and 
fee bill to under $9,000 on average.
    Dr. Aldridge also expresses concern about confusion. 
Confusion will only happen if the school does not make 
residency requirements clear during the admissions process.
    And, more importantly, the passage of H.R. 357 will remove 
any such confusion. A school will either be approved or not 
approved for new enrollments under the GI Bill.
    Regarding how tuition is determined, Dr. Aldridge is 
suggesting that veterans be treated less favorably than many 
nonresident non-veterans. Take this for an example.
    Forty-six of 50 states belong to one of four regional 
compacts which give significant tuition discounts at state 
institutions to nonresident students from states within that 
very regional compact.
    For example, the southern regional education board offers 
in-state rates to students from the 16 states. Students from 
the 15 states who are enrolled in schools in the western 
undergraduate exchange program pay 150 percent of the in-state 
rate.
    Students from the nine state Midwestern student exchange 
program also pay the 150 percent rate at participating state 
schools and even get a ten percent discount at many private 
institutions.
    And, finally, students from the six states in the New 
England regional student program receive an average tuition 
discount of almost $7,000.
    Also of note, some states have adopted legislation to allow 
children of undocumented immigrants to attend at in-state 
rates.
    In its broadest application, my bill would simply encourage 
a national approach to what many states are doing already on 
their own. And in the end, it is the right thing to do for our 
veterans.
    So despite Dr. Aldridge's concerns about overreaching and 
the states' rights, I would remind her that Federal dollars 
usually come with requirements, whether mandating that states 
provide in-state rates for active duty servicemembers, drinking 
age of 21 as a condition to receive Federal highway funding, or 
Federal contributions to states for Medicaid just to name a 
few.
    And, finally, while I really do appreciate Dr. Aldridge's 
suggestions, two of the four proposals would require additional 
Federal funds to the states, another example of wanting it both 
ways.
    Since the Post-9/11 GI Bill already pays full tuition and 
fees at state schools, it eliminates the need for state schools 
to participate in the Yellow Ribbon Program for most veterans.
    I would note that VA is now already investing $11 and a 
half billion, $11 and a half billion in post-secondary 
education and training and I believe our colleges and 
universities are benefitting just as much as are our veterans.
    Briefly a couple of thoughts, if I might, Mr. Chairman, on 
H.R. 631. I find the testimony from the three departments 
really short-sighted to put it mildly.
    The failure of the model imposed on the services to include 
detailed training on the tracks as part of the mandatory 
curriculum, especially the education track, is a disservice to 
both the soon to be veteran and the taxpayer alike.
    And, additionally, for an Administration that has made so 
much about what they describe as schools preying on veterans, I 
find the reluctance to include the tracks as part of the 
mandatory curriculum totally inconsistent with those concerns.
    So with that, Mr. Chairman, I wholeheartedly support your 
legislation and that legislation that is being heard today. 
Thank you so much for letting me speak out of order and I yield 
back my time.
    Mr. Flores. Thank you, Mr. Chairman, for joining us today.
    Congresswoman Kirkpatrick, any opening remarks?
    Mrs. Kirkpatrick. No.
    Mr. Flores. Okay. And thank you.
    Anybody else on our side? Mr. Wenstrup.

            OPENING STATEMENT OF HON. BRAD WENSTRUP

    Mr. Wenstrup. Thank you, Mr. Chairman, and thank you, 
Ranking Member Takano.
    I rise today in support of H.R. 1305 which is a bill to 
help veterans gain access to vital job training programs. 
Currently, homeless veterans are eligible for job training and 
placement services under the Homeless Veterans Reintegration 
Program.
    Unfortunately, the Department of Labor concluded that 
veterans who are participating in the HUD-VASH Voucher Program, 
which is a Veterans Affairs' supportive housing voucher 
program, are not considered truly homeless and, therefore, they 
are ineligible for the very program that will help them reenter 
the workforce and get them back on their feet.
    Now, our troops are people of action and our veterans have 
sacrificed deeply for our country. And we should not let 
Washington bureaucracy stand in the way of assisting those who 
need help the most.
    This legislation will help homeless veterans find housing 
and meaningful employment and elevate themselves out of poverty 
into self-sufficiency, free from government dependence. So I 
urge your support of this.
    And, Mr. Chairman, I yield back my time.
    Mr. Flores. Thank you, Mr. Wenstrup.
    Mr. Cook?
    Mr. Cook. No comment.
    Mr. Flores. Mr. Runyan?
    Mr. Runyan. No.
    Mr. Flores. And I believe that is it, so I will thank the 
Members.
    And I will now introduce our first panel. Our first witness 
will be Mr. Curtis Coy from the VA who is accompanied by Mr. 
Danny Pummill. Next we will have Dr. Susan Kelly from the 
Department of Defense. Finally, we will have Mr. Keith Kelly 
from the Department of Labor. Mr. Kelly is the new Assistant 
Secretary for Veterans' Employment and Training.
    Congratulations to you, Mr. Secretary, and welcome.
    Each of you will have five minutes to summarize your 
testimony and your complete written statement will be made part 
of the hearing record. Thanks to each of you for being here, 
and let's start with Mr. Coy.

    STATEMENTS OF CURTIS L. COY, DEPUTY UNDER SECRETARY FOR 
 ECONOMIC OPPORTUNITY, VETERANS BENEFITS ADMINISTRATION, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS, ACCOMPANIED BY DANNY PUMMILL, 
   DIRECTOR, VETERANS BENEFITS ADMINISTRATION/DEPARTMENT OF 
 DEFENSE PROGRAM OFFICE, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 SUSAN KELLY, DEPUTY DIRECTOR, TRANSITION TO VETERANS PROGRAM 
  OFFICE, U.S. DEPARTMENT OF DEFENSE; KEITH KELLY, ASSISTANT 
  SECRETARY, VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. 
                      DEPARTMENT OF LABOR

                   STATEMENT OF CURTIS L. COY

    Mr. Coy. Thank you very much, Mr. Chairman, and good 
morning, Mr. Chairman, Ranking Member Takano, and other Members 
of the Subcommittee. Thank you for the opportunity to discuss 
VA's views on pending legislation.
    As you noted, Mr. Chairman, accompanying me this morning is 
Mr. Danny Pummill, Director of the VBA/DoD Program Office.
    We appreciate the Committee's attention to the important 
subjects that these bills cover, particularly with respect to 
TAP leveraging Post-9/11 GI Bill, changes to VRAP, vocational 
rehabilitation programs, and the continuation of veterans' 
Paralympics Program.
    In the interest of time, I will highlight and summarize a 
few points from my written statement.
    VA is happy to support H.R. 844, the VetSuccess Enhancement 
Act, which would extend to 17 years for enrollment in VA 
Vocational Rehabilitation and Employment services. That will 
allow VA to provide those eligible individuals the help they 
need over a longer period of time.
    We are also pleased to support H.R. 1402 which will allow 
VA to continue its support for adaptive sports programs for 
disabled veterans and disabled servicemembers. These programs 
offer remarkable and inspiring opportunities for those who have 
sacrificed for our country.
    Turning to other bills on the Committee's agenda, H.R. 357, 
the GI Bill Tuition Fairness Act, would direct VA to disapprove 
courses of education provided by public institutions of higher 
education that do not charge veteran students tuition and fees 
at an in-state rate regardless of their state of residence.
    While VA is sympathetic to the issue of rising educational 
costs, it is difficult to endorse the proposed legislation 
until we know more about the impact. We would be happy to work 
with the Committee and our educational partners to better 
understand how this might affect or limit veterans in their 
course or school offerings.
    H.R. 562 would extend VRAP for an additional three months 
through 30 June 2014. It would also require an interim report 
on the program not later than 30 days after the date of the 
bill's enactment.
    We support extending VRAP the additional three months to 
give vets additional time to complete their degree or 
certificate program. We do, however, recommend a longer period 
of time to submit the interim report called for in the bill. 
Allowing VA and DoL additional time to collect sufficient data 
will ensure the most accurate reporting of VRAP's successes.
    H.R. 631, the Servicemembers Choice in Transition Act of 
2013, would amend the TAP Program which provides employment and 
job training and assistance and related services for 
servicemembers separating from the active duty and for their 
spouses. It would add a new subsection imposing specific 
requirements in statute for TAP's format and content.
    We appreciate the strong interest and support from the 
Committee to ensure departing servicemembers are given full and 
effective engagement on their benefits and employment and 
training opportunities as they separate from active duty.
    However, we cannot offer VA's support for this legislation 
as we believe current initiatives with the same aims including 
the VOW to Hire Heroes Act and the Veterans' Employment 
Initiative should be given the opportunity to be fully 
implemented and assessed before embarking upon further 
legislation.
    We would be pleased to brief the Committee on the 
implementation of TAP as part of VEI and to work with the 
Members to continue to improve and enhance the program.
    Public Law 107-103 established a five-year pilot program to 
expand qualifying work-study programs to include outreach 
programs with state approving agencies, administration 
activities at national and state veterans' cemeteries, and 
assisting with the provision of care to veterans in state 
homes.
    This program is currently due to expire on 30 June of this 
year. This draft bill would extend authority for these 
activities for an additional five years.
    VA does not oppose this legislation, but would prefer the 
legislation provide a permanent authorization for these work-
study activities.
    Finally, the Improving Job Opportunities for Veterans Act 
of 2013 would amend VA's on-the-job training programs. The 
legislation would temporarily adjust the percentage of starting 
wages an employer must provide by the end of the program from 
85 to 75 percent.
    VA believes this change could help increase training 
opportunities for veterans. As well, the draft bill would 
require VA to enter into agreements with other Federal agencies 
to operate their own OJT programs.
    VA supports the intent of this section. However, we do not 
believe it is necessary as VA has been able to strike numerous 
agreements with Federal agencies for OJT under the authority we 
now have.
    There are two other provisions in the bill which VA will 
provide its views on in a follow-up letter to the Committee.
    Mr. Chairman, that concludes my statement. Thank you for 
the opportunity to appear before you today. We would be pleased 
to respond to any questions you may have or other Members of 
the Subcommittee.
    [The prepared statement of Curtis L. Coy appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Coy.
    Mr. Coy. Yes, sir.
    Mr. Flores. Dr. Kelly.

                    STATEMENT OF SUSAN KELLY

    Ms. Kelly. Good morning, Chairman Flores, Ranking Member 
Takano, and distinguished Members of the Subcommittee. I 
appreciate the opportunity to be here today joined by my 
colleagues from the Department of Veterans Affairs and Labor 
and to share the Department of Defense's views on the 
legislation being considered by the Subcommittee.
    My remarks this morning will be limited to H.R. 631, the 
Servicemembers Choice in Transition Act of 2013, which would 
amend Section 1144 of Title 10, United States Code pertaining 
to the Transition Assistance Program or TAP.
    The department's cost estimate for this bill is currently 
under development.
    As you know, TAP is the cornerstone of the department's 
transition efforts and is a collaborative partnership among the 
DoD, the VA, and DoL. It is the primary platform used to 
deliver an array of services and benefits information to our 
separating servicemembers.
    While we believe the intent of H.R. 631 is to improve the 
transition process for separating servicemembers, we have 
concerns over how it would if enacted contradict the 
requirements of the VOW to Hire Heroes Act of 2011 codified in 
Chapter 58, Title 10, U.S. Code.
    The VOW Act was intended to prepare transitioning 
servicemembers to join and be competitive in the labor market 
by using the skills, knowledge, and experience they have 
acquired during military service.
    The department is unable to support this bill as we believe 
it would not only undermine the progress already made in the 
redesign of the TAP, but would also potentially disadvantage 
our servicemembers and our ability to ensure they are career 
ready upon separation from the military.
    The redesigned TAP including a new curriculum called 
transition GPS, goals, plan, success, is aligned with the VOW 
Act which requires all servicemembers discharged or released 
from active duty after serving their first 180 continuous days 
or more to participate in pre-separation counseling, VA 
benefits briefings, and the DoL employment workshop.
    With limited exemptions, the VOW Act requires the DoL 
employment workshop to be a mandatory portion of the TAP. H.R. 
631 conflicts with the VOW Act by making the employment 
workshop an optional track for separating servicemembers.
    The department agrees with the original intent of the VOW 
Act that all servicemembers benefit from taking the employment 
workshop regardless of their immediate plans upon leaving 
military service because they will need job search skills at 
some point.
    The heart of the redesigned TAP is the career readiness 
standards or CRS. The standards correspond to deliverables that 
all servicemembers must meet prior to separation. The value of 
the CRS in ensuring servicemembers have the tools they need to 
become productive members of our labor workforce cannot be 
overstated.
    The employment workshop currently requires three full days 
of adult learning instruction which would be limited to two 
days under the optional election prescription of H.R. 631. The 
shortened timeframe reduces the ability of the employment 
workshop to provide the needed job search skills for our 
servicemembers to meet the new CRS.
    The prescriptive timeframe reduces the ability of the 
entire redesigned TAP to evolve into the military life cycle of 
TAP and mature to keep pace with changes in adult learning to 
adjust to include skills building that our servicemembers tell 
us they need and respond to developments in the job search 
arena.
    The DoD, military departments, and our interagency partners 
are successfully implementing the redesigned TAP to enable our 
servicemembers to meet career readiness standards. DoD believes 
that the best course of action at this time is to continue the 
implementation of the newly redesigned TAP in accordance with 
the VOW Act and the recommendations of the veterans' employment 
initiative task force.
    We will continue to work with your staff to keep this 
Subcommittee updated on our progress.
    Mr. Chairman, that concludes my statement. On behalf of the 
men and women in the military and their families, I thank you 
and the Members of this Subcommittee for your steadfast support 
and your leadership in this important area. I am happy to 
answer any questions you or the other Members of the 
Subcommittee may have.
    [The prepared statement of Susan Kelly appears in the 
Appendix]

    Mr. Flores. Thank you, Dr. Kelly
    Secretary Kelly.

                    STATEMENT OF KEITH KELLY

    Mr. Kelly. Good morning, Chairman Flores, Ranking Member 
Takano and distinguished Members of the Subcommittee. Thank you 
for the opportunity to participate in today's hearing on the 
pending legislation.
    My name is Keith Kelly and I am honored to serve as the 
Assistant Secretary for the Veterans' Employment and Training 
Service at the Department of Labor. I look forward to working 
with each of you to ensure that the brave men and women who 
serve this country have the support they need to succeed in the 
civilian workforce.
    I will use my time here today to highlight some of the 
department's views on the labor related legislation before the 
Committee. I respectfully defer to my colleagues here at the 
table from DoD and VA on the remaining pieces of legislation.
    First, I would like to discuss H.R. 562, the VRAP Extension 
Act of 2013, which would extend by three months an important 
program created by the VOW Act.
    DoL has been working diligently with the VA and others to 
implement VRAP and specifically by conducting research, 
developing guidance, identifying high demand occupations, 
verifying applicants' initial eligibility, and providing 
services to veterans before, during, and after they participate 
in the VRAP.
    The department supports this legislation. However, we 
recommend limiting any interim report to include administrative 
data only. We defer to the VA on the best elements and 
timeframe for the submission of this report.
    The next bill I would like to discuss is H.R. 631, the 
Servicemembers' Choice in Transition Act of 2013. This 
legislation would amend the Transition Assistance Program as we 
all refer to and commonly know as TAP under Section 1144 of 
Title 10.
    TAP is an interagency effort designed to provide 
transitioning servicemembers and their spouses with the support 
they need to successfully transition to the civilian workforce.
    As part of TAP, the department provides a comprehensive 
three-day employment workshop at U.S. military installations 
worldwide.
    The department has serious concerns with H.R. 631, and I 
would like to highlight a few of them.
    First, the Department of Labor is concerned that the 
legislation would impede Labor's efforts to fulfill our 
obligations under the VOW Act which made participation 
mandatory for most transitioning servicemembers.
    In addition, the VOW Act mandated that we transition to all 
contractor facilitation to ensure a standardized curriculum 
which we have just done.
    DoL is also concerned that H.R. 631 would impede the 
implementation of the new employment workshop, again working 
with our fellow agencies, as well as the interagency transition 
GPS training and delivery model.
    The department has been working with our fellow agencies 
and others for the past several years to completely redesign 
the employment workshop, and during that process, the 
department sought input from a variety of sources and conducted 
numerous pilot programs, curriculum reviews, and surveys to 
ensure that we develop the best possible product.
    We also worked with the VEI task force to incorporate the 
new curriculum into the GPS model as a three-day transition 
program for separating servicemembers.
    In the last few months, we rolled out the new curriculum in 
all the military installations worldwide. While the preliminary 
results have been very positive, Labor remains committed to 
working with this Committee to continually review and update 
the curriculum.
    As a result, the department believes this legislation is 
unnecessary and would negatively impact transitioning 
servicemembers at this time.
    The third bill I would like to discuss is H.R. 1305, which 
would expand eligibility for the Homeless Veterans 
Reintegration Program commonly known as HVRP to include 
incarcerated veterans and veterans participating in the VA HUD 
Supportive Housing Program.
    The department supports this legislation which would allow 
DoL to be responsive to the service needs for all these 
populations.
    And, finally, I would like to address H.R. 1316. This 
legislation would amend Section 4103 of Title 38 and 
legislatively prescribe the duties of our state directors for 
Veterans' Employment and Training better known as DVETs.
    The department appreciates the intent of this legislation. 
However, the Department is concerned that as drafted, H.R. 1316 
would unduly prescribe the duties of our DVETs and remove much 
of the managerial flexibility.
    Moreover, many parts of the bill are duties the DVETs 
already perform which are assessed as a part of their annual 
performance appraisal.
    Finally, the department is concerned that this legislation 
would be problematic to implement.
    So in conclusion, as Members of the Committee and the 
Subcommittee know, over the next five years, one million 
servicemembers will transition from active duty to civilian 
life and we do owe them the best possible services and benefits 
our Nation can provide.
    The Department of Labor is firmly committed to working with 
this Committee and others to fulfill that sacred obligation.
    That concludes my statement. I am pleased to answer any 
questions you may have.
    [The prepared statement of Keith Kelly appears in the 
Appendix]

    Mr. Flores. Thank you, Secretary Kelly.
    And I thank all of you for your testimony today. Let's 
start with the questioning, if we can, and I will begin.
    The first question is for Dr. Kelly. As we talked about in 
my opening statement, the Marine Corps has a model that is 
working fairly well and that is reflected in H.R. 631.
    Are you saying that the model that has been successfully 
implemented by the Marine Corps is less effective in preparing 
servicemembers, the NAP that is being imposed by the DoD on the 
services?
    Ms. Kelly. Actually, DoD, you used the term imposing. The 
services were at the table in developing this entire curriculum 
and we started with the basics of what we wanted the 
servicemembers to separate with as they became veterans.
    That set the baseline for the career readiness standards. 
So we started with career readiness standards and then we 
developed the curriculum to provide the skills building that 
the servicemembers needed to provide the deliverables to meet 
the career readiness standards.
    That is how all of the curriculum was developed and the 
services were all engaged in that. So the imposition in 
reference to the decision type memorandum was the curriculum 
developed with the services, the services coordinated on the 
decision type memorandum across the board, and that is the 
format that they have been implementing.
    As far as success, I do not think we are there defining 
what model is successful yet. That is exactly my concern. We 
are only in the middle or, actually, we are just starting 
implementing the transition GPS. We have only piloted the 
transition GPS core curriculum.
    We have not fully piloted the three tracks that were 
developed by the task force. We are going to be piloting those 
across the next several months, assessing those just as we did 
rigorously in the core curriculum, take the results of those 
track pilots, modify those curriculums, and then launch them 
fully. We have until October of 2013 to do that.
    So the assessment of success of the marine model has not 
yet been determined is the bottom line. So I just caution you 
on that particular assumption. The curriculum with all of the 
tracks as well as the capstones have not been fully assessed 
yet.
    We need time to do that which is exactly the point of my 
concern. We need time to implement. We need time to fully 
assess the curriculum across all of the services and how each 
one of the services choose to implement the capstone also. 
There are pieces that are not yet fully in place. So that is my 
concern.
    Mr. Flores. One of the things you mentioned was career 
readiness standards. So the question is, what are career 
readiness standards? And I have sort of a rhetorical question 
to go with that and that is, would you consider a servicemember 
who intends to attend college after separation but who has not 
been allowed to attend the new education track as being ready 
for transition? Does that fit the definition of career 
readiness standards?
    Ms. Kelly. That is a very good question and I thank you for 
that.
    The servicemember who is choosing to use their Post-9/11 or 
who was planning or exploring that option to use their Post-9/
11 GI Bill either in higher education or in a technical 
training institute chooses that path, that means they have 
chosen those career readiness standards that they have to meet.
    So we expect them to provide the deliverables to show that 
they are career ready in the paths that they have chosen. They 
choose the path that they are going to take. They provide those 
deliverables.
    But those are the paths that we are--the tracks that we are 
talking about right now, higher education, technical training, 
and entrepreneurship. Those tracks are in addition to the 
mandatory employment career readiness standards.
    So in following the VOW Act, the department and all of the 
partners have implemented a program where you have core 
curriculum and core CRSs. You have career readiness standards 
that meet the employment requirements across the board. 
Everyone has to provide those career readiness standards. And 
if they choose another path, they have to provide those career 
readiness standards also.
    But it was the view of the task force and, of course, as 
imposed by the VOW to Hire Heroes Act that everyone attend the 
DoL employment workshop. And we agreed with that. Everyone, 
whether they go into higher education, technical training, they 
all are going to need those skills to join the labor force.
    Mr. Flores. My time has expired. I am going to recognize 
Ranking Member Takano for his questions.
    Mr. Takano. For the Veterans Affairs Department, can you 
talk a little bit about your Work-Study Program and its 
successes?
    Mr. Coy. Thank you very much, Mr. Takano, Congressman 
Takano.
    Our Work-Study Program is a pretty extensive program. The 
extension on this is just for those pieces that expire this 
year. We do a wide variety of other work-study type programs.
    For example, we do outreach programs. We do preparation and 
processing of paperwork at VA facilities, educational 
institutions, hospitals, medical treatment centers, and a 
number of those other things.
    So our future outreach efforts that we are working on now 
is, we are developing a communication plan in conjunction with 
our state approving agencies and that association to help us 
put that together so we can issue good and updated guidance 
that will encourage that sort of outreach through the schools 
for our Work-Study Program.
    We are also looking at enhancing our call center scripts 
for those students that are calling in. We are updating our 
portfolio of outreach products to include brochures, our Web 
sites on VetSuccess, as well as our GI Bill Web site.
    We are also looking at displaying work-study products on 
our e-benefits Web site. And we are also on a routine basis 
promoting them through our social media channels meaning 
Facebook and Twitter and some of those other things.
    Mr. Takano. Great. Thank you.
    Do you have any recommended changes for H.R. 357? I mean, I 
know that you are a little cautious on what its effects might 
be, but do you have any thoughts on any changes that you would 
make?
    Mr. Coy. I do not know that we have specific recommended 
changes, Congressman Takano. We are looking at it and our 
caution is, as we look at any proposed legislation or new 
program, we sort of box it into sort of two key elements and 
one is do no harm to veterans and what are we hoping to 
accomplish with doing this.
    As you know and as Chairman Miller pointed out as well, the 
in-state tuition requirements vary across all 50 states and 
within schools. And one of our concerns is could, or might, or 
how would we help design a program that would not limit choices 
to our veterans such that we could figure out a way for our 
veterans to have as many choices and informed choices as 
possible.
    I think perhaps the other issue that we would like to look 
into is currently it applies only to veterans as we read the 
proposed legislation. It does not apply to spouses and 
dependents and some of the other beneficiaries. And so we need 
to understand that impact as well.
    Mr. Takano. Help me understand the legislation. Does it 
still require students to meet the residency requirements or 
does it allow for waivers of residency requirements completely? 
Do you know?
    Mr. Coy. I am sorry. I----
    Mr. Takano. I am wondering if this requires that veterans 
who have access to education, education at state colleges, at 
in-state tuition rates, not have to qualify for residency at 
all?
    Mr. Coy. It is my understanding, sir, and, again, each 
state has its own residency requirements and then, of course, 
each college has their own in-state tuition requirements as 
they relate to those residency requirements, it is my 
understanding that this bill would require that any school that 
does not agree to provide in-state tuition rates to veterans 
would not be eligible for GI Bill benefits or Post-9/11 GI Bill 
benefits.
    Does that answer your question?
    Mr. Takano. I am trying to determine whether the residence 
requirements are just waived for the veterans so that if they 
move into a state, they do not have to meet the usual 
requirements.
    Mr. Coy. I would suggest that the legislation requires that 
the school waive the residency requirements such that they 
would be charged in-state tuition.
    Mr. Takano. Okay.
    Mr. Coy. I hope I answered that.
    Mr. Takano. Yes, you did.
    Mr. Coy. Thank you.
    Mr. Takano. Thank you.
    Mr. Coy. Yes, sir.
    Mr. Flores. Thank you, Mr. Takano.
    I will comment here that 357 does not define residency, so 
we are not interfering with any state law with respect to 
residency. It really just says that the schools will charge the 
in-state rate. So it does not mess with the definition of 
residency.
    With that, I will now recognize Mr. Coffman for five 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Coy, in your written statement, you failed to take a 
position on Section 2 of H.R. 1412, the on-the-job training 
bill, which required the VA to undertake a public relations 
campaign to promote the OJT apprenticeship program.
    How does the Veterans Administration or Department of 
Veterans Affairs currently promote this program?
    Mr. Coy. Thank you. That is a very good question, sir.
    We promote the program through a number of different ways, 
many of them very similar to the kinds of things that I 
mentioned earlier for the Work-Study Program.
    Interestingly enough, we are working through many of our 
SAAs to develop, you know, increased awareness in the program. 
And so what we are doing is we are working with those national 
associations, NASAA being the most prominent. We are working 
with the president and vice president of NASAA to help us 
formulate additional outreach campaigns and ways that we can 
streamline the OJT program because we probably are not 
leveraging it to the extent that we should or might.
    Mr. Coffman. When did you start this process because the 
participation rate has just been extraordinarily low in this 
program? So are you just merely planning this process or are 
you executing a plan at this point in time?
    Mr. Coy. We started this process probably about six months 
ago and had those discussions with the SAAs. I have given talks 
at several of their conferences.
    With respect to OJT, last year we had about 2,500 people 
participate in the program. The year before it was about 5,600. 
So you are right. It has dipped down in the last year.
    Mr. Coffman. Mr. Coy, in your written statement on H.R. 
1412, again, the OJT bill, you said that you did not need 
additional authority to encourage other Federal agencies to use 
the program.
    How many Federal agencies use the VA OJT program to help 
train new workers?
    Mr. Coy. Yes, sir. There are sort of two parts to the 
question or to my answer. The first part is right now we have 
agreements with 15 other Federal agencies, and we will be happy 
to provide you that list, for over 50 occupations on a national 
level. In other words, if there is an occupation in Department 
of Homeland Security, it applies to any of those occupations 
throughout the 50 states.
    What we do not have good information on are those local 
agreements that we have OJT agreements with. But I will tell 
you that we do have national agreements with 15 agencies for 
about 50 different occupations.
    Mr. Coffman. Okay. I understand you are going to supply 
some additional written materials to the Committee on that. And 
could you state where the statutory authority is for you to do 
that because I do not read that in current law?
    Mr. Coy. I will have to take that for the record, sir, and 
we will get back to you on what that specific statutory 
requirement and/or regulation that we are citing to be able to 
do that.
    Mr. Coffman. Very well.
    Mr. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Coffman.
    Ms. Kirkpatrick, you are recognized for five minutes.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    My first question is for each member of the panel. Do you 
support making the additional specialized tracks mandatory?
    And let's start with you, Mr. Coy.
    Mr. Coy. I think right now, as I stated in my written 
testimony, what we would like to do now is assess where we are. 
We are currently running essentially three different TAPs 
because TAP is now mandatory for servicemembers. So we are 
still doing, if you will, old TAP the way we did it in years 
past so we can make sure that we are doing TAP for those 
individuals.
    We are rolling out the new TAP Program and we are piloting 
and building the TAP GPS Program. So we are sort of riding 
these three bikes as we are going forward. And I would suggest 
that probably what we would like to do is be able to implement 
those programs before we have legislative requirements to do 
something additional.
    Mrs. Kirkpatrick. Dr. Kelly.
    Ms. Kelly. I think what I would like to have happen is to 
give us time to roll out the redesigned program and to assess 
that. But I would also like to have that considered in light of 
our second phase and the end state for the Transition 
Assistance Program.
    And that is for this curriculum to be rolled out and 
implemented across the military life cycle so that the issue of 
time becomes less important and it is the outcome of the 
curriculum that the services and our partners have determined 
is most important for our servicemembers to ensure that they 
are career ready. And we focus on the skills building as 
evidenced by them meeting the career readiness standards.
    I also would ask for the time consideration to be held back 
because we are also developing a virtual curriculum. And all of 
this curriculum is going to be provided virtually so that 
members can go to that Web site and go through the training on 
their own time, complete the activities on their own time, the 
deliverables on their own time, and do that over and over and 
over again as they want to and so that all of the tracks via a 
virtual curriculum is available to everyone. But we need time 
to do that.
    We are now engaged with all of our partners, taking the 
curriculum and modifying that into a virtual curriculum with 
specific standards, and putting that on the Department of 
Defense's joint knowledge online so that military members will 
go to that Web site where they get their other military 
training and preparation for separation after their military--
their military careers is a part of that military life cycle.
    So I think what I would prefer is to give us time to make 
this entire curriculum, this entire TAP redesign, and the 
career readiness standards value added to all of our 
servicemembers and they can explore multiple tracks and the 
curriculum on their own time rather than mandating a specific 
track for each one of them.
    Mrs. Kirkpatrick. So it sounds like you think that keeping 
flexibility in the system is better for your students than 
having a mandatory imposed track?
    Ms. Kelly. I agree. I would say that I support the VOW Act 
mandate of the Department of Labor's employment workshop track 
because whether they choose higher education, technical 
training, whatever track that they choose, they are going to 
need the job search skills eventually to join the labor force.
    And those skills that the Department of Labor is building 
in their current employment workshop is very, very exciting and 
eye opening for our servicemembers right now at the locations 
where they are providing that new curriculum.
    It is exciting to watch those servicemembers start to 
document their experiences, translating those military skills 
and experiences, practicing their elevator speeches, and 
actually have the opportunity on that third day to watch 
someone role play interviewing with an employer and a 
servicemember, and then actually having to practice those 
interview skills, very value added.
    Mrs. Kirkpatrick. Thank you, Dr. Kelly.
    Ms. Kelly. And that is what our focus is, value added.
    Mrs. Kirkpatrick. Thank you.
    I have about ten seconds left. Secretary Kelly, I would 
just like to hear your answer.
    Mr. Kelly. Thank you, Congresswoman.
    The department appreciates the intent of this legislation a 
lot to provide more education and skills training for our 
servicemembers. But we share the same concerns as my fellow 
colleagues do here today.
    We have just rolled this out on January of this year after 
several years of pilots and after a lot of times spent working 
with the agencies and the services, putting together the best 
minds and the experts together to redesign the curriculum, so 
respectfully look at let's try this walk before we run, see how 
this core program curriculum really works going forward.
    And as both of my colleagues have alluded to, Dr. Kelly 
specifically said the value of the core curriculum helps you if 
you want to be an entrepreneur. The value of the core 
curriculum really helps you if you want to go to school. There 
is a lot of self-assessment and training.
    So we are pretty excited about what is going on here and 
the reports have come back very positive----
    Mrs. Kirkpatrick. Thank you.
    Mr. Kelly. --on this new revised TAP. Thank you.
    Mrs. Kirkpatrick. Thank you to all the panel.
    And thank you, Mr. Chairman, for your courtesy in allowing 
me to exceed my time.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    Mr. Wenstrup.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    I would like to go back a little bit further in the whole 
process of transition from being a member of the military to 
being enrolled in the VA.
    And perhaps that is a question for you, Mr. Pummill, is 
what is the process, how do you become aware of someone who has 
left military service and become part of the VA?
    Mr. Pummill. Right now we will do it through the transition 
program. Prior to the transition program that we have in place 
right now because of the VOW Act, it was if a servicemember 
went through their transition program and the VA provided them 
the information at a briefing, I believe the marines had a 
mandatory program, the other services, it depended on your rank 
and your time and service and stuff, so there were some cases 
where we did not find out about veterans.
    Mr. Wenstrup. So you would like to have their service 
record perhaps? Would that be helpful to you?
    What I am getting at is it seems to me when I talk to 
veterans, and I am a veteran, that there is a wall, that when 
they leave the military that there is a wall and they have to 
start over when it comes to transitioning into the Veterans 
Administration.
    Would anyone on the panel have any objection that if the 
DoD would automatically electronically, rather than through 
snail mail, get their service record to you, so you know who 
these people are, so you can find them and get them engaged in 
the process? Would that be helpful?
    Ms. Kelly. That was one of the concerns of the VEI task 
force. And one of the focuses of the career readiness standards 
and the work of the task force to build those bridges between 
our servicemembers to Veterans Affairs and to the Department of 
Labor.
    And one of the career readiness standards that is now in 
place is that our military members have to register into VA's 
e-benefits. So they are fully registered. They are VAs for life 
after that. So they are registered in e-benefits.
    But the other piece is that capstone that I alluded to 
earlier and the capstone will be where commanders, the 
representatives verify the career readiness standards. And if 
there is a missed career readiness standard, there will be 
hand-offs to both the Department of Labor and VA. So we have 
very much focused on building that bridge.
    Mr. Wenstrup. It has come to my attention that a lot of 
this is done through like snail mail rather than you 
automatically getting the servicemember's records, their skill 
sets.
    And my question to you is, would that be a benefit that 
would automatically transfer to you so that you know who your 
veterans are, what their skills are, and to get them more 
rapidly into a program that fits their needs and also find jobs 
for them that fit their skills?
    Anyone can take it.
    Mr. Pummill. Yes, Congressman.
    I think that, you know, anything we can get is good. And we 
are working several projects with Department of Defense right 
now. One is this year, we will start getting their service 
treatment records sent to the VA electronically. I believe the 
turn-on date is October of this year. So they will be getting 
all of those electronically.
    We already get from several of the services now the DD-214s 
electronically and I cannot remember which service we are not 
getting it, but we are getting a download, an electronic 
download so we can see the discharge date and the information 
on the DD-214s.
    We are still working on trying to compile that data so that 
it is a fully electronic transfer to the VA. We are also 
working with the Department of Defense on a task force for all 
their records, the 201 files, dental records, et cetera. The 
army has an electronic 201 file which we now have access to 
through the Department of Veterans Affairs.
    The goal from in--VBA--my boss, Secretary Hickey, is that 
she wants every record that she could get from the Department 
of Defense in electronic format. And we have teams and 
Committees working on that right now. The only one that we have 
locked in is the service treatment record which will also be 
certified as a full and complete record, too, so we do not have 
to do additional searches and stuff like that.
    I think we are on track to get most of those, but I think 
it is a good idea.
    Mr. Wenstrup. Well, I think that can streamline things and 
very much help our troops through the transition process and 
certainly I hope that we will be encouraging of that effort 
from this end.
    And I appreciate your approach of servicemember for life. 
As our troops enter the service, it should not end on the day 
they take off that uniform. It continues on through you and we 
should make that very smooth.
    And I yield back my time.
    Mr. Flores. Thank you, Mr. Wenstrup.
    Congresswoman Brownley.
    Ms. Brownley. Thank you, Mr. Chair.
    I just have one question regarding the transition 
situation. So I have heard from lots of veterans that, and I 
know the current program is trying to address the situation, 
but where vets are so anxious to get out that they are not 
really focused on the programs that are being offered and then, 
you know, six months down the road or a year down the road or 
whatever, they are concerned and the resources are not there 
available.
    So I heard you mention virtual curriculum and I would 
imagine that would address that one particular issue. I am 
wondering if you have any other strategies to address that 
problem.
    Ms. Kelly. Well, one of the important strategies is within 
the Department of Labor and that is at their American job 
centers. And I will let Mr. Kelly speak to that.
    Mr. Kelly. Thank you, Congresswoman.
    To follow-up on that, what we are really looking at are 
four touch points with that because you are correct when you 
are coming and processing out, you are ready to go home and not 
get slowed down on the way out.
    One of those touch points would be, we made it as best as 
possible, about 70 days out, to check in with those folks 
through the American job center network of 2,700 offices 
nationwide, how are things going, are you in school, do you 
have a job, or are there some issues that have now kind of, as 
you have settled down, that perhaps we want to revisit that and 
plug them back into all of those services, the employment 
training services available out there to them.
    So we have reached it now, not just as they walk out the 
door, you got a job or not, let's check back in up to 70 days 
to see how things are really going on that. That is one of the 
approaches used on that through, as I indicated, the 2,700 
locations around the country.
    Ms. Brownley. But there is not any access for veterans who 
a year down the road are reconsidering what their future might 
look like and rather than--a virtual curriculum is good in one 
way, but really trying to determine what their future might be, 
where their desires are.
    Is there any way in which to interact to kind of discuss 
what their potential career paths can be?
    Mr. Kelly. Yeah. Thank you, Congresswoman.
    I think you raise a good point. The TAP Program itself is 
really a lot of self-assessment to where do I really think I am 
headed down life and what are the things that are important to 
me. And that is mandatory to kind of do that. First, flesh 
those things out.
    Then, you know, if it is for an individual who is sitting 
out there six, eight months, a year out still not quite sure 
what they want to do ahead and perhaps decided not to do an 
entrepreneurial track or not to go to some advanced education, 
those American service centers are still there to give them 
priority of service.
    So they are available to them on an ongoing basis. It does 
not just end after 30 or 60 days. They are out there. The real 
estate is constantly out there to service those people.
    Ms. Brownley. And do all of our veterans know that, that 
that service is available to them?
    Mr. Kelly. Thank you, Congresswoman.
    I think that is a challenge. We are ramped up inside the 
Department of Labor to make sure we get the word out better 
that that is out there. That is a major outreach effort that we 
have undertaken that it is out there. They will know that 
through the TAP process of processing out in the capstone 
program. They will know that.
    Whether they can find that two and four and six months of 
all of the things they process out, I do not know, but it will 
be provided to them ahead of time.
    Ms. Kelly. If I might add to that, one of the career 
readiness standards is the gold card from the Department of 
Labor that thoroughly explains to them there are job centers 
available to you and you have priority status for six months 
after you separate and report to the American job centers. 
Again, that is part of that bridging.
    Ms. Brownley. Thank you very much.
    Thank you, Mr. Chair.
    Mr. Flores. Mr. Coy, it looked like you had a response.
    Mr. Coy. I was just going to add one further comment, 
Congresswoman, and that would be, VA is also engaged in doing 
their own job fairs. We have done three rather large ones. And 
in those large job fairs, we bring those veterans in. We help 
them with resume writing. We connect them with employers who 
are there specifically to hire veterans.
    We are also partnering with the Chamber of Commerce's hire 
our heroes efforts. They were doing well over 400 job fairs 
across the country and we are partnering with them as well. And 
many of those job fairs where we send VA representatives there 
to help them, not only fill out their educational benefits or 
any of their other benefits, but to make sure that they 
understand that they logged into the e-benefits system, but as 
well are aware of any education or other benefits they may have 
coming to them.
    Mr. Flores. Thank you.
    If there is no objection, we will start a second round of 
questions. I think we had a few issues that were left 
unresolved.
    Mr. Pummill, one of the things you said a minute ago is 
that the DoD was going to begin the electronic records transfer 
to the VA.
    Now, is that a truly electronic interoperability or is it 
just an electronic PDF?
    Mr. Pummill. For the service treatment record, now it is 
electronic PDF. It just gives us the record in electronic 
format so that we do not have to get it mailed, express mail or 
certified mail, whatever we are doing right now. And we make 
sure we get one for every single servicemember that leaves. 
But, yes, it is still a PDF.
    Mr. Flores. Okay. Well, it is a better step in the right 
direction. At least you have taken the mail out of the 
equation. And it is not this Subcommittee's jurisdiction, but 
what the whole Committee is looking for is true electronic 
interoperability between DoD and VA.
    Dr. Kelly, what if we just merely added the education and 
entrepreneurship tracks to the current five-day program that 
you talked about today?
    Ms. Kelly. I am not sure I understand. We have the core 
five-day curriculum in place now. We are piloting the other 
tracks. So they are in addition to the five-day core. The 
tracks for higher education, technical training----
    Mr. Flores. Let me----
    Ms. Kelly. --as well as entrepreneurship, I am not quite 
sure I----
    Mr. Flores. Let me be a little bit more specific then.
    Ms. Kelly. Okay.
    Mr. Flores. Maybe I was inelegant in the way I asked it.
    What if we said that one of those has to be mandatory 
should a servicemember choose to take one of those? In other 
words, add a day or two to the program so that a young man or 
woman that desires to go to school or wants to open up their 
own business has that as part of their mandatory training?
    Ms. Kelly. I think there are lots of opportunities for us 
to look at the curriculum and how this might play out in the 
long term.
    And I would like the opportunity to discuss that with you 
and all of the Members, but I would be hesitant at this time to 
say what should be additional, what additionally should be 
mandatory. I will leave it at that, but I would like to discuss 
some of those options.
    Mr. Flores. Okay. I am going to recognize Ranking Member 
Takano for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Secretary Kelly, in your testimony, you state the initial 
implementation of VRAP was met by redirecting internal funds.
    How much was the cost of this initial implementation?
    Mr. Kelly. Thank you, Congressman.
    The Department of Labor's Employment and Training 
Administration redirecred $5.4 million for the initial 
implementation of the VOW Act, including VRAP. Funds supporting 
the Department's VRAP responsibilities, such as providing 
technical assistance and meeting additional IT needs, are 
available through June 2013. In order for the Department to 
continue fulfilling its responsibilities if VRAP were extended 
throuogh June 2014 and to complete program closeout activities, 
we estimate that $237,000 for technical assistance staff 
support and $400,000 for additional IT, or a total of $637,000, 
is needed. Since no funds have been appropriated for these 
activities, the Department will again need to redirect funding 
from other employment and training programs.
    Mr. Takano. Okay. And how many reports is your department 
required to submit to Congress at this time on an annual basis?
    Mr. Kelly. Mr. Chairman, I do not have that information 
with me, but I will certainly get it for the record.

    (DoL subsequently provided the following paragraph and 
chart)

    The Department of Labor reports to Congress each year on 
the programs, training and enforcement responsibilities we have 
to serve and protect our Veterans and transitioning 
servicemembers. On an annual basis, the Department is required 
to provide Congress with the folliwng reports:


----------------------------------------------------------------------------------------------------------------
    Name of Report                Citation                Information Required                Due Date
----------------------------------------------------------------------------------------------------------------
 U.S. Department of            Veterans' Benefits       Reporting the number of         July 1st of each year
                    Labor Improvement Act of 2004            cases reviewed and
  Report to Congress                          (P.L. 108-454) investigated by DOL, DOD,
                                  Section 4332(a)          OSC and the Attorney
                                                                       General.
----------------------------------------------------------------------------------------------------------------
 U.S. Department of            Veterans' Benefits     Requires information on the    30 days after the end of
                    Labor Improvement Act of 2008     number of complaints and the       each fiscal quarter.
 Quarterly Report to                          (P.L. 11number of referral requests
            Congress              Section 4332(b)                received by DOL on or after
                                                          October 10, 2008 that
                                                         exceeded the statutory
                                                      deadlines of 90 and 60 days,
                                                                  respectively.
----------------------------------------------------------------------------------------------------------------
VETS Annual Report to     38, United States Code,      The report describes the       February 1 of each year
            Congress    Sections 8 U.S.C. Sec. Sec.   programs and activities for
                            4107(c), 4212(c), and         which the OASVETS has
                             4215(d) 4212(c), and     primary responsibility and
                        4215(d)), and Title 38, US       the number of veterans
                                      4212(c)(d).     receiving priority pursuant
                                                       to subsection (a)(2)(B).
----------------------------------------------------------------------------------------------------------------
Advisory Committee on        Title 38 USC Section          The report is on the         December 31 each year
 Veterans Employment,                  4110(f)(1)       employment and training
 Training and Employer                                  needs of veterans, with
  Outreach (ACVETEO)                                  special emphasis on disabled
       Annual Report                                  veterans, from the previous
                                                                          year.
----------------------------------------------------------------------------------------------------------------
      Secretary of LaborTitle 38 USC Section 4110(g)  Submit to Congress a copy of  60 days after receiving the
 comments to ACVETEO                                  the Annual Report with any        ACVETEO Annual Report
                                                        comments concerning the
                                                          reports the Secretary
                                                         considers appropriate.
----------------------------------------------------------------------------------------------------------------

    Mr. Takano. My next question is, were there any reports 
that you would recommend eliminating? You can also get back to 
me later as well.
    Mr. Kelly. Thank you, Mr. Chairman, Congressman Takano.
    I will get back with you on that with regards to our 
assessment from staff on those reports.
    Mr. Takano. Mr. Chairman, I yield back.
    Mr. Flores. Okay. Thank you, Mr. Takano.
    Mr. Coffman, any questions for you?
    Mr. Coffman. Thank you, Mr. Chairman.
    Mr. Coy, I stand corrected in terms of your statutory 
authority to do the program. What the bill does that I was 
referencing, House Resolution 1412, is that it requires you, 
because this program in terms of allowing veterans to utilize 
their educational benefits for on-the-job training and 
apprenticeship programs, the fact that it is so poorly 
utilized, again, the bill requires you to do an informational 
program. It does not give you the discretion. It merely says 
you shall do an informational program to raise the 
participation rate among veterans.
    And then, secondly, obviously lowers the requirements for 
the employer in terms of salary which I believe you support 
that, the Veterans Administration supports that provision.
    And then, lastly, the third provision is not that you do 
not have the statutory authority to reach out to other Federal 
agencies. It says that you shall reach out to other Federal 
agencies and enter into agreements in order to expand 
participation, expand options for veterans in terms of 
employment and training.
    And so I just wanted to clarify that so there is no 
requirement that I expressed to you. I expressed to you 
earlier, asked you to come back to the Committee for your 
statutory authority, but that is not required in further 
reading of the bill.
    Thank you, Mr. Chairman. I yield back.
    Mr. Flores. Thank you, Mr. Coffman.
    Ms. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    I just have one question. This is a follow-up on Secretary 
Kelly's statement that the initial implementation would cost 
$273,000.
    My question is to you, Mr. Coy, what is the overall cost 
estimate for H.R. 1402, the Veteran Paralympic Act?
    Mr. Coy. You want a cost?
    Mrs. Kirkpatrick. Cost estimate.
    Mr. Coy. Currently is $10 million. Two million goes toward 
the athletes and many of their stipends and then $8 million 
goes to the grant program.
    Mrs. Kirkpatrick. Okay. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Flores. Thank you, Ms. Kirkpatrick.
    Mr. Wenstrup.
    Mr. Wenstrup. Thank you, Mr. Chairman.
    Just to parlay on what you brought up about the electronic 
transfer of records and how we are doing it, and I think that 
you can weigh in on this a little bit, sometimes I think a PDF 
is the important way to go.
    What I have been made aware of is sadly some of the 
prevalence of fraud when we have used snail mail, for example, 
to send someone their DD-214 and then they submit it to the VA 
and they have made changes on that.
    You may want to address some of the prevalence of that 
because I am not really aware of the numbers, but just want to 
make the point that I agree with you that we should make it a 
more smooth transition of electronic records. But sometimes a 
PDF is important to cut down on the potential for fraud.
    And maybe, Mr. Pummill, you could address that a little 
bit.
    Mr. Pummill. I do not have any figures on fraud. I am not 
sure right now. But I do know that the PDF is good and it is 
good because the quicker we get the information, it is 
electronic information and it is certified by the Department of 
Defense as accurate information, we can get services and 
benefits to servicemembers faster and more accurately. And 
there is no mistakes.
    Sometimes we do get a lot of DD-214s right now that are 
hard to read or have been destroyed or mangled, things like 
this. This eliminates all that and makes it much easier for the 
veteran.
    More importantly, it gets a permanent record so you do not 
have a situation where a veteran comes back 20 years from now 
and wants to submit a claim and we are not able to find the 
record because it did not get mailed to the right place or he 
did not keep a copy or something like that.
    The goal is to eliminate all of that. And the first step 
for us is we will take the PDF. We will take whatever we can 
get while they are working on the long-term interoperability of 
records and stuff like that. But we want electronic official 
files in every case that we can possibly get.
    Mr. Wenstrup. Thank you.
    I yield back.
    Mr. Flores. Mr. Wenstrup, thank you.
    Ms. Brownley, no questions?
    Ms. Brownley. No further questions. Thank you.
    Mr. Flores. Okay. Well, thank you.
    If there are no further questions, the witnesses are 
excused with our thanks.
    And I would ask the second panel to come to the witness 
table. With us today are Mr. Charlie Huebner with the U.S. 
Olympic Committee, next Dr. Susan Aldridge with the American 
Association of State Colleges and Universities followed by 
Colonel Michael Denning from the University of Kansas who is 
testifying on behalf of the Association of Public and Land 
Grant Universities, and, finally, we have Lieutenant General 
Joseph F. Weber from my alma mater, Texas A&M University.
    Thank each of you for being here and as soon as we are 
seated, we will start with the testimony.
    Okay. Thank each of you for joining us today, and we will 
start with Mr. Huebner.
    You are recognized for five minutes.

STATEMENTS OF CHARLES HUEBNER, CHIEF OF U.S. PARALYMPICS, U.S. 
  OLYMPIC COMMITTEE; SUSAN ALDRIDGE, SENIOR FELLOW, AMERICAN 
  ASSOCIATION OF STATE COLLEGES AND UNIVERSITIES; G. MICHAEL 
DENNING, DIRECTOR OF GRADUATE MILITARY PROGRAMS, UNIVERSITY OF 
   KANSAS ON BEHALF OF ASSOCIATION OF PUBLIC AND LAND GRANT 
   UNIVERSITIES; JOSEPH F. WEBER, VICE PRESIDENT FOR STUDENT 
                 AFFAIRS, TEXAS A&M UNIVERSITY

                  STATEMENT OF CHARLES HUEBNER

    Mr. Huebner. Good morning. Thank you, Chairman Flores, 
Member Takano, and Members of the Committee.
    My name is Charlie Huebner and I am with the United States 
Olympic Committee and also a proud alum of Northern Arizona 
University.
    Member Kirkpatrick, thank you for your service in a 
beautiful area of the country.
    It is an incredible honor to have the opportunity to submit 
a statement and testify before the Subcommittee in support of 
H.R. 1402 which extends the authorization for the highly 
successful, innovative, and cost-effective, and that is the 
word I am going to emphasize significantly throughout my 
testimony, cost-effective partnership between the United States 
Olympic Committee and the Department of Veterans Affairs to 
provide Paralympic sports and sustainable physical activity 
opportunities for disabled veterans at the community level.
    Paralympic programs are sports for physically disabled 
athletes founded by veterans post World War II as a significant 
component of the rehab process using physical activity, 
something that our servicemembers and veterans understand very 
clearly, and also a little bit of competition.
    Research has proven that Paralympic sport and physical 
activity is an impactful aspect of successful rehabilitation 
for disabled veterans.
    Research-based outcomes from consistent physical activity 
for disabled veterans include higher self-esteem, lower stress 
levels, lower secondary medical conditions, and higher 
achievement levels in education and employment.
    At the beginning of combat operations, the U.S. Olympic 
Committee expanded its services at its own cost to injured 
servicemembers and veterans by providing training, technical 
assistance, Paralympic ambassadors at installations, military 
medical centers, and in communities throughout the United 
States.
    As combat escalated, Congress reached out to the USOC 
asking us to do more. I applaud the leadership especially of 
this Committee and the leadership in Congress which realized 
that collaboration between the public and private sector, 
between government agencies, nonprofit organizations, and 
private business could expand expertise and capabilities and 
program awareness in a cost-effective manner.
    Legislation that was implemented in 2010 allowed the USOC 
and the VA to significantly grow available program that today 
is reaching more than 16,000 veterans in communities all over 
the United States.
    The authorization for this program expires at the end of 
2013 and it is imperative to continue to not only deliver 
programming but, more importantly, expand programming in 
communities where there is a great need is absolutely critical.
    Innovation, collaboration, and cost efficiencies are core 
to the USOC as an organization. It is critical to our success 
and this partnership is a great example of that.
    Injured military personnel and veterans are the soul of the 
Paralympic movement. When discussing the Paralympic movement, 
we have two primary objectives. One, as Americans, we want to 
pursue excellence.
    And I passed out an article I just received about an hour 
ago from Goldman Sachs. I had the great fortune of being with 
Lieutenant Navy Brad Snyder, Navy Lieutenant Brad Snyder last 
week in front of 500 Goldman Sachs' partners on a Veteran 
Mentor Day.
    Brad was injured a year ago in Afghanistan. He is totally 
blind today. He used swimming as his rehab. He swam at the 
Naval Academy and it was swimming that gave him confidence 
again and made his family realize that he could jump back into 
life. He went to London and won three medals for his country, 
but, more importantly, today he is going through that 
transition process. And sport has been a significant component 
of his rehab.
    Goldman Sachs hired 14 of the 15 mentors that are veterans 
last year and they had 30 new mentors on the day that we were 
there with Brad Snyder. And that is a specific example of how 
important ambassadors are to what we do in this program.
    In terms of highlights, and I will just focus on that, a 
core component of what the U.S. Olympic Committee is focused on 
are the more than 350 member organizations that we work with on 
a daily basis that touch every single community in this 
country.
    Since 2010, the VA and the USOC have distributed more than 
350 grants to community organizations with an emphasis on 
developing sustainable physical activity programming, not just 
elite Paralympic sport. As one veteran said, an army ranger who 
lost both legs in Afghanistan, all he wanted to do was learn 
how to run with his son. Our emphasis is both elite sport, but 
the majority of our emphasis is daily physical activity for 
veterans to be physically active with their friends and 
families, simply skiing again with your buddies in Colorado.
    More than 350 grants. Of those grants that we provided, the 
organizations we provided those grants are providing the 
majority of the funding to implement programming. That is a 
core message that I wanted to emphasize to this Committee is 
all the organizations we are working with are providing 
staffing and funding much more significantly than what the 
reauthorization is. And that is a critical component to the 
cost efficiencies.
    With that, I just wanted to thank the Committee again for 
your leadership. Congressman Coffman, a marine, Ranking Member 
Takano, thank you for introducing the bill, and thank you for 
your support.
    [The prepared statement of Charles Huebner appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Huebner.
    Dr. Aldridge, you are recognized for five minutes.

                  STATEMENT OF SUSAN ALDRIDGE

    Ms. Aldridge. Thank you.
    Chairman Flores, Ranking Member Takano, and distinguished 
Members of the Committee, my name is Susan Aldridge. I am 
currently a senior fellow of the American Association of State 
Colleges and Universities, commonly known as AASCU, and on 
whose behalf I appear before you this morning.
    Prior to AASCU, I served as president of the University of 
Maryland University College and formerly as vice chancellor at 
Troy University in Alabama. Both of these two state 
universities serve a large population of active duty 
servicemembers and veterans.
    AASCU represents 420 state institutions and university 
systems across 49 states, the District of Columbia, Puerto 
Rico, Guam, and the Virgin Islands. And the common foundation 
for these institutions is their focus on students.
    Thank you for holding this hearing and for providing me 
with the opportunity to present testimony regarding H.R. 357, 
the GI Bill Tuition Fairness Act.
    H.R. 357 would require the secretary of Veterans Affairs to 
deny GI Bill benefits to veterans who are not charged tuition 
rates equal to the in-state tuition rate. Moreover, this bill 
would not allow any veteran or their dependent enrolled at 
public institutions to receive GI Bill benefits if that 
institution does not offer in-state tuition to all veterans, 
thus cutting benefits to veterans in the future.
    The VA's testimony this morning highlighted a number of our 
concerns as well. AASCU supports the underlying promise of 
treating veterans as in-state residents and strongly supports 
the educational endeavors of our veterans.
    However, passage of H.R. 357 will potentially result in 
unintended consequences that I will address in more detail.
    Most public colleges and universities do not set their 
tuition policy. Currently ten states allow individual public 
institutions to set tuition policy. Post-secondary tuition 
policy in the remaining 40 states is set by state legislatures 
or a statewide coordinating board.
    In addition, many states have a very clear set of criteria 
as to which students are allowed to be given in-state tuition 
benefits.
    This is further highlighted by a passage from the state 
higher education executive officer's February 2011 report which 
says, and I quote, states were asked to describe the process 
through which tuition levels are set. The variety of answers 
given underscores that there are as many processes for setting 
tuition as there are states. In many states, the process is a 
multi-step process involving many entities, unquote.
    Given the complexity of relying on 40 different state 
entities to change policies, it is quite likely that 
institutions will not have the ability to charge in-state rates 
even if they desire to do so.
    Veterans wanting to enroll in public institutions in those 
states would need to seek other costlier programs in order to 
utilize their GI Bill benefit by moving to another state that 
offered in-state tuition or attending a more expensive private 
not-for-profit or for-profit college.
    This creates a scenario of confusion since many veterans 
arrive on our campuses with the full expectation of receiving 
their GI Bill benefit.
    Non-residency occurs for many reasons and in many 
situations. If they are located in a state that is unable or 
has yet to alter residency treatment for veterans, significant 
disruption to the family unit can occur. A veteran would be 
forced to move to a state that offers in-state tuition in order 
to receive their benefits.
    Passage of this measure would create a hodgepodge map of 
eligible or ineligible states.
    It is also instructive for the Committee to understand the 
nature of in-state versus out-of-state rates. One way of 
looking at an established out-of-state rate is to consider it 
as the full cost or close to full cost to the institution of 
educating a student.
    Since public institutions receive support from the state in 
order to provide its residents with an education, the in-state 
rate reflects the cost to the institution after factoring in 
the state subsidy. Thus, the in-state rate is supported by the 
state taxpayers.
    Passage of this bill would shift paying for the promise 
established under the GI Bill of supporting the education of a 
veteran from the Federal Government to the state specifically 
and only for veterans attending public institutions.
    In the written testimony, AASCU offered several suggestions 
for improving the bill.
    In closing, AASCU institutions are serving our Nation's 
veterans well. Institution after institution has established 
programs to provide quality service to the Nation's military 
and veteran students.
    Passage of this bill would limit the exposure of quality 
support programs and the ability to pursue an education in a 
desirable field from an otherwise affordable public institution 
of higher education.
    Thank you very much, Mr. Chairman, for the opportunity to 
speak today.
    [The prepared statement of Susan Aldridge appears in the 
Appendix]

    Mr. Flores. Thank you, Dr. Aldridge.
    Colonel Denning.

                STATEMENT OF G. MICHAEL DENNING

    Colonel Denning. Chairman Flores, Ranking Member Takano, 
and distinguished Members of the Subcommittee, thank you for 
holding this hearing and the opportunity to testify before you 
on H.R. 357, the GI Bill Tuition Fairness Act of 2013.
    My name is Mike Denning and I have the privilege of 
representing the University of Kansas and also I serve as the 
director for Graduate Military Programs.
    Prior to joining KU, I served 27 years in the marine corps 
and I retired as a colonel. I am here today representing both 
the University of Kansas and the Association of Public and Land 
Grant Universities, APLU.
    KU and the public university community overall appreciate 
the spirit of 357, H.R. 357, and I certainly do as a veteran. 
This Nation's public universities like KU want to ensure that 
our Nation's veterans are treated fairly and with the respect 
that they deserve.
    Public universities around the country are redoubling their 
efforts to address the needs of veterans and servicemembers to 
whom we all owe an enormous debt of gratitude.
    I can also say that public universities were one of the 
most engaged groups with respect to successfully restoring the 
Tuition Assistance Program during the Senate floor debate on 
the fiscal year 2013 Omnibus Continuing Resolution.
    While we are supportive of the overall intent and spirit of 
H.R. 357 to provide greater and more affordable access to 
higher education for veterans, we do have an array of concerns 
about the bill and believe that it may have unintended 
consequences of limiting or even denying veterans access to 
higher education institutions.
    Specifically, the bill requires all public universities to 
offer an in-state tuition to all veterans regardless of where 
they live. We are troubled that this legislation imposes a new 
unfunded mandate that would force states and/or public 
institutions to find additional resources to fully support the 
educational experiences of non-state veterans.
    States, not higher education institutions, set residency 
requirements. The state governments determine how best to use 
their state tax revenues. Since states are already facing 
budget crunches, many of them might simply be unable to afford 
to change their residency requirements to allow all veterans 
from across the country to receive in-state tuition.
    As currently written, H.R. 357 imposes the penalty of 
cutting off GI benefits to those states that cannot comply with 
the in-state residency requirement. We are greatly concerned 
that many states would be unable to meet the unfunded in-state 
tuition mandate which potentially would lose veterans from 
losing their benefit of the GI Bill.
    For states that do adjust their residency requirements to 
provide lower in-state rates for all veterans, universities 
would be forced to make up the loss of out-of-state tuition 
which could have a real impact on all students on campuses and 
that they may be forced to cut services or programs to cover 
the lack of additional resources or even raise tuition rates 
across the board. This would impact all students including 
veterans on the campus.
    Despite these aforementioned problems with the current form 
of the bill, we share your commitment to improving access for 
veterans to quality, affordable higher education. We hope to 
work with you to improve the effectiveness of the bill.
    And particularly, we suggest that the state mandate and the 
penalty be removed and replaced with incentives and 
supplementary Federal funds for states and institutions that 
broaden the scope of their in-state tuition rates for veterans.
    On behalf of the APLU and the University of Kansas and from 
a veteran standpoint, I thank you for the honor and privilege 
of testifying before you and for your leadership on these 
issues. I look forward to any of your questions.
    [The prepared statement of G. Michael Denning appears in 
the Appendix]

    Mr. Flores. Thank you, Colonel Denning.
    General Weber, you are recognized for five minutes.

                  STATEMENT OF JOSEPH F. WEBER

    General Weber. Mr. Chairman, Ranking Member Takano, and 
distinguished Members of the Committee, my name is Joe Weber 
and I thank you for allowing me to be here today to address 
you.
    I currently serve as the vice president for Student Affairs 
at Texas A&M University. Prior to that, I was privileged to 
serve our Nation 36 years as a United States Marine.
    Before I get started, I just want to say this on the 
record. Our Congress and my Congress it seems like every day 
comes under a lot of criticism about what they do and what they 
do not do. And I just want to go on the record to say that with 
respect to our veterans and our military, there is no criticism 
other than constructive and positive on what you have done for 
our military and our veterans, particularly the last ten years.
    The benefits you provided, the resources to the force, the 
family programs for our families, the long, drawn-out, draining 
war, all of that, and it is more unbelievable when you look 
back compared to how our veterans were treated after Vietnam. 
So I commend you for that and for that, we always hold you in 
high honor and accord.
    Texas A&M University has a history and a tradition of 
support of the military and our veterans. It was started as a 
land grant university in 1965. It was an all military school, 
all male military school up until 1963. Today it is now a 
flagship, tier one research university, a member of the AAU 
with servicing over 600 veteran students.
    Texas A&M University has not forgotten where it has come 
from. Our state code of education in Texas is replete with 
programs, policies, verbiage, great generosity in assisting our 
active duty military, our veterans, and our veterans in their 
pursuit of their higher education.
    We have a governor and a state legislature that it is very, 
very important to them that our two flagships and all our 
public universities take care of our veterans and, yes, we do 
have Members in this very distinguished body up here who keep a 
close eye on us as well down there as well as up here 
supporting our veterans. We are very appreciative for that.
    But today, Texas A&M University has over 50,000 students 
and serving the 600 veterans, but also 1,400 students 
associated in drawing some type of veteran benefit be it state, 
institutional, or Federal.
    The point I am making is this particular piece of 
legislation has to be viewed as all veterans' benefits, I 
think, as truly a Federal, state, and institutional effort. We 
are all in this together. It is collaborative.
    Texas A&M University makes use of several programs of this 
collaborative effort in servicing our veterans. One is our 
Hazlewood Exemption Act which basically provides 150 hours of 
tuition exemption for Texas residents and it has since been 
extended to their spouses and children. It has been a very 
effective program.
    In 2007, we were serving 148 students. As of a month ago, 
we are servicing almost 1,400 students. The cost of that 148 
students was about $680,000. We are now paying over $10 
million, the institution is, to support this effort for our 
veterans and their families.
    We also have several students on the Yellow Ribbon Program 
which, as you know, is the co-share cost with the VA and the 
university in assisting those students and paying for that 
tuition above and beyond the in-state.
    We also have a Military Waiver Program at Texas A&M. 
Basically, any veteran that comes to school at Texas A&M 
University and fills out this Military Waiver form with the 
intent of becoming a state resident or staying in that state 
after graduation or getting a degree from A&M, we provide them 
in-state tuition.
    Why do we do that? Well, I think the main reason we do that 
is we are trying to look out into the future. This is about 
recruiting. We want veterans. And if we can get veterans to 
come to Texas A&M University, get a degree, stay in our state, 
become successful leaders in their communities, successful 
businessmen, they will not only give back to our state 
financially and we will make up that difference, but they will 
also be great donors to our university.
    We have what is called a Competitive Scholarship Program. 
Anyone that comes there gets a $1,000 scholarship, 
competitively qualifies for in-state tuition.
    Within our Texas code is a combat exemption. If you are a 
nonresident at Texas and your father or mother is deployed in a 
combat zone, during the time of deployment in that combat zone, 
you do not pay tuition. You are tuition exempt.
    So those various programs, and the bottom line, and I know 
I am over time here, is we believe this is a good bill. It is a 
Federal fairness issue, not just a state fairness issue.
    When these young men and women raise their hand to support 
and defend the Constitution of the United States, it is not the 
Constitution of the State of Texas. They are subject to be 
deployed to any state in the country, any place in the world 
and in harm's way, so we need to look at that.
    So we would ask you one thing. Just look at the timing of 
the bill. State legislatures like Texas meet every two years. 
So however we have to work this, they need to have some time to 
sort it out.
    I know, Mr. Chairman, it is not a state residency matter, 
but some states, I think, view that and we need to make sure it 
is clear of that too.
    But I appreciate the time with you and thank you for all 
you have done for our veterans and I am here to address you.
    [The prepared statement of Joseph F. Weber appears in the 
Appendix]

    Mr. Flores. General Weber, thank you for your testimony. 
Thank all of you for your testimony, and I will start with the 
questions. I'll recognize myself for five minutes.
    Mr. Huebner, let's knock out a couple of what I think are 
easy ones first, so let's start with you. What affect has the 
new grant program had on your ability to raise funds from 
private sources?
    Mr. Huebner. The grant program has----
    Mr. Flores. Keep your voice up.
    Mr. Huebner. --been significant in one, getting more 
veterans involved, creating more awareness, which by extending 
programming, creating more awareness, it's also helped us with 
generating new private resources.
    An example, a month from now, we will be hosting an event 
in collaboration, and I talked about that in my testimony and 
cost-effectiveness, an event with the Department of Defense, 
Department of Veteran Affairs that was created by the U.S. 
Olympic Committee. That event is two-thirds to 70 percent 
privately funded. So I think it's an incredible example of, by 
expanding programming and properties, we're engaging not only 
we, the USOC but our partners at the local level are engaging 
new private resources. And in my testimony, in my written 
testimony, there was a second example of a partnership where 
our partner at the local level is engaging new private 
resources, that's primarily funding programming, and making it 
sustainable. So it's not just new funding to the U.S. Olympic 
Committee, it's also the funding to all those different 
programs that we're working with at the local level, that are 
garnering new private investment to make this program 
incredibly cost-effective, but more importantly, more 
impactful.
    Mr. Flores. Thank you, Mr. Huebner. General Weber, thank 
you for your testimony today, and I want to compliment you on 
the work that Texas A&M is doing on behalf of our veterans, and 
I think it reflects what you and I both believe. And that is 
that our governor and the leadership and our state legislature 
in Texas get it right, when it comes to recognizing the value 
of the service of our veterans to our country.
    And thank you for your recommendations on H.R. 357. I think 
those were particularly beneficial for the Committee. I don't 
have a question for you. Unfortunately, I--just more of a 
compliment.
    This is for Dr. Aldridge and Colonel Denning. Let me talk--
when you look at the Morrell Act, and talk about land grant 
universities, the whole purpose of the land grant universities 
is to provide, and this is more for Colonel Denning I guess, is 
to provide access.
    So doesn't H.R. 357 really promote the same thing? Isn't it 
sort of a great add-on to the Morrell Act to access to 
education, public universities, particularly land grants?
    Mr. Denning. Yes, thank you, Chairman. Sir, the--again the 
University of Kansas, APLU absolutely appreciates the spirit 
and intent of H.R. 357. And in this case, it's not--we didn't 
see it primarily as access, we saw it as affordability, how are 
we going to pay for this. And for those states that decide not 
to go along with the bill, it actually does, in our opinion, 
limit access because a state would opt out for it, and that 
would leave a veteran from making a decision of paying for it 
out of his own pockets, or being unable to--or not being able 
to use GI benefits.
    Mr. Flores. Let me--and I'm going to expand this to Dr. 
Aldridge as well, as well as you, Colonel Denning. I mean, 
y'all have made it clear of your opposition to H.R. 357, but I 
mean, how do you explain your opposition to the students or 
prospective students, that as General Weber said, held up their 
hand and swore an oath to our Nation's Constitution, which 
covers all 50 states, and not just to a particular state. How 
do you defend your position when these young men and women have 
agreed to defend all 50 states, and not just a particular 
state?
    Mr. Denning. Sir, from my standpoint and the University of 
Kansas is, we actually do back everything you said by 
participating in the Yellow Ribbon program, which has the exact 
same benefit, or the intent and results of what H.R. 357 is, 
and that is to providing veterans access to the university at 
in-state rates. So basically they can come to KU or any in-
state--or any university in the State of Kansas for no cost to 
them.
    One of our requirements--I'm sorry, one of our 
recommendations to expand the Yellow Ribbon program, which 
again, would have the exact same affect of H.R. 357. The only 
difference would be by cost sharing with VA.
    Mr. Flores. Okay. Dr. Aldridge, any comments?
    Ms. Aldridge. With my colleague, there are 109 AASCU 
institutions that participate in the Yellow Ribbon program, are 
very pleased to participate in that program and serve these 
students.
    The AASCU institutions are good value for money, in terms 
of their tuition rates and providing access to first generation 
students, minority students and veterans as well. The 
difficulty with the bill is that the public institutions are 
carved out, and the students, if they're not able to go to a 
public institution because of state legislation that dictates 
whether or not the tuition is allowed for out of state 
residents who are veterans, then the students are going to end 
up going to more expensive private for-profit institutions, or 
more expensive private not-for-profit institutions.
    So I think the issue for us is that we'd like to level the 
playing field, and simultaneously at least have the opportunity 
to work with state legislatures in a reasonable timeframe. 
We're absolutely committed to serving these students, and want 
to continue to do so.
    Mr. Flores. Thank you, Dr. Aldridge. I now recognize 
Ranking Member Takano for five minutes.
    Mr. Takano. Dr. Aldridge, do you know if H.R. 357 covers 
community colleges as well, or is it only state colleges?
    Ms. Aldridge. I don't believe it does.
    Mr. Takano. So it does not?
    Ms. Aldridge. That's my understanding.
    Mr. Takano. Because in California, I was a former community 
college trustee, and do have in-state and out-of-state tuition 
with community colleges as well. But this bill does not cover 
community colleges that you know of?
    Ms. Aldridge. That's my understanding, but I would defer to 
the staff.
    Mr. Takano. Okay, thank you. Colonel, I've had the pleasure 
of actually being at your university for a summer with the NEH, 
the National Endowment for Humanities. Is there a disparity 
among the different states as far as in-state tuition goes, and 
how much of a disparity might there be?
    Mr. Denning. Sir, it's my--representative, it's my 
understanding that there are--that different states do make 
different decisions. Some of the states that those decisions on 
residency are made at the state level, either by the 
legislation or by a board like the University--like Kansas with 
the Board of Regents.
    There are, as I understood from the testimony, there are 
ten states that do set their own residency requirements at the 
university level.
    Mr. Takano. I know in California we subsidize community 
colleges to a great extent. And so what a student will pay 
there is significantly less than what a student will pay in New 
York. So New York as well as those states that charge a lot 
more for community colleges will capture more Federal aide for 
those students who qualify for it.
    And so I'm trying to understand what the disparity is among 
state colleges, between the ones that are heavily subsidized 
and those who are not.
    Ms. Aldridge. The--thank you, sir, for the question. 
There's tremendous disparity across all the different states 
and the territories, in terms of tuition rates and in terms of 
the amount of funding that the state legislatures provide to 
the institutions. And it's been changing every year, 
particularly in the last couple of years, which is why we have 
seen tuition increases, there's a direct correlation between 
the increase in tuitions, and the decrease in legislative 
funding for state institutions.
    In some of our states, they have lost 50 percent or more of 
their state funding from the legislature over a period of two 
to three years. So the issue about tuition is one that we all 
must struggle with and work hard to try to contain for our 
students, but as the state budgets have had a difficult time, 
they have decreased the amount of funding for the----
    Mr. Takano. But for a state that has a low in-state 
tuition, because they subsidize it to a greater degree----
    Ms. Aldridge. Right.
    Mr. Takano. --would they not suffer some sort of inequity 
here, because it stands to reason if, you know, we're funding 
that student to go to school----
    Ms. Aldridge. Yes.
    Mr. Takano. --or the veteran in this case, that state 
acts--really subsidizes their education, their college 
education to a great degree, that state is actually kind of 
being shorted, if you kind of compare it to a state that 
subsidizes it less. So I'm just trying to get a sense of what 
the disparity is between the states that subsidize a lot, and 
the states that don't subsidize as much. Is there a number you 
have on the top of your head?
    Ms. Aldridge. No, I don't have a specific number for that.
    Mr. Takano. Okay.
    Ms. Aldridge. But we certainly can do some research on that 
and get back with your staff.
    Mr. Takano. Okay. Great. That's it, Mr. Chairman, I have no 
more.
    Mr. Flores. Thank you, Mr. Takano. Mr. Coffman, you're 
recognized for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman. Mr. Huebner, first of 
all, I think, could you restate--I think a lot of folks think 
that this reauthorization for the Paralympics for veteran 
participation in the Paralympics is managed by your 
organization is just for the elite competitors. But I wondered 
if you could give us some examples about how you are able to 
take, you know, the average veteran that's been disabled, and 
to be able to integrate them into some athletic events.
    Mr. Huebner. Yes, thank you, sir. Thanks for your service, 
too. You know, our focus, as I mentioned, we have two 
objectives, one is the elite level, and one of the benefits of 
having veterans participate at the elite level, in 2012, and it 
goes back to a little bit of your question about investment. 
Five of our partner organizations ran national television ad 
campaigns, more than $40 million in value focused on veterans, 
and focused on successful veterans that are contributing back 
to their country.
    So that is an important part, because having veterans as 
incredible ambassadors that are at the elite level, allow us to 
create education, awareness, and excitement at the grassroot 
level for those families, and we live this every day. Those 
families, and Brad talked about this last week, he came home to 
his family, and he was totally blind, and it was swimming that 
gave him confidence, but more importantly he said, it was 
swimming that gave his mother confidence that he could jump 
back in at life.
    And we use the elite platform to grow the grassroot 
platform, and our role specifically in this, the USOC was asked 
by you, and by veteran and military organizations to lead this, 
because we have humbly, most arguably, the most inspiring brand 
in the United States, but we have expertise in sport, more than 
50 different sports, as well as expertise in physical 
disability. So we're utilizing in this collaboration in this 
partnership, our technical assistance, our support and our 
member organizations to train local organizations, whether it's 
a parks and rec agency, 14 of them in Colorado in your state, 
have been trained by us on how to implement a program for a 
person with a physical disability.
    Instead of going and developing a brand new program that 
would be incredibly costly, we're taking existing programs, 
parks and recs, USA Hockey, other entities and teaching them 
how to implement or integrate a veteran with a physical 
disability into their program, so they can participate in 
physical activity with their family and friends.
    Mr. Coffman. Okay. Can you also speak to the GAO's 
recommendations on the Paralympic program, as it applies to 
USOC?
    Mr. Huebner. Yes. Actually in coming out with this program, 
we emphasized to this Committee, we emphasized to the VA, and 
we emphasized to the programs, our highest priority in 2010 was 
meeting the need of programs. There were thousands of veterans 
returning home that needed physical activity.
    The GAO report focused on more oversight, and we were 
working on doing that at the time, and we've implemented all 
the recommendations from the GAO report. We have a couple of 
examples of that, is we are doing, the USOC is doing 
independent audits of all of our grantees. We have a monitoring 
plan in place with the VA, we have weekly grant monitoring 
calls, so we've aggressively implemented all the 
recommendations, but it--as we stated to them, and to you, in 
2010 and `11, our primary emphasis was programming. There was a 
great need for thousands of veterans who returned home, and 
rolling this program out, that's where we really emphasized our 
focus.
    Mr. Coffman. Well, thank you so much, Mr. Huebner, thank 
you so much for all you do with the USOC and for veterans in 
the paralympic program. And I'm certain excited about pushing 
this legislation forward for the reauthorization of the 
program, H.R. 1402. And with that, Mr. Chairman, I yield back.
    Mr. Flores. Thank you, Mr. Coffman. Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chair. I too had a question 
for Mr. Huebner, and maybe you can't answer the question, I 
don't know. But I was just wondering if there has been any 
study at all to sort of look at the cost benefit ratios with--
in terms of a disabled vet participating in this program. You 
mentioned all of the benefits one receives, including their own 
personal health. And just wondering if there's been any study 
vis-a-vis the cost savings, you know, into the future for 
participating in the program today, and the cost benefit for 
the future.
    Mr. Huebner. That's an incredible question, and we are--
I'll be honest, we are having discussions at the VA about that 
as we speak. Because in our initial grant, we had some research 
components and impact components and evaluation components in 
the grant. There were so many studies that are out there by 
many government organizations, some of which talked today, 
Labor, VA, DoD, independent organizations so that the 
conversation we're having right now, is do we need to use 
resources in this grant to go do another study, because there 
are numerous studies out there. And after this session, I can 
provide you a study that we were involved in that talks about 
the impact and primarily the most significant impact is lower 
secondary medical conditions.
    In terms of having the physically active involved disabled 
veterans in their communities, that's probably the most 
significant cost impact. No doubt there's numerous other things 
when you add higher self-esteem and lower stress levels in 
terms of what we're dealing with today. Those are positive 
outcomes.
    Higher education, higher employment achievement levels, no 
doubt cost outcomes, but we are looking at that right now, but 
in reviewing this, and reviewing with the director who's a 
veteran, and a disabled veteran of the VA program, we're 
determining, we need to spend more money on more research being 
that there's--Google it today, and there's multiple factors of 
research going on in this space.
    Our position tentatively is we think we can develop more 
programming to impact the research that's being done by so many 
other entities. But we do have some initial components and 
research that we can provide for you after this hearing.
    Ms. Brownley. Thank you. And just in terms of developing, I 
think what you called the grassroots platform, can you give me 
some idea of, you know, the larger population of disabled vets 
and how many actually participate?
    Mr. Huebner. Yeah, the majority, and I was going to add to 
your first question with a specific example. The majority of 
the disabled veterans, the more than 16,000 that we've touched 
just in the program, and when I say we, I want to emphasize, 
this isn't just the U.S. Olympic Committee, it's the USOC, the 
VA, the DoD, but more importantly, it's those 50 member 
organizations like Parks and Recreation, and USA Hockey, that 
have--that touch every community. We're doing this in 
collaboration with them, and they are bringing their own staff, 
their own resources to the table.
    So one specific example of a program that not only 
implements cost, but also touches the number of veterans 
participating, we were fortunate to have a disabled veteran 
attend our national leadership training, where we teach people 
how to do it.
    He also attended a regional training, where he learned how 
to implement a paralympic sport program. He implemented in 
Harker Heights, Texas, right outside one of the largest 
military installations in the country, with a huge veteran 
population a physical activity program that's not sustainable. 
We provided a $23,000 grant in this partnership. Twenty three 
thousand doesn't create a program. Harker Heights, Texas Parks 
and Rec raised the additional money, used some of their own 
budget, and hired a veteran to run the program. They now have a 
sustainable program, which 95 percent of the budget is being 
funded by the local community.
    But the majority of the people, I think the last number was 
more than 800 veterans participating in that program, there's 
not one person in that program that's on our paralympic team or 
going to the paralympic games. That's just one specific example 
in one community. That's happening all over the United States 
where the majority of people participating, our primary focus 
gets back to that Army Ranger. I want to be able to run with my 
son.
    Ms. Brownley. Thank you. And one last question, I don't 
have much time left, but I wanted to also compliment General 
Weber also for what Texas A&M is doing for your veterans in 
Texas. The Chair is an alumni, so you know, he's going to 
compliment you, but I'm not, and I want to compliment you on 
what you're doing. It's very, very impressive, and I think you 
serve as a model for many other public universities across the 
country.
    You said that you're currently serving 600 I think veteran 
students and 1,400 students who are getting some kind of 
veteran benefits, in a student population of 50,000. So I'm 
just wondering if you roughly have, you know, there's been 
testimony about, you know, the unfunded mandate, the transfer 
burdens to the states, in terms of costs, if you had any 
estimations of what that looks like for your university.
    Mr. Weber. Well, first let me begin by saying, A&M is 
extremely blessed. We're in a state that the economic 
conditions are much better than others. We have a large 
population of students, and we probably can bear unfunded 
mandates much better than some of our perhaps smaller public 
universities, who may have proportionately more veterans than 
we have. So I think that would be another comment when you 
write the bill, if any wording you can, to provide incentives 
or flexibility to all public institutions to handle that.
    So I first must say up front that we can-- probably 
positioned to handle it better. Now presidents of universities 
are pressured from the state legislatures, the Board of 
Regents, their budgets are being cut, ours was cut $36 million 
over the last appropriation, a lot of pressure on them to 
reduce costs, parents reduce costs of college.
    So in order to do that--without--you know, they're 
thinking, how do I generate revenue, not what programs do I 
have to give up revenue, and so I just think that's one of the 
issues right there that they're having to deal with.
    But, you know, Texas A&M University has a $1.3 billion 
budget, cannot we find $10 million to allocate to our veterans, 
and when the economy is tough, and everybody has to tighten 
their belts, it's good in a sense that it forces us to 
prioritize and reallocate. And so that's how we're handling a 
lot of ours right now, but we're very conscientiousness. We 
don't want to take another $36 million cut, because that could 
really put the pressure on the reallocation and the 
prioritization.
    Ms. Brownley. Thank you, Mr. Chair, for the additional 
time, I appreciate it.
    Mr. Flores. Thank you. It depends on the institution, 
sometimes I can be gracious.
    In any event, with--the Ranking Member and I have 
discussed, we're going to have a second round of questions, and 
with unanimous consent, we're going to limit the questions and 
answers to two and a half minutes for each of these, and I will 
begin the second round.
    Dr. Aldridge and Colonel Denning, again thank you for being 
here, and thank you for your testimony, but let's talk some 
real numbers. The VA has estimated that only 15 percent of the 
students that attend--that 15 percent of the veterans that are 
attending universities, or excuse me, 15 percent of the 
universities have over a hundred veterans.
    So what sort of financial impact are we talking about for 
that 15 percent? It seems like 85 percent just have a small 
handful of veterans of a hundred or less, so what's the impact 
on that 15 percent that has more than a hundred?
    Ms. Aldridge. I can give you an exact number for 
institution by institution, but the difficulty with the policy 
is that it would disallow students from participating in the 
programs whether they're in-state or out-of-state at a certain 
point in time, and we wouldn't want to see that happen.
    The issue in terms of the financial impact will be 
institution by institution. I think the broader issue is the 
timeline for the implementation, and the need for state 
legislation or state boards of regents to make decisions in 
order to consider this.
    The other issue is that the language penalizes state 
institutions, but at the same time, doesn't address the fact 
the private, non-profit universities and private for-profit 
universities that usually charge significantly more than the 
state institutions are not even addressed in this bill.
    Mr. Flores. Okay. Thank you. I'm going to--Colonel Denning.
    Mr. Denning. Representative Flores, thank you, sir, I 
really don't have anything to add to that.
    Mr. Flores. Okay. Thank you. Ranking Member Takano, you're 
recognized for two and a half minutes.
    Mr. Takano. Mr. Chairman, I don't have any further 
questions. I yield back my time.
    Mr. Flores. Okay. I want to thank the panel for your 
testimony today. It has been very helpful as we consider these 
important pieces of legislation, and it's hard to imagine Mr. 
Huebner getting anymore excited about a program. With that, 
this panel is excused, and while we're changing panels, we're 
going to take a short biological recess, as the next panel is 
being seated.
    (Recess)
    Mr. Flores. The hearing will come back to order. I want to 
thank the Members for the last round of questions, and I would 
like now to introduce our final panel.
    First we have Mr. Alexander Nicholson, from the Iraq and 
Afghanistan Veterans of America. Today is Mr. Nicholson's first 
time testifying before the Committee, so congratulations and 
welcome.
    Next, we have Mr. Ryan Gallucci from the Veterans of 
Foreign Wars, followed by Mr. Steve Gonzalez with the American 
Legion. Finally, we have Mr. Michael Dakduk from the Student 
Veterans of America.
    Mr. Nicholson, let's start with you, and you are now 
recognized for five minutes.

 STATEMENTS OF ALEXANDER NICHOLSON, CHIEF POLICY OFFICER, IRAQ 
  AND AFGHANISTAN VETERANS OF AMERICA; MR. RYAN M. GALLUCCI, 
  DEPUTY DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF 
   FOREIGN WARS OF THE UNITED STATES; MR. STEVE L. GONZALEZ, 
ASSISTANT DIRECTOR, NATIONAL ECONOMIC COMMISSION, THE AMERICAN 
  LEGION; AND MR. MICHAEL DAKDUK, EXECUTIVE DIRECTOR STUDENT 
                     VETERANS AMERICA (SVA)

                STATEMENT OF ALEXANDER NICHOLSON

    Mr. Nicholson. Thank you, Chairman Flores, Ranking Member 
Takano, distinguished Members of the Subcommittee.
    On behalf of Iraq and Afghanistan Veterans of America, 
IAVA. I'd like to thank you for this invitation to share our 
organization's views on these bills, and for your continued 
dedication to improving the lives of all of America's veterans.
    IAVA is the Nation's first and largest non-profit, non-
partisan organization for the veterans of the wars in Iraq and 
Afghanistan. Founded in 2004, our mission is simple, to improve 
the lives of Iraq and Afghanistan veterans and their families.
    With a growing base of over 200,000 members and supporters, 
we strive to create a society that honors and supports veterans 
of all generations. While our country's economic position and 
the employment status of all Americans remains a grave concern 
for everyone, it should distress each and every one of us that 
America's newest veterans, those who have shouldered the burden 
of fighting our recent wars are being hit the hardest.
    In its most release on the employment status of veterans, 
the Bureau of Labor Statistics revealed that nearly one out of 
every ten post-911 veterans is unemployed. And although we are 
focused here today on legislation to enhance opportunities for 
veterans who are able to work, I would be remiss if I did not 
remind the Committee Members that those who cannot seek work, 
because of a service-connected disability continue to face an 
unacceptably backlogged VA claims pipeline, which denies 
veterans who cannot work with compensation they deserve to make 
up for their loss of earnings.
    But for those veterans who are able to work, and who want 
nothing more to be able to transition back into civilian life, 
get an education, find gainful employment, and build a better 
life for themselves and their families, we owe it to them to 
ensure that they have the tools, resources, and knowledge to 
successfully take those next steps.
    As a result, IAVA is supportive of all the legislation that 
is the subject of this hearing today. For three of these bills 
in particular, I would like to elaborate on why we believe they 
are important.
    First, H.R. 631, which would enhance, expand, and 
standardize the content of the transition assistance program 
constitutes a positive step in the right direction toward 
equipping troops with the knowledge and skills they need to be 
successful as new veterans.
    A comprehensive substantive and consistent transition 
assistance program is vital to ensuring servicemembers smooth 
transition back into civilian life, and to ensuring the 
stability and security of their families.
    Second, the draft bill that would increase the availability 
of on-the-job training and its apprenticeship programs for 
veterans represents an important step--excuse me, represents an 
important acknowledgment of the enormous benefit that can come 
from practical learning and training experiences.
    Sometimes and in some fields, there is simply no better way 
to learn a job or trade, than to actually dive in and get 
hands-on experience in that field. And finally, for those who 
elect to return to school after completing their military 
service obligations, it is obvious that the post 9/11 GI Bill 
has been a tremendous boom for veterans of the wars in Iraq and 
Afghanistan. But the need for various adjustments and fixes to 
the program has also become obvious.
    H.R. 357 would fix another benefit utilization issue by 
allowing veterans to attend public universities at their 
respective in-state rates and actually be able to afford to go 
to school and live comfortably using their post 9/11 GI Bill 
benefits.
    Because of the nature of military service, servicemembers 
are required to move around, according to the needs of the 
force. Servicemembers who are stationed at a particular post or 
base may live in that state for years, may buy a home in that 
state, shop and pay local taxes in that state, raise a family 
in that state, and generally become part of the community in 
that locale. However, that servicemember may still not always 
technically be considered a resident of that state for tuition 
purposes.
    The situation is not just hypothetical for IAVA members, 
but rather reflects a real situation that many veterans of Iraq 
and Afghanistan have found themselves in after leaving military 
service. Veterans who wind up living in an area outside of 
their home states through no fault of their own, should be 
denied the opportunity to use their earned education benefits 
to cover the full cost of education in an area where they are 
already functional if not technical residents simply because of 
their military service.
    This bill would remedy that gap in tuition and residency 
fairness, and ensure that all veterans could take advantage of 
the promise of the new GI bill without undue hardship. We again 
appreciate the opportunity to offer our views on these bills, 
and we look forward to continuing to work with you, with your 
staff, and with the Committee to improve the lives of veterans 
and their families. Thank you for your time and attention.
    [The prepared statement of Alexander Nicholson appears in 
the Appendix]

    Mr. Flores. Thank you, Mr. Nicholson. Mr. Gallucci, you're 
recognized for five minutes.

                 STATEMENT OF RYAN M. GALLUCCI

    Mr. Gallucci. Thank you, Chairman Flores. On behalf of 
nearly 2 million members of the VFW and our auxiliaries, I want 
to thank you for the opportunity to present VFW's stance on 
today's pending legislation.
    Unemployment among young veterans who served after 9/11 
continues to out pace unemployment among civilians, which is 
why the VFW, the Nation's largest organization of combat 
veterans continues to champion veterans' hiring and legislative 
initiatives.
    I want to thank this Subcommittee for its hard work in the 
last Congress passing laws like the Vow to Hire Heroes Act, and 
improving transparency and education for Veterans Act, and 
other initiatives that have helped today's--make today's 
veterans more competitive in tough economic times. However, 
with the wars drawing down, proposed reductions in the active 
duty force, and plans to lean on the Guard and Reserve for 
future missions, we must do more.
    The VFW proudly supports each bill up for discussion today, 
and I refer the Subcommittee to my prepared statement for VFW's 
full analysis. For the balance of my remarks, I want to offer 
our thoughts on three critical bills, H.R. 357, H.R. 562, and 
H.R. 631.
    As of 2011, Student Veterans of America reports that only 
one out of every five veterans attending a public school is 
eligible to attend at the in-state rate. Why? Because military 
service precludes many veterans from satisfying residency 
requirements for tuition purposes. The VFW regularly hears from 
student veterans who say that financial uncertainty is the most 
significant roadblock to finishing school.
    To combat this, it only makes sense to allow our student 
veterans to attend college at a reasonable rate when seeking to 
use their earned post 9/11 GI Bill benefits, and we hope the 
Committee moves quickly to pass the GI Bill Tuition Fairness 
Act of 2013.
    The post 9/11 GI Bill was intended to offer veterans a free 
public education, and a modest living stipend, allowing 
veterans to treat college as a full-time job without worrying 
about financial stability. However, current law only allows VA 
to reimburse veterans attending public schools for the cost of 
an in-state education, meaning veterans who cannot qualify for 
in-state tuition will only receive meager reimbursement for 
college.
    This oversight forces veterans to find other ways to pay 
for college by tapping into other Federal aid programs, finding 
full-time employment, or amassing student loans that even when 
they make a good faith effort to legally reside in a state and 
attend a public school.
    An easy solution to this issue is for public colleges and 
universities to allow post 9/11 GI Bill veterans to attend at 
the in-state rate. Servicemembers already have similar 
protections when using military tuition assistance at public 
schools, with minimal impact on the ability of state colleges 
to deliver a quality reasonable price to education. 
Unfortunately, once the uniform comes off, veterans suddenly 
become state-less for tuition purposes.
    The post 9/11 GI Bill is a Federal program designed to help 
our heroes acquire the skills necessary to build a successful 
career after service. Our veterans serve the Nation, not a 
particular state. They should not be penalized for that service 
when they cannot satisfy strict residency requirements for 
tuition purposes. The states know they can deliver a quality 
education at the in-state rate, particularly for such a small 
percentage of the student body. This is why ten states already 
offer in-state tuition for veterans, eight offer conditional 
waivers, and 16 others are considering legislation.
    In states that offer in-state tuition, both Republican and 
Democrat state leaders all agree that the financial benefits 
for the state far outweigh the illusory financial burdens that 
some in higher education believe would be detrimental to 
institutional budgets. Simply put, graduates of public colleges 
and universities traditionally pursue careers close to their 
alma mater, and I'll refer you to my prepared statement for 
quotes from some of the state leaders who support these.
    Next on the VRAP Extension Act, the VRAP was proud to 
support the establishment of VRAP as part of the Vow to Hire 
Heroes Act. Unfortunately, enrollment is down, and the program 
is set to expire before many veterans can fully use it. VFW 
fully supports extending VRAP and reporting outcomes, but we 
also ask the Committee to consider two improvements to the 
program.
    First, Congress should ease the restriction on institution 
eligibility. The VFW understands why VRAP only pays for 
programs no longer than two years in duration, but as a result, 
four-years schools cannot participate. Unfortunately some 
communities only offer four year schools.
    An example, in Eerie, Pennsylvania, veterans will not find 
an eligible community college nearby because the Penn State 
Eerie campus serves as a de facto community college. Second, 
Congress must make it easier for VRAP to cover remediation.
    Recently the VFW heard from the student veterans 
organization at Community College of Rhode Island, who report 
that basic remedial skills, like math, composition, or computer 
literacy cannot be covered through VRAP since they do not 
correlate to an approved program. The VFW believes that 
veterans must be able to easily use VRAP for remediation, 
otherwise veterans will not be able to complete their programs.
    And finally, on the Service Members Choice of Transition 
Act, the VFW fully supports TAP redesign, and we thank the VA 
Labor, SBA, and DoD for allowing us to evaluate their pilots. 
That being said, the VFW believes that TAP is significantly 
improved, but we have lingering concerns.
    The VFW supports DoD's efforts to build the military life 
cycle for professional development, but we prefer the 
transition models in H.R. 631 which compresses TAP and allows 
servicemembers to actively choose their unique transition plan. 
This model acknowledges the finite timeframe services can 
dedicate to delivering TAP.
    Chairman Flores, this concludes my statement, and I'd be 
happy to answer any questions you may have.
    [The prepared statement of Ryan M. Gallucci appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Galucci. Mr. Gonzalez?

                 STATEMENT OF STEVE L. GONZALEZ

    Mr. Gonzalez. All servicemembers and women returning from 
Iraq and Afghanistan, as well as those from previous eras are 
met with daunting challenges at home. Chairman Flores, Ranking 
Member Takano, and distinguished Members of the Subcommittee, 
on behalf of Commanda College and the 2.4 million members of 
the American Legion, I thank you and your colleagues for the 
work you do in support of our servicemembers and veterans, as 
well as their families.
    We are pleased to see that the pending legislation before 
us today addresses these challenges in productive ways. As the 
largest organization of wartime veterans, the legion works 
tirelessly to make a positive difference in the lives of our 
Nation's active duty troops, Reserve, and Guard forces, and 22 
million veterans and their families. We are looking forward to 
working with you to ensure that the best benefits and services 
are made available to them.
    We have addressed each of the pending bills in our written 
statement, but because of its importance, I would like to take 
this opportunity to highlight just one of them now, 
specifically H.R. 357, GI Bill Tuition Fairness Act.
    The American Legion is synonymous with veterans' education, 
being instrumental in the passage of both the original GI Bill 
of Rights of 1944, and the most recent post 9/11 GI Bill, along 
with helping the modern day veteran navigate the confusing 
world of education benefits. The main reason for the post 9/11 
GI Bill was that VA education benefits were no longer covering 
fast rising tuition costs.
    Working with Congress, we stress the need for a 21st 
Century GI Bill that would provide benefits worthy of our 
veterans and offer the same opportunities afforded to those who 
fought in World War II. However, over the last couple of years, 
we have heard from countless veterans, who because of the 
nature of military service, often have a difficult time 
establishing residency for the purpose of obtaining in-state 
tuition rates.
    Under current rules, 40,000 student veterans have to pay 
the difference between in-state tuition, which is covered by 
the post 9/11 GI Bill and out-of-state tuition if they're 
attending school as a non-resident. Because of this, many of 
our student veterans are unable to use their GI bill benefits 
at a school of their choice, or are required to pay thousands 
of dollars in out of pocket expenses at non-residential tuition 
rates.
    Furthermore, public schools--public colleges and 
universities have significantly raised the cost of out of state 
tuition to offset decreasing revenues due to state budget cuts. 
Circumstances such as this post significant challenges to using 
this important benefit.
    To address this, the American Legion has led a state-by-
state initiative to introduce, advocate for, and support state 
legislation that would fix this problem and we have seen recent 
victories in Indiana, Maryland, Missouri, and North Dakota. As 
a result, ten states have passed laws to waive the residency 
requirement, another nine states have waived these for some 
veterans and military family members through university 
specific policy changes. However, this leaves too many veterans 
in states which have not done so.
    Unfortunately, though, not all states and schools seem to 
recognize by their actions the necessity of fixing this 
problem. We were therefore pleased to see Chairman Miller and 
Ranking Member Michaud jointly introduce H.R. 357 bipartisan 
legislation which would solve this problem by requiring public 
colleges and universities as a condition for receiving GI Bill 
funding, to give veterans in-state tuition rates.
    Chairman Miller was absolutely right when he said in his 
statement upon the bill's introduction, and I quote, ``The men 
and women who served this Nation did not just defend the 
citizens of their home states, but the citizens of all 50 
states. As such, the educational benefits they receive from the 
taxpayers should reflect that.''
    Veterans shouldn't have to assume tremendous financial 
burdens or go into deep debt for their education just because 
the military has taken them away from their home state. Again, 
the whole point of the post 9/11 GI Bill was to ensure student 
veterans attending public schools, receive a reasonably priced 
education at the public school of their choice.
    Therefore, this legislation is absolutely essential to the 
thousands of veterans who were promised this funding for their 
college education when the post 9/11 GI Bill was originally 
passed, and is vital to giving veterans an equal opportunity to 
afford the school of their choice.
    The American Legion pledges to put our full weight behind 
this important legislation, and encourages this Committee to 
aggressively pursue timely enactment.
    In conclusion, I appreciate the opportunity to present the 
American Legion's views, regarding this legislation and believe 
we are uniquely qualified to participate in this discussion. I 
am looking forward to your questions, and thank you, Chairman.
    [The prepared statement of Steve L. Gonzalez appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Gonzales. Mr. Dakduk, you're 
recognized for five minutes.

                  STATEMENT OF MICHAEL DAKDUK

    Mr. Dakduk. Thank you, Chairman Flores, and Ranking Member 
Takano, who's not here, and the other Members of the 
Subcommittee, thanking for inviting Student Veterans of America 
to testify on important legislation impacting current student 
veterans and future student veterans that will undoubtedly take 
advantage of generous VA education benefits, like the post 9/11 
GI Bill.
    The Student Veterans of America or SVA is the largest and 
only national association of military veterans in higher 
education. Our mission is to provide military veterans with the 
resources, support, and advocacy needed to succeed in higher 
education and after graduation.
    We currently have over 800 chapters or student veteran 
organizations at colleges and universities in all 50 states, 
including a dozen or more in your home state of Texas, that 
assists veterans in their transition onto the college campus, 
and ultimately into meaningful employment.
    Our network all across this country of veterans and 
military family members organized at community colleges, four-
year institutions, public, private, non-profit and for-profit 
schools, provide Student Veterans of America with the special 
appreciation for the issues affecting military veterans in 
higher education.
    Regarding the pending legislation being heard today, I'd 
planned on briefly covering two bills, and use the remaining 
time to focus on H.R. 357, the GI Bill Tuition Fairness Act, 
but given other testimony you've heard today, I'm going to 
focus my remaining time on H.R. 357 exclusively.
    The post 9/11 GI Bill pays the highest in-state tuition and 
fees rate. Due to military obligations, many veterans are 
unable to establish in-state residency for the purposes of 
enrolling at a public university of college. Ultimately, this 
becomes a financial burden that leaves veterans vying for 
additional financial aide, due to out-of-state residency 
status.
    After conducting a state-by-state landscape analysis, using 
all 50 state legislator's bill search engine, and the National 
Conference of State Legislative databases, we have discovered 
the following regarding in-state tuition residency waivers for 
student veterans.
    Twelve states passed legislation that waived the in-state 
tuition residence requirements for all veterans. Three states 
waived the in-state tuition residency requirement for some 
veterans, including your home state of Texas, which was 
referenced to Hazelwood Act in previous testimony. But it's 
important to understand that the Hazelwood Act is unique, that 
you have to have already been a resident of Texas, graduated 
from a Texas high school. Now, there are other special 
provisions in there.
    Five state school systems passed policy that waives the in-
state tuition residency requirement for veterans. For example, 
the State of Alaska, while the state legislature has not done 
anything in the State of Alaska, the public university system 
of Alaska has granted in-state tuition for all veterans.
    Sixteen state legislatures are currently considering laws 
that would waive the residency requirements for veterans to 
receive in-state tuition. But it's important to note that the 
climb into double digits of state legislatures looking at in-
state tuition for veterans has much to do with the American 
Legion's led state-by-state grassroots effort, and our work, 
Student Veterans of America, American Legion, and the Veterans 
of Foreign Wars on raising the profile on this issue.
    Prior to coming here, and before the start of the 113th 
Congress, there was only roughly six states considering in-
state tuition for veterans. So I think it's incredibly 
important to acknowledge my colleagues at the American Legion 
and the VFW.
    Sadly, now 14 states have not even broached the topic of 
providing in-state tuition for veterans, including my home 
state of Nevada, that's why I appreciate that Congressman Titus 
has offered her name as a co-sponsor for H.R. 357.
    Another interesting thing, it's troubling that we, as a 
country, find no cost too great to send America's sons and 
daughters off to war. Yet, when they return home, and remove 
the uniform, some entities and national associations and 
institutions search for reasons not to give them the full 
support that they have earned.
    Another interesting thing is that in the Higher Education 
Act, there is a clause that provides in-state tuition for all 
active duty servicemembers and spouses. Once again, when we 
remove our uniform, we begin to raise issues on why we cannot 
support military veterans that are student veterans currently 
using GI Bill or other VA educational benefits.
    In closing, I appreciate the opportunity to provide the 
Subcommittee with SVA's views, and we look forward to answering 
your questions. Thank you, Mr. Chairman.
    [The prepared statement of Michael Dakduk appears in the 
Appendix]

    Mr. Flores. Thank you, Mr. Dakduk, and I appreciate the 
testimony of all of you. I appreciate each of your respective 
service for our country, and I appreciate the support of our 
veterans, that each of your organizations provide.
    I will begin the questioning, and I'll recognize myself for 
as much time as I may need.
    First, this question would go to all of you, and I would 
ask you to keep your individual answers as short as you can. 
This has to do with H.R. 357. You heard some testimony by the 
last panel, particularly by Dr. Aldridge and by Colonel Denning 
in opposition to H.R. 357. What's your reaction to that, we'll 
start with Mr. Nicholson and go to your left.
    Mr. Nicholson. Sure, just to keep it brief, Mr. Chairman, I 
would just reiterate the remarks actually of Chairman Miller at 
the beginning of this hearing, that you know, number one, they 
keep saying that it's an unfunded mandate, when it is not. I 
would just basically offer up a reiteration of what Chairman 
Miller offered in response to their opposition in the 
beginning.
    Mr. Flores. Okay. Mr. Gallucci?
    Mr. Gallucci. Thank you, Chairman Flores. I think there's 
something interesting at play here, when we hear some of the 
comments that we heard from the previous panel. Now, in the 
last Congress, it took a very concerted effort by the Veterans 
of Foreign Wars, the American Legion, and Student Veterans of 
America to pass responsible consumer education reforms for our 
veterans. It was the right thing to do, and we were willing to 
speak to any stakeholder in higher education to make sure that 
we got that done.
    We echo that sentiment in this Congress, and we're willing 
to come to the table to discuss issues like in-state tuition 
with various stakeholders. But it's disconcerting to see that 
these stakeholders come to the table believing that first, this 
is an unfunded mandate, and that this is a burden on taxpayers.
    We've seen in a number of budget battles that this Congress 
is going through that our taxpayers believe in supporting our 
veterans, that it's the right thing to do, that we have an 
ethical obligation to support them.
    We represent taxpayers, our constituents are all across the 
country in all 50 states, the VFW, American Legion, and Student 
Veterans of America. The taxpayers are willing to do this, 
we've seen it from Republican and Democratic leaders in the 
states.
    We owe it to our veterans that since they cannot satisfy 
their residency requirements, we need to offer them in-state 
tuition.
    Mr. Flores. Mr. Gonzalez?
    Mr. Gonzalez. Sir, one other thing I would address, and I 
guess I would add on to what Mike said about. There is a 
precedence, the precedence is with the Higher Education 
Opportunity Act that was passed in 2008, Section 135, which 
actually indicates, if any servicemember whose domicile does 
not reside within a state that they're actually sent to for 
duty, and they're there for 30 consecutive days, they 
themselves including the dependents and spouse, will be granted 
in-state tuition within the state that they're stationed for 
more than 30 days consecutively.
    So there is a precedence that already--it's already been 
implemented and put into play as of, you know, four or five 
years ago. So to say there's not a precedence, it's actually 
blatantly a lie.
    And the other part I would address is for all the 
universities that say they want veterans, they're willing to 
help veterans, and I honestly say this, and we've learned this 
as of 48 hours ago, within the State of Maryland, we actually 
had a fight, the American Legion working with our other two 
colleagues and organizations, had to fight against the 
university system of Maryland within the State of Maryland, to 
pass a state waiver of residency for veterans within the State 
of Maryland, working with the governor's office and state 
legislatures.
    But to see this blatantly fight behind closed doors, where 
they say we want to bring in more veterans, we want to help 
veterans, but behind closed doors, they're the first ones to 
say, you know, we don't want to grant this because it's going 
to hurt our budget, it's not just economically detriment to our 
country, but is also not sound policy by no means, Chairman.
    Mr. Flores. Mr. Dakduk.
    Mr. Dakduk. Thank you, Mr. Chairman. I'm not going to 
repeat what any of the other folks said here, especially my 
colleagues from the VFW and American Legion, but you may have 
heard in the previous testimony the Yellow Ribbon program, a 
lot of folks can sign up for the Yellow Ribbon program, schools 
do that.
    Here's something where I don't think you should be fooled 
on this. If you run a school, and you sign up for the Yellow 
Ribbon program, you might be perceived to be veteran friendly 
because you signed up for it, but let's say the difference 
between out-of-state and in-state tuition is $10,000, and your 
school signed up for the Yellow Ribbon program for a thousand 
dollars, and then the VA matches it for a thousand, it's 
$2,000. That difference still ends up being 8,000.
    So they can say they're a Yellow Ribbon school and they're 
supporting veterans, and they're veteran friendly, but at the 
end of the day, if they don't fully support the Yellow Ribbon 
program, which many institutions of higher learning do not, and 
make a claim that they're veteran friendly, that's not fully 
supporting the student veteran at the end of the day.
    So that's one thing I want to clarify.
    Another thing is that over the past couple of years, 
there's been a lot of issues about for-profit schools looking 
at veterans as dollar signs. I have traveled over half of the 
country, 26 states, I've made with hundreds of university 
presidents, CEOs, and most importantly student veterans. 
Interestingly enough, I have always said we need to stop 
talking about one sector, and talk about higher education as a 
whole when we support military veterans.
    And now we have an instance where public universities, non-
profit, private, and public are looking at veterans as dollar 
signs as well with in-state tuition and not providing that with 
them.
    So I think that is very interesting over the last couple of 
years, how the focus has been on the for-profits, and I've 
always maintained that we need to look across the spectrum of 
higher education.
    Mr. Flores. Thank you, Mr. Dakduk. Let's shift gears for a 
minute, and talk about H.R. 631, the bill to improve TAP. Can 
each of you tell me a little bit about what you think, I mean 
if a servicemember is getting ready to further education, and 
this education could cost up to--cost the taxpayers $250 to 
$270,000 as you've shown as an example, we've put on the 
screen, do you believe that it's important to give that 
servicemember a thorough understanding of their benefits on the 
educational track, so that they make the best use of these 
pressure taxpayer dollars? And again, we'll start with Mr. 
Nicholson and go the other way. If you don't have a response, 
you can just pass, and we'll go to the next one.
    Mr. Nicholson. Chairman Miller, we would--or excuse me, 
Chairman Flores, we would completely agree with that.
    You know, the investment that we're making in these 
veterans, not only in education, but in some of the job 
training programs, and some of the programs that the VA has for 
transitioning servicemembers who are becoming veterans is an 
extremely large financial commitment.
    You know, I think anything we can do to ensure that we're 
making the absolute best possible strategic investment allowing 
them to make the most of their time, and their investment is 
certainly worthwhile.
    Mr. Flores. Mr. Gallucci?
    Mr. Gallucci. Chairman Flores, thank you for the question. 
Absolutely we want to see the tracks mandated. After we heard 
from Dr. Kelly and the other witnesses on TAP mandate, I did a 
little poking around on my phone on the internet, just looked 
up the code in Title X where the Transition Assistance Program 
is mandated. And it says for employment and training, and I 
think that's a very important caveat to make and training, is 
where we talk about the education benefits that our veterans 
are going to be entitled to.
    We agree with the military life cycle, we believe that you 
should prepare your servicemembers for career, for civilian 
career readiness as soon as they join the military, and it 
should be a lifelong learning process. However, that doesn't 
take into consideration the servicemembers that are near their 
end of time in service, and that's who we're worried about.
    We're worried that if you have to meet career readiness 
standards within a finite amount of time as you approach ETS, 
but you fail to meet those career readiness standards, what 
happens? The military is obviously not going to retain you. To 
build on that, we believe in a lot of what Dr. Kelly and 
Secretary Kelly were talking about, with making these resources 
available to veterans after they transition.
    We fully support the Marine Corps model, which I believe 
this legislation is based off of, which offers buy-end, that 
the Marine Corps can demonstrate success in administering their 
TAP program. So we're fully behind it, and we believe it's 
something that DoD, VA, Labor can easily accomplish.
    Mr. Flores. Okay. Thank you, Mr. Gallucci. Mr. Gonzalez?
    Mr. Gonzalez. Yes, Chairman. With the TAPs, the TAP program 
is also essential to not just a transitioning servicemember, 
but also to the country as a whole, to society as a whole, 
economically, which is also seen with the post war World War II 
veterans who created the long economic prosperity of this 
country, who became business owners, who became tradesmen, who 
became--went to higher education and gained another level of 
education within themselves, regardless of social economic 
class, we have not seen this amount of active duty 
servicemembers transition to veterans since post World War II.
    So as a country, we owe it to ourselves as all of us as a 
society, to ensure that these servicemembers can be successful 
as they transition out, and TAP is one of those vehicles to 
ensure that their success, and they are successful coming out, 
regardless of what the definition of success is, because that 
is actually--that'll help our long economic prosperity for the 
country as a whole.
    Mr. Flores. Mr. Dakduk?
    Mr. Dakduk. Chairman Flores, we fully support H.R. 631, and 
my colleagues at the VFW and American Legion, and Student 
Veterans of America, we've worked with the DoD and VA, and 
we've seen what they're doing to a certain extent, but I fully 
believe it's a step in the right direction. But H.R. 631, we 
want to see that enacted, and we'd like to make the tracks 
mandatory, especially the education track, I think that's 
extremely important. The post 9/11 GI Bill is highly complex, 
but applying to college, getting accepted, going through that 
process is extremely complex as well, so I think it's 
absolutely valuable as well as the entrepreneurship track and 
the vocational track as well.
    Mr. Flores. Thank you, Mr. Dakduk, and I'll make one 
closing editorial comment on 631 and 357. I think it's 
important for everybody to know that the U.S. taxpayers, 
according to the CBO, are going to invest $72 billion over the 
next ten years in the post 9/11 GI program. So the American 
taxpayers are in this fully with the states, when you look at 
the potential impact of H.R. 357 on the states. We can't forget 
the Federal taxpayers are there along side our veterans on this 
issue.
    And with respect to--and you can similarly extend that to 
H.R. 631. If you want to get the best value of that $72 
billion, it makes sense for the education track to be mandatory 
for those servicemembers that would elect to forward that 
track.
    And with that, I want to thank each of you for being here 
today. I'd like to remind the Subcommittee Members that 
hopefully are going to find out about this, that we're going to 
be holding a mark-up on some or all of the bills that we 
discussed today on April 25th at 10 a.m. in the morning here in 
344 Cannon. I ask unanimous consent that statements from the 
National Coalition of Homeless Veterans and Vets First also be 
made part of the record today.
    Hearing no objection, so ordered. Finally, I ask unanimous 
consent that all members have five legislative days to revise 
and extend remarks, and include any extraneous material in the 
record of today's hearing.
    Hearing no objection, so ordered. And thank you, everyone, 
for being here, and we are adjourned.

    [Whereupon, at 12:36 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Hon. Bill Flores
    Good Morning everyone and the Subcommittee will come to order.
    We have a total of nine bills before us, and a host of witnesses so 
I promise to keep my opening statement brief.
    Two of the nine bills before us today are bills that I introduced 
earlier this year. The first is H.R. 631 the ``Servicemembers Choice in 
Transition Act of 2013'' which I introduced with Ranking Member Takano.
    This bill is meant as a follow along to the VOW to Hire Heroes Act 
that would improve the transition assistance program, or TAP, for 
separating servicemembers.
    The VOW Act made TAP mandatory for all but a very few 
servicemembers, and since the enactment of that bill the services and 
the administration have nearly completed an overhaul of the TAP program 
for the first time in decades. From what I have heard from veterans and 
my staff, the new curriculum is much improved but more can be done.
    DoD has created several tracks or courses for servicemembers that 
focus on some of the most common transition paths that servicemembers 
take when separating. These tracks focus on the following areas: 
education, voc-tech, employment, and entrepreneurship.
    These tracks are meant to provide in-depth knowledge on these 
topics and allow servicemembers the choice in picking training that 
best fits their transition goals. Unfortunately, that option is not 
included in the mandatory portion of TAP.
    For example, if a veteran was planning to go to college and use 
their Post 9/11 GI Bill the education track should help them decide 
whether they are ready for post-secondary education and if not, how to 
get ready, what should be their education or training goal, what 
schools would best meet their education or training goal, how to 
complete the admissions process, and finally, how to finance their 
education or training.
    As you can see on the slide, the Post 9/11 G.I. Bill benefit can 
provide over $270,000 over four years at one of the most expensive 
schools in the country, in this case Stanford University. If taxpayers 
are going to provide this generous benefit, it is our duty to ensure 
that they know how to make best use of this benefit.
    As I said, from everything we have heard from DoD, and as they will 
shortly testify to as well, they will not require that these tracks not 
be part of the mandatory portion of TAP. As a non-mandatory option, 
Servicemembers could take the optional track only if their supervisor 
would allow them to miss more days of work or if they don't meet the 
still undefined ``career readiness standards.''
    Regarding those standards, how can we expect a Commanding Officer 
to reasonably determine whether a Servicemember's Individual Transition 
Plan actually reflects attainable objectives given the infinite 
variations in a member's life?
    Therefore, I believe H.R. 631 would fill that gap by making the 
optional tracks part of the mandatory portion of TAP while giving the 
services flexibility to meet these requirements. The model I am 
proposing as you can see on the screen provides each servicemember with 
an executive summary of each track followed by time to take the track 
of their choice along with classes on VA benefits and service specific 
separation counseling. The model shows five days but it could be seven 
or eight days, whatever it takes to get the job done.
    This model is based off a model that the Marines have been piloting 
with great success for some time.
    My second bill, H.R. 1316, seeks to codify the roles and 
responsibilities of Directors of Veteran Employment and Training or 
DVETS (Dee-VETS). DVETS are Federal employees who represent the 
Veterans Employment and Training Service on the state level and whose 
primary responsibility is to oversee the DVOPS and LVERS who are funded 
by the Jobs for Veterans Sate Grant Program. Curiously, Title 38 
contains no specific responsibilities for the DVETS. It only says there 
shall be DVETS and Assistant DVETS.
    The performance of the DVOPS and LVERS continues to be topic of 
concern for this Committee and by codifying the responsibilities of 
DVETS we will strengthen their position with their state to improve the 
performance of the DVOPS and LVERS - something I am sure we can all 
agree must happen.
    With that I happy to yield to the Ranking Member for any opening 
statement he may have.

                                 <F-dash>
                 Prepared Statement of Hon. Mark Takano
    Thank you Mr. Chairman.
    Good morning, I would like to thank everyone for joining us and I 
would like to thank our witnesses for taking time to testify and answer 
our questions.
    We have a number of bills before us today which extend or refine 
important veterans' programs like the Post 9/11 GI Bill, veterans' 
vocational rehabilitation and retraining, transition assistance, work-
study, and participation in U.S. Paralympics programs, among others.
    I want to thank Mr. Flores for introducing HR 631, and which I have 
cosponsored. I support this bill and I am interested in making the 
optional tracks in the Transition Assistance Program mandatory. The 
bill requires that additional time be spent helping warriors understand 
the educational, training and employment resources they have earned--
and how and where to access them.
    Mr. Chairman I want to highlight two bills I have introduced:

    1. The VetSuccess Enhancement Act, HR 844, which extends by five 
years, the time period when veterans with service-connected 
disabilities are eligible to enroll in VA vocational and rehabilitation 
programs. Veterans with traumatic brain injury or spinal cord injury 
often require years to complete rehabilitation and adjust to their new 
realities of the basic activities of daily living. Once this has been 
achieved, those who wish to return to work and need vocational 
rehabilitative services have often passed the 12-year eligibility 
period. And many other veterans do not become aware of this program 
until they are no longer eligible. My legislation will give these 
veterans 5 additional years to receive thistraining.

    2. The second bill I introduced, ``The Work-Study for Student 
Veterans Act,'' is a five year extension of the Veterans' Work-Study 
program at the Department of Veterans Affairs. As an educator, I know 
how important these programs are to students, allowing them to earn a 
little extra cash to live on while they attend school. The VA program 
pays veterans to assist other transitioning veterans in navigating VA's 
claims and benefits system. It is an important program to veteran 
students in my district and to thousands of others in schools across 
the country. Without my legislation, it will expire at the end of June. 
I hope members from both sides of the aisle will support it along with 
H.R. 844.

    Thank you, Mr. Chairman, for scheduling this hearing to review 
these bills. I look forward to the testimony and discussion we will 
have today.
    I yield back.

                                 <F-dash>
                  Prepared Statement of Curtis L. Coy
    Good morning, Mr. Chairman, Ranking Member Takano, and other 
Members of the Subcommittee. Thank you for the opportunity to be here 
today to provide the Department of Veterans Affairs' (VA) views on 
pending legislation affecting VA's programs, including the following: 
H.R. 357, H.R. 562, H.R. 631, H.R. 844, and H.R. 1402, as well as a 
draft bill to authorize an extension of VA's work-study training 
program for certain activities, and sections 3 and 4 of a draft bill to 
improve and increase the availability of VA's on-job training and 
apprenticeship programs. Other bills under discussion today would 
affect programs or laws administered by the Department of Labor (DOL). 
Respectfully, we defer to that Department's views on H.R. 1305, a bill 
to provide clarification regarding eligibility for services under the 
Homeless Veterans Reintegration Program, and H.R. 1316, a bill to 
specify the responsibilities of the Directors and Assistant Directors 
of Veterans' Employment and Training.
    Accompanying me this morning is Mr. Danny Pummill, Director, 
Veterans Benefits Administration (VBA)/Department of Defense (DoD) 
Program Office.
                                H.R. 357
    H.R. 357, the ``GI Bill Tuition Fairness Act of 2013,'' would amend 
section 3679 of title 38, United States Code, to direct VA, for 
purposes of the educational assistance programs administered by the 
Secretary, to disapprove courses of education provided by public 
institutions of higher education that do not charge tuition and fees 
for Veterans at the same rate that is charged for in-state residents, 
regardless of the Veteran's state of residence. The bill does not 
address whether tuition and fee rates for Servicemembers or other 
eligible beneficiaries of the GI Bill affect the approval status of a 
program of education. H.R. 357 would apply to educational assistance 
provided after August 1, 2014. In the case of a course of education in 
which a Veteran or eligible person (such as a spouse or dependent who 
is eligible for education benefits)is enrolled prior to August 1, 2014, 
that is subsequently disapproved by VA, the Department would treat that 
course as approved until the Veteran or eligible person completes the 
course in which the individual is enrolled. After August 1, 2018, any 
disapproved course would be treated as such, unless the Veteran or 
eligible person receives a waiver from VA. While VA is always 
supportive of States affording the best and most affordable possible 
educational opportunities for Veterans, VA cannot offer support for 
this legislation because of its uncertain impact on the availability of 
educational choices for Veterans, Servicemembers, or their dependents.
    It is difficult to predict what reductions in offerings by 
educational institutions would result by this requirement. In-state 
tuition rules are set by individual States, and are undoubtedly driven 
by overall fiscal factors and other policy considerations. 
Additionally, the bill creates ambiguity since it is unclear whether 
institutions that charge out-of-state tuition and fees to other 
eligible persons for a course of education, but that charge in-state 
tuition to Veterans in the same course, would also be disapproved.
    This bill may result in a decrease in program expenditures by 
reducing the number of individuals who participate in the Yellow Ribbon 
program because either: (1) they would no longer be charged the out-of-
state tuition amount if they are attending a public school outside 
their state of residence, or (2) they would choose not to participate 
at all because of reduced educational choices. As noted above, it is 
difficult to project the effect of this legislation on the courses 
offered by public educational institutions.
    VA estimates approximately 11.8 percent of Yellow Ribbon 
participants attended public institutions since the program's 
inception. Of those, an estimated 80.6 percent were Veterans during the 
2012 fall enrollment period. VA applied these percentages to the total 
amount of Yellow Ribbon benefits paid in FY 2012 and projected through 
FY 2023, assuming growth consistent with the overall chapter 33 
program. Based on those projections, VA estimates that enactment of 
H.R. 357 would result in benefit savings to VA's Readjustment Benefits 
account of $2.3 million in the first year, $70.3 million over five 
years, and $179.9 million over ten years. VA estimates there would be 
no additional GOE administrative costs required to implement this bill.
                                H.R. 562
    H.R. 562, the ``VRAP Extension Act of 2013,'' would amend Title II 
of Public Law 112-56, the ``VOW to Hire Heroes Act of 2011,'' to extend 
for 3 months (through June 30, 2014), the Veterans Retraining 
Assistance Program (VRAP) authorized by section 211 of that title. It 
also would direct VA, in collaboration with DOL, to submit to Congress, 
not later than 30 days after the date of enactment of H.R. 562, an 
interim report on the retraining assistance provided under such 
program. The report would include the total number of eligible Veterans 
who had participated in the program as of the date of the enactment of 
the bill, the total number of associates degrees or certificates 
awarded to these Veterans, and other data relating to the employment 
status of such Veterans.
    VA supports legislation that would extend the VRAP program. 
Extending VRAP by three months would offer Veterans more time to select 
and complete their degree or certificate program.
    While VA is prepared to provide an interim report regarding the 
number of VRAP participants since inception of the program, we have 
concerns about providing a report on degree and certificate outcomes 
and employment status of participants because the program does not end 
for another year. We recommend, in the alternative, that an interim 
report be required no later than 90 days after enactment of the 
proposed legislation, which would exclude the employment status of 
participants. This change would allow VA and DOL an opportunity to 
collect statistics regarding educational outcomes and provide 
additional time for VRAP participants to complete their program of 
education. Given the nature of employment data collection, there is a 
significant time lag between when a veteran receives employment 
services and when their employment outcome can be adequately tracked. 
For example, for those who completed their VRAP training and received 
DOL follow-up employment services by December 31, 2012, job-related 
outcomes will not be available until November 2013, as there is roughly 
an 11-month lag between the availability of State wage records and the 
calculation of the Entered Employment measure. Collecting outcomes 
before participants use a full year of their benefits would give an 
inaccurate picture of the success of the program. VA also recommends if 
the program is extended for an additional three months, the date of the 
final report to Congress, which the bill currently sets as on or before 
July 1, 2014, should also be extended for three months to October 1, 
2014. VA would not be able to provide a full report to Congress on the 
program participants on July 1, 2014 for the reasons stated above.
    VA estimates no benefit costs to the Readjustment Benefits account 
associated with this proposal. VA already assumes maximum participation 
and usage for VRAP in its budget estimates. While this bill would 
provide Veterans an additional three months to utilize their VRAP 
benefit, there would be no increase or other change in Veterans' 
eligibility or entitlements. GOE costs for this legislation would be 
negligible and would be absorbed within existing resources.
                                H.R. 631
    H.R. 631, the ``Servicemembers' Choice in Transition Act of 2013,'' 
would amend section 1144 of title 10, United States Code, concerning 
the Transition Assistance Program (TAP), which provides employment and 
job training assistance and related services for members of the Armed 
Forces being separated from active duty, and for their spouses, to add 
a new subsection delineating the Program's format and content.
    H.R. 631 proposes a curriculum similar to the Transition Goals, 
Plans, Success (Transition GPS) curriculum currently being implemented 
worldwide. This bill would require that TAP consist of at least five 
days of instruction to include: (1) at least one day of service-
specific pre-separation training; (2) up to one day for instruction in 
preparation for employment, preparation for education, career, or 
technical training, preparation for entrepreneurship, or other options 
determined by the Secretary of the military department concerned; (3) 
at least two days of in-depth instruction of the participant's choice 
in any of the subjects described under (2), above; and (4) up to one 
day of instruction in benefits provided under laws administered by VA 
and in other subjects determined by the Secretary concerned.
    H.R. 631 also would require VA to submit to the Senate and House 
Committees on Veterans' Affairs, not later than 180 days after the date 
of enactment, the results of a study to determine the feasibility of 
providing Veterans benefits instruction at all overseas locations where 
such instruction is provided through a joint contract with DOL.
    VA does not support this legislation. VA appreciates the strong 
interest and support from the Committee to ensure that departing 
Servicemembers are given full and effective engagement on their 
employment and training opportunities, as well as the other VA benefits 
they have earned. However, it is our view that the programs implemented 
as a result of ``VOW to Hire Heroes Act of 2011'' and the Veterans 
Employment Initiative (VEI) satisfy the intent underlying H.R. 631. We 
believe those initiatives should be afforded the opportunity to be 
fully implemented and assessed before further legislation in this area 
is enacted. Allowing agencies to proceed under current plans would 
provide greater flexibility in implementing improvements and making 
adjustments based on accurate data analysis during assessment. We will 
be pleased to brief the Subcommittee on the improvements and 
enhancements that are currently being implemented as part of the VEI.
    VA, with Federal agency partners, including DoD, DOL, the 
Department of Education, the Department of Homeland Security, and the 
Small Business Administration (SBA), is currently participating in the 
implementation of an enhanced TAP curriculum, known as Transition GPS, 
which was developed under the VEI.
    Current components of the Transition GPS curriculum include 
mandatory pre-separation counseling, service-delivered modules, VA 
benefits briefings, a DOL Employment Workshop, and tracks the 
participant many choose to utilize, focused on technical training, 
educational, and entrepreneurial information, resources, and 
opportunities.
    The Capstone event will be implemented by the end of FY 2013, and 
it is intended to confirm that Servicemembers have met all the 
objectives of the Career Readiness Standards and have a viable plan to 
successfully achieve their transition goals. With the implementation of 
this event by the end of FY 2013, the Transition GPS curriculum will 
take approximately seven to eight days to complete.
    VA has primary responsibility in the development and delivery of VA 
benefits briefings and the technical training track, as well as 
additional responsibilities to support partner agencies in the 
implementation of the education track, the entrepreneurship track, and 
the Capstone event. The Capstone event is intended to serve as a end-
of-career experience to verify, and bolster transition training and 
services.
    It is important to note that a key VEI recommendation is the 
institution of a long-term military lifecycle transition model, which 
would incorporate career readiness and transition preparation into the 
entire span of a Servicemember's career, from accession to post-
military civilian life. If the military lifecycle model were to be 
implemented, as is currently intended, the transition training 
activities would not be limited to the end of a Servicemember's career. 
Instead, preparation for transition would be a military career-long 
focus.
    The current VA TAP briefings take six hours, and the bill's mandate 
for a full day of briefings, currently interpreted as eight hours, 
would require VA to develop additional curriculum, train briefers on 
this curriculum, and potentially hire additional briefers. VA does not 
believe this mandate would represent the best use of its transition 
resources.
    The bill provides that the TAP program would include at least five 
days of instruction. The current Transition GPS curriculum is 
envisioned to take up to seven days (five days of mandatory and 
Department of Defense modules, plus two days of optional tracks 
delivered by the Services and partner agencies), with the potential for 
additional hours required for pre-separation counseling and the 
Capstone event. Moreover, the eventual move to a military lifecycle 
model would involve supplementary instruction during Servicemembers' 
careers.
    As Servicemembers progress through the current Transition GPS 
program, they focus part of their efforts on beginning to identify 
their next steps for transition (e.g., pursue employment, higher 
education, technical training, or self-employment). This is 
accomplished through both the Military Occupational Classification 
Crosswalk module and the DOL Employment Workshop. Additionally, 
existing VA programs, such as the Educational and Vocational Counseling 
program (Chapter 36), already provide such supplemental assistance for 
eligible transitioning Servicemembers. While additional time may be 
dedicated to assist Servicemembers in making an informed decision on 
which path to choose, dedicating a whole day to this topic may be 
excessive and duplicative given the recommendation for a long-term 
military lifecycle transition model, which would incorporate career 
readiness and transition preparation throughout a Servicemember's term 
of enlistment or career.
    Furthermore, the Transition GPS curriculum makes a distinction 
between education and technical training tracks. VA has responsibility 
for the technical training track of Transition GPS and has devoted 
resources to curriculum development and piloting of this module. It is 
not clear how this module would fit into the curriculum as mandated by 
H.R. 631. There is anecdotal evidence to suggest that Servicemembers 
would benefit from the option of choosing either the education or 
technical training tracks, as planning for these career choices 
somewhat differs. The current curriculum model enables such 
specialization and differentiation in the curriculum, thus improving 
the quality of the Servicemember's experience.
    As noted, VA is in the process of fine-tuning delivery and content 
to best meet Servicemembers' needs, and additional legislation at this 
stage may hinder those efforts.
    VA estimates that enactment of H.R. 631 would result in 
administrative costs to VA of $8 million for the first year (including 
salary, benefits, travel, rent, supplies, training, equipment, and 
other services, to include curriculum development), $39.3 million for 
five years, and $83.8 million over ten years. VA estimated IT costs for 
the first year are $300,000 (including the IT equipment for FTE, 
installation, maintenance, and IT support), $800,000 for five years, 
and $1.9 million over ten years.
                                H.R. 844
    H.R. 844, the ``VetSuccess Enhancement Act,'' would amend section 
3103 of chapter 31, title 38, United States Code, pertaining to 
training and rehabilitation for Veterans with service-connected 
disabilities, to extend, from 12 to 17 years after discharge or release 
from active-duty service, the authorized period for such Veterans to 
enroll in certain VA vocational training and rehabilitation programs. 
This amendment would be effective with respect to Veterans applying for 
assistance under chapter 31 on or after the date of enactment of the 
Act.
    Provided that Congress finds funding offsets, VA supports extending 
the basic period of eligibility for vocational rehabilitation and 
employment (VR&E) services. Individuals may need vocational 
rehabilitation services during the transition from military to civilian 
life, during mid-life when disabilities worsen or a career change is 
needed, or later in life when independent-living concerns may appear. 
By extending the period of eligibility, VR&E staff would be able to 
provide individuals who meet the eligibility and entitlement criteria 
for services under Chapter 31 with the services and assistance they 
need within a wider window of time.
    VA estimates that enactment of H.R. 844 would result in benefit 
costs to VA of $2.7 million for the first year, $15.3 million over five 
years, and $35.3 million over ten years. There are no administrative 
costs associated with this bill because the caseload increase would be 
minimal.
                               H.R. 1402
    H.R.1402 would amend section 322 of title 38, United States Code, 
to extend for 5 years (through FY 2018) the yearly $2 million 
appropriations authorization for VA to pay a monthly assistance 
allowance to disabled Veterans who are invited to compete for a slot 
on, or have been selected for, the U.S. Paralympic Team in an amount 
equal to the monthly amount of subsistence allowance that would be 
payable to the Veteran under chapter 31, title 38, United States Code, 
if the Veteran were eligible for and entitled to rehabilitation under 
such chapter. H.R.1402 also would amend section 521A of title 38 to 
extend for 5 years (through FY 2018) VA's appropriations authorization, 
with amounts appropriated remaining available without fiscal year 
limitation, for grants to United States Paralympics, Inc. (now the 
United States Olympic Committee) to plan, develop, manage, and 
implement an integrated adaptive sport program for disabled Veterans 
and disabled members of the Armed Forces. These Paralympic programs 
have experienced ongoing improvement and expansion of benefits to 
disabled Veterans and disabled Servicemembers, to include 115 Veterans 
qualifying for the monthly assistance allowance, and over 1,900 
Paralympic grant events with over 16,000 Veteran participants during 
FY2012. Under current law, both authorities will expire at the end of 
FY2013.
    VA supports extension of these authorities, but recommends further 
revisions, to improve the accessibility and equity of these programs, 
by extending monthly assistance allowances to disabled Veterans who are 
invited to compete for a slot on, or have been selected for, the United 
States Olympic Team (not just the Paralympic Team) or Olympic and 
Paralympic teams representing the American Samoa, Guam, Puerto Rico, 
the Northern Mariana Islands, and the U.S. Virgin Islands, by 
authorizing grants to those Olympic and Paralympic sports entities, and 
by clarifying that the current authority to award grants is to promote 
programs for all adaptive sports and not just Paralympic sports.
    VA estimates there would be no costs associated with implementing 
this bill.
                 Draft Legislation Affecting Work Study
    This draft bill would amend section 3485(a)(4) of title 38, United 
States Code, extending for five years(through June 30, 2018) VA's 
authority to provide work-study allowances for certain already-
specified activities. Under current law, the authority is set to expire 
on June 30, 2013.
    Public Law 107-103, the ``Veterans Education and Benefits Expansion 
Act of 2001,'' established a five-year pilot program under section 
3485(a)(4) that expanded qualifying work-study activities to include 
outreach programs with State Approving Agencies, an activity relating 
to the administration of a National Cemetery or a State Veterans' 
Cemetery, and assisting with the provision of care to Veterans in State 
Homes. Subsequent public laws extended the period of the pilot program 
and, most recently, section 101 of Public Law 111-275, the ``Veterans' 
Benefits Act of 2010,'' extended the sunset date from June 30, 2010 to 
June 30, 2013.
    VA does not oppose legislation that would extend the current 
expiration date of the work-study provisions to June 30, 2018. We would 
prefer that the legislation provide a permanent authorization of the 
work-study activities, rather than extending repeatedly for short time-
periods.
    Benefit costs are estimated to be $178,000 during FY 2013 and $5.14 
million for the five-year period beginning on June 30, 2013 through 
June 30, 2018.
             Draft Legislation Affecting OJT/Apprenticeship
    Section 2 of this draft bill, the ``Improving Job Opportunities for 
Veterans Act of 2013,'' would require VA to carry out a public 
relations campaign to promote VA on-job training (OJT) and 
apprenticeship programs available to Veterans as highly efficient and 
cost-effective ways of obtaining jobs. Section 3 of the draft bill also 
would reduce, during the 3-year period beginning on the date that is 
one year after the date of enactment, the amount of wages paid the 
eligible veteran or person in an OJT program not later than the last 
full month of that training period from 85 percent to 75 percent of the 
wages paid for the job for which such individual is being trained. 
Section 4 of the draft bill would require VA, not later than one year 
after the date of enactment, to enter into agreements with other 
Federal departments and agencies to operate their own OJT programs 
under section 3677 of title 38, United States Code, to train eligible 
Veterans or persons in skills necessary to obtain employment by those 
entities. Finally, section 5 of the draft bill would extend until 
January 31, 2017, the reduced pension for certain Veterans covered by 
Medicaid plans for services furnished by nursing facilities.
    VA does not object to the provision in section 3 that would 
temporarily reduce the requirement under section 3677 that wages paid 
the eligible Veteran or person must be 85 percent of the full wages 
paid for the job near the end of the training program. This amendment 
may increase the number of job-training programs for Veterans in the 
future.
    VA supports the intent underlying section 4; however, we do not 
believe legislation is necessary since VA currently has authority to 
approve federal OJT and apprenticeship programs under section 3672(b) 
of title 38, United States Code.
    We will provide views on sections 2 and 5, and cost estimates for 
all sections of this draft bill at a later date.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to appear before you today. I would be pleased to respond 
to questions you or the other Members of the Subcommittee may have 
regarding our views as presented.

                                 <F-dash>
                 Prepared Statement of Dr. Susan Kelly
    Chairman Flores, Ranking Member Takano, and other Members of the 
Subcommittee, thank you for this opportunity to provide testimony on 
the Department of Defense views (DoD) on legislation currently being 
considered by the subcommittee. My testimony this morning will be 
limited to H.R. 631, ``Servicemembers' Choice in Transition Act of 
2013'', which would amend section 1144 of title 10, United States Code, 
pertaining to the Transition Assistance Program (TAP). I defer to the 
views of the Department of Veterans Affairs, and the Department of 
Labor as appropriate, on the remaining bills.
    The Department appreciates the continued interest and support of 
this subcommittee for all members of the armed services but in 
particular for those preparing for their transition from military 
service. While we believe the intent of this bill is to improve the 
transition process for separating Service members, we have concerns 
over how it would, if enacted, contradict the requirements of the VOW 
to Hire Heroes Act of 2011 (Public Law 112-526), codified in Chapter 
58, title 10, United States Code. The VOW Act was intended to prepare 
transitioning Service members to join, and be competitive, in the labor 
market by using the skills, knowledge, experience and benefits they 
have earned. After a thorough review of this legislation, the 
Department is unable to support this bill as we believe it would not 
only undermine the progress already made in the redesign of the 
Transition Assistance Program, but would also potentially disadvantage 
our Service members and our ability to ensure they are ``career 
ready''.
    In compliance with the VOW Act and in accordance with the 
recommendations of the Veterans Employment Initiative Task Force, the 
Department of Defense, Military Departments and our interagency 
partners are successfully implementing the redesigned TAP. The 
redesigned TAP, including the new curriculum called Transition GPS 
(Goals, Plans, Success) is aligned with the VOW Act, as codified in 
Chapter 58, title 10, United States Code, which requires all eligible 
Service members discharged or released from active duty after serving 
at least 180 continuous days or more (including National Guard and 
Reserves) participate in Pre-separation Counseling, Department of 
Veterans Affairs (VA) Benefits Briefings and the Department of Labor 
(DOL) Employment Workshop. Although some Service members may be 
exempted from attending the DOL Employment Workshop, every Service 
member is required to attend Pre-separation Counseling and the revised 
VA Benefits Briefings.
    Additional components of the redesigned TAP include specialized 
tracks developed for Service members to tailor their transition program 
to correspond with their expressed interest in achieving their future 
employment goals through Higher Education, Career Technical Training, 
or Entrepreneurship. These specialized tracks are being piloted now to 
collect critical feedback and Service member assessment in order to 
develop the curriculums that will be phased in by fiscal year 2014. The 
cornerstone of the redesigned TAP is the concept of Career Readiness 
Standards. These defined standards correspond to deliverables that all 
Service members meet prior to separation, like a 12 month post 
separation budget. The value of the Career Readiness Standards in 
ensuring the Department equips our Service members with the tools they 
need to become valued, productive and employed members of our labor 
workforce cannot be overstated. The Department and our partners have 
been fully engaged in implementing the redesigned program.
    The VOW Act requires the DOL Employment Workshop to be a mandatory 
portion of TAP. H.R. 631 conflicts with the VOW Act by making the full 
employment workshop one of a number of optional choices for 
transitioning Service members. As the VOW Act intended, Service members 
benefit from the employment workshop regardless of their immediate 
plans upon leaving military service because all separating Service 
members will need these critical employment, resume, and interview 
skills at some point in their future.
    Additionally, under H.R. 631, the DOL employment workshop 
curriculum would need to be significantly redesigned to fit into the 
bill's mandated structure, curriculum, and delivery schedule. By giving 
the Department a defined time to educate these Service members, the 
proposed legislation undermines the adult learning principles, intended 
learning objectives, and curriculum design that forms the underpinning 
of the Transition GPS curriculum. For example, the Department of Labor 
currently requires three full days of adult learning instruction, which 
would be limited to two days under the optional election prescription 
of H.R. 631. The prescriptive timeframe reduces the ability of the 
entire redesigned TAP to evolve into the Military Life Cycle (MLC) TAP 
and mature to keep pace with changes in adult learning, adjust to 
include skills-building that our Service members tell us they need, and 
respond to developments in the job search arena.
    As previously mentioned, at the heart of the redesigned TAP are the 
Career Readiness Standards. The learning objectives for the Transition 
GPS curriculum component, as well as a robust, portable, virtual 
curriculum, build the skills needed to develop the concrete 
deliverables required to meet the new Career Readiness Standards. The 
Department believes that the best course of action at this time is to 
continue the implementation of the new redesigned TAP in accordance 
with the VOW Act and the recommendations of the Veterans Employment 
Initiative Task Force. We will continue to work with your staff to keep 
this subcommittee updated on our progress.
    In summary, the changes to the redesigned TAP as proposed by H.R. 
631 would be a setback to the current program implementation and would 
undo months of collaborative, interagency progress. It would impose an 
additional fiscal burden in redesign, piloting, potential classroom 
space and would generate implementation challenges for the Military 
Services. Finally, we feel this legislation would decrease the quality 
of the overall curriculum and reduce the effectiveness of the 
redesigned TAP. Ultimately this legislation would stymie the current 
progress and prevent our program from meeting the intended outcome, 
which is to prepare Service members to effectively transition to valued 
employment in communities across our country.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the Armed Forces and their families, I thank you and the 
members of this subcommittee for your continued steadfast support.
Executive Summary
    While the Department believes the intent H.R. 631 is to improve the 
transition process for separating Service members, we have concerns 
over how it would, if enacted, contradict the requirements of the VOW 
to Hire Heroes Act of 2011 (Public Law 112-526), codified in Chapter 
58, title 10, United States Code. The VOW Act was intended to prepare 
transitioning Service members to join, and be competitive, in the labor 
market by using the skills, knowledge, experience and benefits they 
have earned. After a thorough review of this legislation, the 
Department is unable to support this bill as we believe it would not 
only undermine the progress already made in the redesign of the 
Transition Assistance Program (TAP), but would also potentially 
disadvantage our Service members and our ability to ensure they are 
``career ready''.
    In compliance with the VOW Act and in accordance with the 
recommendations of the Veterans Employment Initiative Task Force, the 
Department of Defense, Military Departments and our interagency 
partners are successfully implementing the redesigned TAP. The 
redesigned TAP curriculum, including the new curriculum called 
Transition GPS (Goals, Plans, Success), is aligned with the with the 
VOW Act, as codified in Chapter 58, title 10, United States Code, which 
requires all eligible Service members discharged or released from 
active duty after serving at least 180 continuous days or more 
(including National Guard and Reserves) participate in Pre-separation 
Counseling, Department of Veterans Affairs (VA) Benefits Briefings and 
the Department of Labor (DOL) Employment Workshop. Although some 
Service members may be exempted from attending the DOL Employment 
Workshop, every Service member is required to attend Pre-separation 
Counseling and the revised VA Benefits Briefings.
    The cornerstone of the redesigned TAP is the Career Readiness 
Standards. These defined standards correspond to deliverables that all 
Service members meet prior to separation, like a 12 month post 
separation budget. The value of the Career Readiness Standards in 
ensuring the Department equips our Service members with the tools they 
need to become valued, productive and employed members of our labor 
workforce cannot be overstated. The VOW Act requires the DOL Employment 
Workshop to be a mandatory portion of TAP. H.R. 631 conflicts with the 
VOW Act by making the full employment workshop one of a number of 
optional choices for transitioning Service members. As the VOW Act 
intended, Service members benefit from the employment workshop 
regardless of their immediate plans upon leaving military service 
because all separating Service members will need these critical 
employment, resume, and interview skills at some point in their future.
    Additionally, under H.R. 631, the DOL employment workshop 
curriculum would need to be significantly redesigned to fit into the 
bill's mandated structure, curriculum, and delivery schedule. By giving 
the Department a defined time to educate these Service members, the 
proposed legislation undermines the adult learning principles, intended 
learning objectives, and curriculum design that forms the underpinning 
of the Transition GPS curriculum. For example, the Department of Labor 
currently requires three full days of adult learning instruction, which 
would be limited to two days under the optional election prescription 
of H.R. 631.
    The Department believes that the best course of action at this time 
is to continue the implementation of the new redesigned TAP in 
accordance with the VOW Act and the recommendations of the Veterans 
Employment Initiative Task Force.

                                 <F-dash>
                   Prepared Statement of Keith Kelly
                              Introduction
    Good Morning Chairman Flores, Ranking Member Takano, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to testify before you today to discuss the Department of 
Labor's (DOL or Department) views on pending legislation. I commend you 
all for your tireless efforts to ensure that America fulfills its 
obligations to our returning servicemembers, veterans, and their 
families.
    President Obama, Acting Secretary of Labor Seth Harris and I are 
committed to serving these brave men and women as well as they have 
served us by ensuring they have the opportunities, training and support 
they deserve to succeed in the civilian workforce. The Department will 
continue to work with the Members of the Subcommittee to provide our 
returning servicemembers, veterans, and their families with the 
critical resources and expertise needed to assist and prepare them to 
obtain meaningful careers, maximize their employment opportunities, and 
protect their employment rights.
    While this hearing is focused on numerous bills before the 
Subcommittee, I will limit my remarks to those pieces of legislation 
that have a direct impact on DOL, including the following: H.R. 562, 
the ``VRAP Extension Act of 2013,'' H.R. 631, the ``Servicemembers 
Choice in Transition Act of 2013,'' H.R. 1305, a bill to provide 
clarification regarding eligibility for services under the Homeless 
Veterans Reintegration Program (HVRP), and H.R. 1316, the ``Directors 
of Veterans' Employment and Training Accountability Act.'' DOL 
respectfully defers to the Departments of Defense (DOD) and Veterans' 
Affairs (VA) on the remaining pieces of legislation.
                 H.R. 562 - VRAP Extension Act of 2013
    The first piece of legislation that I will address is H.R. 562, the 
VRAP Extension Act of 2013. H.R. 562 would amend Section 211 of the VOW 
to Hire Heroes Act of 2011 (VOW Act) to extend the Veterans Retraining 
Assistance Program (VRAP) for an additional three months from March 31, 
2014 to June 30, 2014. In addition, the bill would require the VA, in 
collaboration with DOL, to submit an interim report on the program, 
including the employment status of program participants, within 30 days 
of the bill's enactment. The Department supports the three month 
extension of VRAP, but we have concerns about the new requirement for 
an interim report, which I will discuss in more detail.
    The Department is committed to the success of VRAP, an important 
program that provides retraining assistance to unemployed veterans aged 
35 to 60 to pursue an associate degree or certificate in a high-demand 
occupation. The Department fully supports the intent of Section 211 and 
has been working diligently with the VA to carry out the VRAP 
provisions since the VOW Act was enacted in November of 2011.
    DOL has assisted in the administration of VRAP, by, among other 
things, conducting outreach to veterans, developing guidance for the 
workforce system, identifying high-demand occupations, and verifying 
applicants' initial eligibility based on age, employment status, and 
previous participation in other job training programs. In addition, the 
Department works to support veterans before, during, and following 
their participation in VRAP with employment services, such as resume 
development, job referrals, and case management through the national 
network of approximately 2,700 American Job Centers, and a suite of 
online tools.
    DOL's responsibilities under VRAP have required, among other 
things, modifications to current reporting systems, approval of new 
data collections, and development of processes and data management 
tools to ensure states and local areas can contact VRAP participants as 
they exit the program, offer employment services, and track their 
employment outcomes. Since the public workforce system is designed to 
be decentralized and locally-driven, these ongoing responsibilities 
present unique administrative challenges for the Department and the 
workforce system as a whole.
    Initial implementation costs during the first year of VRAP were met 
by redirecting Departmental funds that had been appropriated for 
research and demonstration projects. These implementation costs 
included providing modest grants to states to help with VOW Act costs, 
including VRAP reporting, and contractor support to assist with ongoing 
technical assistance to states' outreach to VRAP participants, IT 
needs, and performance reporting requirements. While DOL will continue 
to fulfill the requirement under the VOW Act to contact veterans 
following their participation in VRAP to offer them employment 
services, and veterans will continue to receive priority of service in 
the public workforce system, the level for employment services 
available for VRAP participants may be affected by the availability of 
Workforce Investment Act and Wagner-Peyser Act funds to provide such 
services through American Job Centers.
    In addition, the Department has serious concerns with the 
requirement that the VA submit an interim report within 30 days after 
enactment that will include program outcomes. Employment outcomes will 
not be available 30 days after enactment because of the 11-month lag 
time between when a veteran receives employment services and when data 
on their employment outcomes can be sufficiently tracked. Therefore, 
the Department supports the three month extension of VRAP, but 
recommends limiting any interim report to administrative data and 
defers to VA on the best data elements and timeframe for submission of 
the interim report.
      H.R. 631 - Servicemembers' Choice in Transition Act of 2013
    The Transition Assistance Program (TAP) under Section 1144 of Title 
10 (10 U.S.C. 1144) is an interagency effort between DOL, DOD, VA, 
Department of Homeland Security, and other Federal agencies aimed at 
providing separating servicemembers and their spouses with the training 
and support they need to successfully transition to the civilian 
workforce. As part of TAP, DOL utilizes its extensive expertise in 
employment services to provide a comprehensive three-day employment 
workshop at U.S. military installations around the world.
    H.R. 631, the ``Servicemembers' Choice in Transition Act of 2013,'' 
would amend TAP to require it to consist of at least five days of 
instruction as follows: (1) at least one day of service-specific pre-
separation training; (2) up to one day for instruction in preparation 
for employment, preparation for education or career or technical 
training, preparation for entrepreneurship, or other options determined 
by the Secretary of the military department concerned; (3) at least two 
days of in-depth instruction of the participant's choice in any of the 
aforementioned subjects; and (4) up to one day of training in VA 
benefits provided and in other subjects determined by the Secretary of 
the military department concerned.
    The Department has serious concerns about H.R. 631 because we 
believe it would seriously impede DOL's efforts to fulfill our 
statutory obligations under the VOW Act and provide separating 
servicemembers with the training and support they need to successfully 
transition to the civilian workforce. H.R. 631 would undermine the 
implementation currently underway of the redesigned DOL employment 
workshop and the new Transition GPS (Goals, Plans, Success) training 
and delivery model that DOD, VA, DOL and other agencies have been 
working together to execute.
    Section 1144 of Title 10 requires the Secretary of Labor to 
``establish and maintain a program to furnish counseling, assistance in 
identifying employment and training opportunities, help in obtaining 
employment and training and other related information and services to 
members of the armed forces . . . .'' Congress, through the VOW Act and 
other legislation, also mandated that DOL include certain elements in 
the TAP employment workshop. The VOW Act further enhanced TAP by 
requiring mandatory participation for all transitioning servicemembers 
and requiring contractor facilitation of the employment workshop to 
ensure a standardized curriculum. As the VOW Act intended, 
servicemembers benefit from taking the DOL employment workshop 
regardless of their immediate plans upon leaving military service. Even 
servicemembers who intend to enroll in school or start a business will 
need the skills that are provided during the DOL employment workshop, 
such as translating their military skills and building a resume of 
their accomplishments.
    Moreover, as the Members of the Subcommittee know, the Department 
just completed a major effort aimed at redesigning the employment 
workshop curriculum to align it with emerging best practices in career 
development and to make it more engaging and relevant in light of the 
unique challenges facing transitioning servicemembers. The redesign of 
the employment workshop was an extensive process that evolved over 
several years involving many federal agencies, pilot programs and 
curriculum reviews. DOL wanted to ensure it was providing the best 
possible product.
    After extensive review and consultation with experts on training, 
education and the military services, DOL determined that the optimal 
delivery was a three-day format. This decision was based on the amount 
of time it would take to properly deliver all the material required 
under Section 1144 of Title 10 and to meet the learning objectives and 
ensure an effective and efficient program to prepare our 
servicemembers. Over the past few months, the Department completed the 
transfer to contract facilitation and full implementation of the new 
employment workshop curriculum at all military installations worldwide. 
I am happy to report that the new curriculum has been well received as 
demonstrated by preliminary feedback from over 2,000 attendees during 
January and February of this year, who gave the employment workshop an 
overall rating of 4.4 on a scale of 1-5, with 5 being the highest 
rating. While the data strongly suggests that the Department's revised 
employment workshop is headed in the right direction, H.R. 631 would 
significantly undermine these efforts.
    Under H.R. 631, the Department would have to completely redesign 
the new curriculum in structure, content, and delivery and in 
consultation with numerous other agencies. Further, the legislation 
would be very difficult to administer and would significantly increase 
program costs. Moreover, the Department would likely have to re-compete 
and renegotiate the facilitation contract. The Department also has 
serious concerns about the feasibility of implementing all of these 
proposed changes in only six months.
    Most importantly, however, the overall impact of this legislation 
would negatively affect transitioning servicemembers. These men and 
women deserve the best possible services we can provide, and this bill 
would undermine such efforts. The Department looks forward to working 
with the Subcommittee to ensure that our transitioning servicemembers 
have the resources and training they need to successfully transition to 
the civilian workforce.
H.R. 1305 - To Provide Clarification Regarding Eligibility for Services 
        under the Homeless Veterans Reintegration Program (HVRP)
    DOL fully supports this legislation, which would expand eligibility 
for the Homeless Veterans' Reintegration Program (HVRP) to include 
veterans participating in the Department of Housing and Urban 
Development/Department of Veterans Affairs Supportive Housing (HUD-
VASH) program, while continuing our commitment to the Administration's 
goal of ending veteran homelessness by 2015.
    H.R.1305 also expands HVRP eligibility to include incarcerated 
veterans. As this subcommittee is aware, the HVRP currently serves 
incarcerated veterans through Incarcerated Veterans Transition Program 
(IVTP) demonstration project grants. The IVTP grants are designed to 
support incarcerated veterans ``at risk'' of homelessness by providing 
referral and career counseling services, job training, placement 
assistance and other benefits. Eligible IVTP participants include 
veterans who have been incarcerated for at least one (1) day and are 
within eighteen (18) months prior to release, or within six (6) months 
after release from a correctional institution or facility.
    Data from the IVTP demonstration program in Program Years 2010 and 
2011 shows that grantees have made a remarkable performance improvement 
in placement rates (up 9.5%) and employment retention rates (up 17%), 
while decreasing their cost per participant (down 20%) and cost per 
placement (down 32%). DOL supports this bill as currently drafted. Both 
changes to the HVRP--the inclusion of incarcerated veterans beyond the 
current demonstration projects and veterans participating in the HUD-
VASH program--will allow the Department to be responsive to the service 
needs of these populations.
      H.R. 1316 - Directors of Veterans' Employment and Training 
                           Accountability Act
    H.R. 1316 would amend Section 4103 of Title 38 and legislatively 
prescribe the duties of our state Directors for Veterans' Employment 
and Training, commonly known as ``DVETs.'' The Department appreciates 
the intent of this legislation; however, DOL has serious concerns with 
this bill, as it: (1) unduly prescribes the duties of our DVETs and 
removes much of the managerial flexibility possessed by the Assistant 
Secretary of Labor for Veterans' Employment and Training; and (2) would 
be administratively difficult to implement.
    Many parts of the bill are duties that DVETs already perform, which 
are assessed as part of their annual performance appraisal and are 
subject to other managerial oversight by the Assistant Secretary of 
Labor for Veterans' Employment and Training. For example, our DVETs 
have performance standards that include the responsibilities noted in 
Sections 1(b)(3) - (5), and (8) - (14) of this bill. In addition, 
Section 1(b)(9) is essentially repeated in Section 1(b)(14).
    As for the performance monitoring portions of the bill in Sections 
1(b)(1) and (2), I would note that, per Section 4107 of Title 38, DOL 
already has a statutory mandate to monitor the performance of state 
employment and training programs and to report on such performance to 
the Congressional Committees on Veterans Affairs.
    Other parts of H.R. 1316 would be problematic to implement. For 
example, Sections 1(b)(6)-(7) of the bill would require our DVETs to 
perform duties that are already being performed by DOL's Office of 
Federal Contract Compliance Programs (OFCCP). Section 1(b)(7) is 
especially troubling because it would require our DVETs to investigate 
alleged violations of state veterans' preference laws, but even if a 
DVET investigation found a substantiated case, DOL would lack the legal 
authority to take any remedial actions.
                               Conclusion
    Americans know of the tremendous sacrifices made by our 
servicemembers and their families. We at the Department of Labor know 
this too, and that is why we are working diligently to provide them 
with the best possible services, protections and programs our Nation 
has to offer.
    Mr. Chairman, Ranking Member Takano, and Members of the 
Subcommittee - this concludes my statement. Thank you again for the 
opportunity to testify today on these bills. I would be pleased to 
answer any questions you may have.

                                 <F-dash>
                 Prepared Statement of Charlie Huebner
    Chairman Flores, Ranking Member Takano, and members of the 
committee, my name is Charlie Huebner and I am the Chief of 
Paralympics, for the United States Olympic Committee (``USOC''). Thank 
you for the opportunity to submit a statement and testify before this 
Subcommittee in support of H.R. 1402, which extends the authorization 
for the highly successful, innovative and cost effective partnership 
between the USOC and the Department of Veteran Affairs to provide 
Paralympic sports and sustainable physical activity opportunities for 
disabled veterans at the community level
    Paralympic programs are sports for physically disabled athletes. It 
was founded and exists because of Veterans from World War II. Research 
has proven that Paralympic sport and physical activity is an impactful 
aspect of successful rehabilitation for disabled Veterans.
    Research-based outcomes from consistent physical activity for 
disabled Veterans include higher self-esteem, lower stress levels and 
secondary medical conditions and higher achievement levels in education 
and employment.
    At the beginning of combat operations the USOC expanded its service 
to injured members of our Armed Forces and Veterans by providing 
training, technical assistance and Paralympic ambassadors to 
installations and military medical centers. As combat escalated, 
Congress reached out to the USOC asking for us to do more!
    I applaud the leadership in Congress, which realized that 
collaboration between the public and private sector, between Government 
agencies, non-profit organizations, and the private business sector 
could expand expertise and capabilities, and program awareness in a 
cost effective manner.
    The legislation you created in Fiscal Year 2010, allowed the USOC 
and VA to significantly grow the capabilities and reach of physical 
activity programming to more than 16,000 disabled Veterans today in 
communities throughout America.
    The authorization for this program expires at the end of Fiscal 
Year 2013. It is imperative that Congress act to extend the 
authorization for this program to ensure there is no interruption in 
the services being provided to our disabled veterans, and just as 
importantly, develop enhanced programming in collaboration with the 
private sector where there are significant needs.
    The USOC, which itself was created by Congress, is one of only four 
National Olympic Committees that manage both Olympic and Paralympic 
sport. We are one of only a handful of National Olympic Committees that 
are 100% privately funded, with our major competitors outspending us 
often as much as 5-to-1. Innovation, collaboration and cost 
efficiencies are core to our organizational success and critical to 
this continued USOC and VA partnership.
    Injured military personnel and Veterans are the soul of the 
Paralympic movement. When discussing the Paralympic Movement, we have 
two primary objectives. One: pursue excellence at the Paralympic Games. 
As a result of Paralympic Veteran role models and ambassadors such as 
Navy Lt. Brad Snyder, Army Veteran Melissa Stockwell, and Marine 
Veteran Oz Sanchez, the USOC and VA have been able to reach millions of 
Americans with stories of Veteran achievements and excellence. Second, 
and more importantly, the VA and USOC collectively have reached 
thousands of disabled Veterans and their families with stories of hope, 
and a roadmap to being healthy, productive and contributing members of 
society.
    With partners such as PVA, IAVA, Disabled Sports USA and USA Hockey 
to name a few, the VA and USOC have created significant, sustainable 
and cost effective regional and local physical activity opportunities 
for disabled Veterans to pursue competitive excellence, but most 
importantly, for a majority of the thousands of physically disabled 
Veterans in the US to simply re-engage into society by being physically 
active with their sons, daughters, families, and friends.
    It is as simple as skiing with your buddies again, or as one double 
amputee Army Ranger stated ``I want to be able to run with my son.''
    This Committee, Congressional leaders, and Veteran and Military 
organizations asked the USOC to lead this effort due to our powerful, 
iconic, and inspiring brand; our expertise in physical activity and 
sport for persons with physical disabilities; and our significant 
infrastructure of member organizations. We have accepted the 
responsibility and opportunity to serve those who have served us. And 
because of your leadership in developing and providing funding for this 
USOC and VA partnership, we are able today to report the first phase of 
significant program success and expansion in less than three years of 
this legislation. Since June 2010, the VA and USOC have:

    <bullet>  Distributed more than 350 grants to community sport 
organizations to develop sustainable physical activity programs for 
disabled Veterans returning to their hometowns.
    <bullet>  These community programs are investing millions of 
dollars in private resources, combined with grants from the VA - USOC 
grant pool, to reach thousands of Veterans with a focus on sustainable 
and consistent physically activity at the local level.
    <bullet>  The VA and USOC have emphasized and led an effort to 
promote collaboration between the DOD, VA and community sport 
organizations to recognize and enhance programmatic and financial 
efficiencies. To date, grant recipients have collaborated and partnered 
with 85 VA Medical Centers in 39 states and military treatment 
facilities across the country.
    <bullet>  Created the Paralympic Resource Network, an online 
database of Paralympic programs nationally which is designed to link 
individuals with physical and visual disabilities to sports programs in 
their communities. There are now 340 organizations listed. This is over 
35% more than the targeted goal of 250 organizations.
    <bullet>  Created consistent national and regional training, 
technical assistance and sharing of best practices to expand 
availability of sustainable programming at the community level
    <bullet>  Distributed training stipends to over 115 Veteran 
athletes; 43 of these athletes have met the national team standard in 
their respective sports.
    <bullet>  Implemented regional and national public relations and 
communications strategies resulting in major national media campaigns 
and news stories that have reached millions of Americans with stories 
of Paralympic Veterans as national ambassadors
    <bullet>  Significantly expanded and implemented, accountability 
and oversight processes that include USOC-led internal audits of 
grantees, upgraded reporting and monitoring of sub-grantees, consistent 
USOC site visits and weekly USOC-VA grant monitoring calls
    <bullet>  Two staff members implementing this program are 
individuals with physical disabilities, one being a Veteran

    Humbly, we work for an organization that has one of the most 
inspiring brands in the world. A brand that motivates people and 
organizations to get involved and to collaborate. I can't emphasize the 
collaboration point enough, because collaboration also leads to 
significant cost efficiencies and impact!
    Today, more than 350 USOC partner organizations in 46 states and 
the District of Columbia are investing millions in private resources, 
staff and facilities to cost effectively implement these programs.
    One specific new example of USOC - VA innovation, impact, cost-
efficiency, collaboration and enhanced awareness was the development of 
the regional and local Valor Games series in Chicago. Through 
partnership with a USOC leadership organization - World Sport Chicago - 
the USOC and VA identified a partner that could plan, implement, 
provide a majority of the funding and promote the importance and impact 
at a regional event for physically disabled Veterans with the primary 
objective and outcome being the connecting of these Veterans to 
everyday physical activity programs in the region. This was done with 
limited VA- USOC financial investment and only one USOC, and one VA 
staff member involved.
    In closing, the need in this Country is great. More physically 
disabled members of our Armed Forces are returning to America's 
communities, urban and rural, as heroic Veterans. Many of them are 
simply trying to reintegrate with their friends and families. Some want 
to compete.
    The power of sport is one tool in the rehabilitative process that 
allows for our Nation's heroes to take a small step to normalcy. 
Research has proven that!
    I would like to thank the Committee, the VA leadership, 
particularly Secretary Eric Shinseki; Assistant Secretary Tommy Sowers, 
Mike Galloucis, Executive Director of the Department of Veterans 
Affairs Office of Public and Intergovernmental Affairs; I would like to 
especially commend Marine Veteran and VA leader Chris Nowak, a 
physically disabled Veteran who is driving change in collaboration with 
the VA and USOC with a primary focus on impacting Veterans in a cost 
effective manner. Mr. Nowak is a Marine Veteran making a difference!
    Congressman Coffman, a Marine from Colorado, and Ranking Member 
Takano, thank you and other members of the Committee for introducing 
H.R. 1402.
    I can simply say, you have led a collaborative and cost effective 
effort. You too are making a difference! A difference in the lives of 
those that have given our Nation so much!
    I am available to take any of your questions.
Executive Summary
    The Paralympic Movement began shortly after World War II utilizing 
sports as a form of rehabilitation for injured military personnel 
returning from combat. The USOC, which itself was created by Congress, 
is one of only four National Olympic Committees that manage both 
Olympic and Paralympic sport. As one of only a handful of National 
Olympic Committees that are 100% privately funded, there is evidence 
that our major competitors outspending us often as much as 5-to-1. 
Because of the extraordinary need to provide Paralympic sports 
activities to our nation's disabled military service members and 
veterans, since 2008 the USOC has accepted federal funding for these 
programs, while continuing to expend considerable private resources in 
support of these efforts.
    In 2008 Congress passed the Veterans Benefits Improvement Act, 
which authorized the Department of Veterans Affairs to award grants to 
the United States Paralympics to ``plan, develop, manage, and implement 
an integrated adaptive sports program for disabled veterans and 
disabled members of the Armed Forces.'' The program did not commence 
until Fiscal Year 2010 and the authorization expires at the end of 
Fiscal Year 2013.
    H.R. 1402 will extend the authorization for the highly successful 
partnership between the USOC and the Department of Veteran Affairs to 
provide Paralympic sports activities for disabled veterans in their 
communities. Paralympic programs are sports for physically disabled 
athletes. These adaptive sport activities have become an integral part 
of their recovery to a full and healthy life after completing their 
service to our country. The U.S. Olympic Committee is supportive of 
H.R. 1402 and believes that it is imperative that Congress act to 
extend the authorization for this program to ensure there is no 
interruption in the services being provided to our disabled veterans.
    When discussing the Paralympic Movement, it is not just about a 
small number of elite athletes that will make future Paralympic teams. 
Rather, it is a reference to the thousands of disabled active duty 
military personnel and veterans that have participated in the growing 
number of physical activity programs created throughout the United 
States under the leadership of the VA, USOC and our innovative and 
tireless community partners that allow Veterans with physical 
disabilities an opportunity to re-engage in the daily activities of 
life.

                                 <F-dash>
                Prepared Statement of Dr. Susan Aldridge
    Chairman Flores, Ranking Member Takano, and distinguished members 
of the Subcommittee, my name is Susan Aldridge. I am currently a Senior 
Fellow at the American Association of State Colleges and Universities, 
commonly known as ``AASCU'', and on whose behalf I appear before you 
this morning. Prior to AASCU, I served as president at the University 
of Maryland University College and as Vice Chancellor at Troy 
University in Alabama. UMUC and Troy are two state universities each 
serving a large population of servicemembers and veterans.
    AASCU represents 420 institutions and university systems across 49 
states, the District of Columbia, Puerto Rico, Guam and the Virgin 
Islands. These institutions represent the diversity of higher education 
institutions from small liberal arts institutions to large research 
institutions and from open enrollment institutions to selective 
institutions. The common foundation of AASCU institutions is their 
focus on students. In addition, AASCU is the contracting agent for the 
Servicemembers Opportunity Colleges designed to expand and improve 
voluntary postsecondary education opportunities for servicemembers 
worldwide.
    Thank you for holding this hearing and providing me with the 
opportunity to present testimony regarding H.R. 357, The G.I. Bill 
Tuition Fairness Act, introduced by the Honorable Jeff Miller of 
Florida. I ask that my written testimony be entered into the record.
    H.R. 357 would require the Secretary of Veterans Affairs to deny GI 
Bill benefits to veterans who are not charged tuition rates equal to or 
less than the in-state tuition rate. Moreover, this bill would not 
allow any veteran or their dependent enrolled at a public institution 
to receive GI Bill benefits if that institution does not offer in-state 
tuition to all veterans, thus cutting benefits to our veterans. AASCU 
supports the underlying premise of treating veterans as in-state 
residents and strongly supports the educational endeavors of our 
veterans; however, passage of H.R. 357 will potentially result in 
unintended consequences that I will address in more detail.
    Most public colleges do not set their individual tuition or control 
the policies associated with tuition. Currently, ten states allow 
individual public institutions to set their own tuition policy. 
Postsecondary tuition policy in the remaining forty states are set by 
state legislatures, a statewide coordinating board or other state 
entities with authority to set tuition for institutions. In addition, 
many states establish clear criteria for who is eligible to receive in-
state tuition benefits. Currently, only nine states offer in-state 
tuition to qualified veterans immediately upon locating within the 
state. Thus, state legislatures will ultimately be required to change 
the residency treatment of veterans. This is a potentially difficult 
obstacle in many states.
    This is further highlighted by a State Higher Education Executive 
Officers February 2011 report entitled ``State Tuition, Fees, and 
Financial Assistance Policies for Public Colleges and Universities 
2010-2011.'' Page seven of this report cites that ``States were asked 
to describe the process through which tuition levels are set. The 
variety of answers given underscores that there are as many processes 
for setting tuition as there are states. In many states, the process is 
a multi-step process involving many entities.''
    Given the complexity of relying on forty state entities to change 
policies, it is quite likely that institutions will not have the 
ability to charge in-state rates even if they so desired. Veterans 
seeking to enroll in public institutions in those states would need to 
find other, more-than-likely, costlier programs in order to utilize 
their GI Bill benefit. Veterans would be forced to either move to a 
state that offered in-state tuition, go to a more expensive private 
institution, or attend a for-profit college.
    This creates a scenario of confusion since many veterans arrive on 
campus with the full expectation of receiving their GI Bill benefit. 
Institutions would be forced to inform veterans that they would not be 
eligible to bring their benefit to the public institutions in states 
where in-state tuition hasn't been approved. Further, no new additional 
veterans whether designated in-state or out-of-state could use their GI 
Bill benefits in the state without legislative change. Thus, AASCU 
envisions further confusion which could potentially discourage the 
veteran from pursuing post-secondary education altogether and creating 
a negative atmosphere toward a veteran-friendly institution.
    Non-residency occurs in many situations due to the conclusion of a 
servicemember's end of duty in a specific location. These veterans 
decide to remain in that local community due to a variety of reasons - 
children established in local schools, spousal employment, the 
individual or family members have integrated into the community, etc. 
If they are located in a state that is unable or has yet to alter 
residency treatment for veterans, significant disruption to the family 
unit could occur. A veteran would explore options at a campus, not be 
able to use their GI Bill benefits and be forced to move to a state 
that offers in-state tuition in order to receive their benefits. 
Passage of this measure would create a hodge-podge map of eligible and 
ineligible states.
    Further, has the Committee considered the treatment of a veteran 
who is forced to move to another state as a result of family 
obligations? If a veteran is attending classes at an institution within 
a state that has in-state treatment for veterans, but moves to one that 
does not, the veteran will no longer be eligible to use their GI Bill 
benefits in order to complete their coursework.
    It is also instructive for the Committee to understand the nature 
of in-state versus out-of-state rates. One way of looking at an 
established out-of-state rate is to consider it as the full cost to the 
institution of educating a student. Since public institutions receive 
support from the state in order to provide residents with an education, 
the in-state rate reflects the cost to the institution after factoring 
in the state subsidy. Thus, an in-state rate is supported by state 
taxpayers. Passage of this bill would shift paying for the promise 
established under the GI Bill of supporting the education of a veteran 
from the federal government to the states specifically and only for 
veterans attending public institutions.
    The following is a list of suggested improvements to the measure 
that preserve the bill's underlying goals while not adversely impacting 
our nation's veterans.

    1. Delay implementation of the bill beyond 2014. State entities 
will need time to alter policies. As noted tuition setting policy is 
complex and 2014 is too soon even for states that are ready and willing 
to do this today. This would also allow time to educate our current and 
future veterans on these changes.
    2. Treat out-of-state veterans in the same manner as veterans 
attending private institutions, rather than establishing a special 
class of citizens of veterans attending public institutions. This 
principle is in line with the tenants of the original Post 9/11 GI 
Bill.
    3. Require states to develop a clearly articulated, straightforward 
policy informing veterans on how to qualify for in-state tuition. This 
would preserve state rights and establish a transparent process for 
veterans.
    4. Develop an incentive-based system that would reward those states 
already providing in-state tuition to veterans. This would reward 
states that are doing what they should be doing and encourage other 
states to update their polices. Incentives could include additional 
funds for veterans' support services and benefits.

    Finally, this bill is government overreach. Various state entities 
have traditionally had the right to establish tuition policy. This 
authority is a clear state right. This bill opens the door for federal 
intervention and dictates tuition policies for public institutions 
around the country. While it is appropriate for the federal government 
to be a partner in higher education, it should not be an overreaching 
manager.
    In closing, AASCU institutions are serving our nation's veterans 
well. Institution after institution has established programs to provide 
quality service for our nation's military students from providing 
assistance and counseling for veterans transitioning from combat to 
college, separate orientation courses, and peer-to-peer support 
networks to name a few. In addition, some public colleges offer niche 
programs that build off of a veteran's military training. These 
programs are not offered by every institution or in every state, but 
are highly-selective and desirable programs. Passage of this bill would 
limit the exposure of quality support programs and the ability to 
pursue an education in a desirable field from an otherwise affordable 
public institution of higher education.
    As a grateful Nation, we are committed to providing our veterans 
with the maximum benefits they rightly deserve. Let's make sure we also 
are providing the flexibility our veterans need to use them. Thank you 
for the opportunity to speak today.

                                                                  AASCU Federal Grants
--------------------------------------------------------------------------------------------------------------------------------------------------------
                     Agreement #                       Department/Agency    Grant/Contract        Description     Performance period     Funded Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
10LHADC001                                            Corp Nat'l Service              Grant      Civic Minor in     9/2010 - 8/2013             433,874
                                                                                                       Urban Ed
--------------------------------------------------------------------------------------------------------------------------------------------------------
N00189-08-C-Z001 (Option Yr Exercise)                          DOD/Navy            Contract      Servicemembers   09/2010 - 10/2011           5,897,227
                                                                                                    Opportunity
                                                                                                       Colleges
--------------------------------------------------------------------------------------------------------------------------------------------------------
N00189-08-C-Z001 (Option Yr Exercise)                          DOD/Navy            Contract      Servicemembers   10/2011 - 10/2012           5,743,773
                                                                                                    Opportunity
                                                                                                       Colleges
--------------------------------------------------------------------------------------------------------------------------------------------------------
N00189-12-C-Z112                                               DOD/Navy            Contract      Servicemembers   10/2012 - 10/2013           4,899,982
                                                                                                    Opportunity
                                                                                                       Colleges
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                 <F-dash>
       Prepared Statement of Col. G. Michael Denning, (USMC) Ret.
    Chairman Flores, Ranking Member Takano, and distinguished members 
of the Subcommittee:
    Thank you for holding this hearing and for the opportunity to 
testify before you on H.R. 357, the ``GI Bill Tuition Fairness Act of 
2013.'' My name is Mike Denning, and I currently have the privilege to 
serve as Director of the Office of Graduate Military Programs at the 
University of Kansas (KU). Prior to joining KU, I spent 27 years in the 
Marine Corps, and retired as a Colonel. I am here today representing 
both KU and the Association of Public and Land-grant Universities 
(APLU).
    The University of Kansas is justifiably proud of our history in 
serving the U.S. Armed Forces and veterans. The population of students 
using veteran benefits at KU has increased nearly 40 percent since 
2010, and our admission statistics for students using veterans benefits 
for the Fall 2013 semester reflect a continued increase. We attract 
veterans and their families for several reasons, not the least of which 
is our academic reputation. Some look to KU because of programs like KU 
Veterans Upward Bound, an education and skills bridge program designed 
to help first-generation military veterans prepare to enroll in a 
postsecondary school. Some, like Anthony Schiedeler, come to KU through 
our Wounded Warrior Scholarships, which provide not only for those with 
physical injuries, but for those who suffer from the invisible wounds 
of war. These veterans come because of the great educational value of 
KU, and they stay and graduate because of the supportive atmosphere 
they experience on campus. We recognize that because of their Service 
commitments, most veterans are ``non-traditional'' students and most 
have been away from a formal academic setting for several years. We 
understand the complexities and challenges of transitioning and provide 
veterans with a host of programs, like the Veterans Learning Community, 
which is designed to facilitate the transition from military service to 
college. Veterans and their families at KU acquire a ``special trust 
and confidence'' in their university and they find additional support 
through student organizations, like the KU Collegiate Veterans 
Association (CVA), which is a non-partisan group of military veterans 
dedicated to supporting veteran/military students, current service 
members, and their families. And as these veteran students approach 
graduation, they find meaningful job contacts through University Career 
Center, which maintains a specific veterans outreach effort and the KU 
Veterans Alumni Chapter, which has 15 general officers on its advisory 
board. It is programs like these that resulted in KU being recognized 
nationally as the ninth overall ``Best for Vets'' university and 14th 
among the ``Best for Vets'' Business Schools by Military Times.
    APLU's membership includes 217 members, consisting of state 
universities, land-grant universities, state-university systems and 
related organizations. APLU institutions enroll more than 3.5 million 
undergraduate students and 1.1 million graduate students, employ more 
than 645,000 faculty members, and conduct nearly two-thirds of all 
academic research, totaling more than $34 billion annually. KU is a 
proud member of APLU.
    KU, and I personally as a veteran, deeply appreciate the interest 
in and support of student veterans that the Subcommittee has 
demonstrated. I assure you that this nation's public universities, 
including KU, want to ensure our veterans are treated fairly. Public 
universities around the country are redoubling their efforts to address 
the needs of veterans and service members. I can also say that public 
universities were one of the most engaged groups with respect to 
successfully restoring the Tuition Assistance (TA) program during the 
Senate floor debate on the FY2013 omnibus/continuing resolution. As you 
recall, the programs were slated for elimination by a number of the 
branches as a result of the sequester.
    While we are appreciative of the Subcommittee's support for student 
veterans, we are seriously concerned about H.R. 357 as drafted. As 
such, we cannot support it in its current form. We hope that there will 
be opportunities to further discuss the bill and make changes as the 
legislative process moves forward.
    I want to reiterate that our public universities, including KU, 
strive to ensure that our nation's veterans have access to quality 
education and that they are treated fairly. With that as the 
overarching framework for my comments, I would like to highlight some 
of our philosophical concerns as well as potential practical and 
operational pitfalls in the bill. Ultimately, if implemented in its 
current form, we are concerned that the legislation could 
unintentionally have negative consequences for veterans and their 
families and on their education experiences.
Philosophical Concerns
    An underlying concern with the legislation is that it costs more to 
educate a student, regardless of where the student is from, than the 
amount of in-state tuition. The gap between costs and in-state tuition 
is a critical reason that states for generations have provided 
substantial state taxpayer resources to their state institutions. State 
taxpayers generally subsidize students from their own state because 
families and students from that state pay taxes there, and often, those 
families have done so for decades. Note that the subsidy of in-state 
students is one of the most compelling arguments of universities when 
they ask for state support. The additional tuition charged for out-of-
state students is generally to cover educational costs not subsidized 
by the state. If this additional out-of-state tuition is not paid, the 
money would need to come from somewhere. As written, at the risk of a 
state making all veterans and beneficiaries attending its public 
institutions ineligible for the G.I. Bill, the legislation is 
attempting to force the reallocation of state taxpayer resources.
    We are troubled that the bill would, in effect, impose a federal 
definition of a ``resident'' on all states. Individual states have long 
determined who qualifies as a resident of their state and who therefore 
receives state benefits.
    State governments are the best equipped for setting and determining 
their own policies with respect to state residency and allocating their 
taxpayer dollars. The State of Kansas is responsible for setting the 
rules on who is considered a Kansas resident based on its needs. 
Residency requirements for veterans are relaxed at the University of 
Kansas. Whereas non-veteran students must reside in the state at the 
time of enrollment, service members or veterans have three scenarios 
where residency requirements are relaxed: (a) the service member must 
have been stationed in Kansas at some point and returned to Kansas 
within the last months after military discharge or retirement; (b) the 
service member is currently on active duty stationed in Kansas or 
formerly have been on active duty stationed in Kansas; or (c) the 
service member is a member of the Kansas Army/Air National Guard and 
residing in Kansas.
    Many states have equally, if not more generous policies in place 
regarding residency rules for veterans e.g. Texas.
    Please keep in mind that these decisions were made by the states 
themselves, after assessing their own state needs, and goals. We 
believe the federal imposition of residency rules on states violates, 
at a minimum, the spirit of the historical relationship between the 
federal government and the states and would be a very bad precedent.
    Through the various state policies, state governments are deciding 
to spend their state tax dollars in the most appropriate manner, 
according to their needs. Ultimately, the legislation in its current 
form proposes to impose federal mandates on how state taxpayer funds 
are used and allocated and how states choose to direct their own 
resources.
    In addition, the legislation as currently drafted would impose a 
new unfunded mandate on both states and public higher education 
institutions, which would be a very unfortunate precedent. In essence, 
the bill would force states and/or public institutions to find 
additional resources to fully support the educational experiences of 
non-resident veterans, costs that are not budgeted for by the state or 
the institution. The implications of that mandate will be discussed in 
greater detail below.
Practical and Operational Concerns
    Our concerns about the bill are not just philosophical. We believe 
that there are significant practical and operational challenges as 
well. Ultimately, we are concerned that veterans could be 
unintentionally harmed by the legislation.
    As previously noted, there already are states and institutions that 
charge all veterans the in-state rate. However, most public 
institutions do not set state residency rules and policies; those 
decisions are generally made by the states themselves, including 
Kansas. Therefore, should those states not currently offering in-state 
benefits to all veterans fail to make changes to their statutes and 
policies by the deadline imposed in the bill, public institutions in 
those same states would lose their eligibility to participate in the GI 
Bill. This would mean that all veterans and other beneficiaries would 
no longer be able to use these benefits at any of the public 
institutions in that state. Even veterans who are recognized by a state 
as residents would lose their benefits at those institutions. If 
veterans and other beneficiaries at these public institutions wish to 
continue their education at the same institution, they would be forced 
to rely on other sources for financial support. This would greatly hurt 
veterans.
    States that do decide to provide in-state tuition rates to veterans 
from across the country would face significant challenges. Depending on 
the size of the population using the GI Bill, an influx of students not 
budgeted for by the states would have a real impact on all students. 
Universities and colleges may be forced to cut services and programs to 
cover the lack of additional resources. This would impact all students, 
including veterans on our campuses.
    Furthermore, as a last resort, some states, and by extension public 
institutions in those states, may be forced to increase tuition - 
again, affecting all students--just to maintain the current offerings 
and level of quality. Despite a decrease in state appropriations, 
public universities have worked to hold down costs and tuition 
increases. Depending on the size of the population using the GI Bill 
benefits, the State of Kansas, and by extension public institutions in 
Kansas, could be forced to absorb unbudgeted costs. This could lead to 
increases in tuition for all students, including veterans. This is a 
very likely unintended consequence of the proposed legislation.
    We must highlight the fact that, as a result of the changes to the 
Post-9/11 GI Bill, there is a program for qualified veterans designed 
to achieve the same ends of H.R. 357, without the ``unintended 
consequences'' - the Yellow Ribbon Program. Our understanding of the 
``Yellow Ribbon'' Program is that it is intended as a partnership 
between participating institutions - both public and private - and the 
federal government that would make higher education more affordable for 
veterans. The program allows institutions of higher education to 
voluntarily enter into an agreement with the Department of Veterans 
Affairs (VA) to fund tuition expenses that exceed the in-state tuition 
and fee rates. Under the Yellow Ribbon Program, institutions can 
contribute up to 50 percent of those expenses and the VA will match the 
same amount as the institution. KU participates in the Yellow Ribbon 
Program so that veterans, residents or non-residents, have their 
tuition and fees covered if they are recipients of the Post-9/11 GI 
Bill. H.R. 357 as drafted removes the financial responsibility from the 
VA and shoulders it squarely on individual states.
    Moreover, H.R. 357 as drafted could even create unintended 
consequences for the Yellow Ribbon Program. Under the Yellow Ribbon 
Program, qualifying veterans attending private institutions, both non-
profit and for-profit, are currently eligible to receive up to 
approximately $18,000 this year to pursue their education. States that 
do not currently treat all veterans as in-state residents for the 
purposes of tuition, or do not grant that authority to make such 
decisions to their state institutions, would find their institutions as 
ineligible to accept students who are using veteran benefits. At best, 
they would qualify for the in-state tuition rate. With the federal 
mandate being proposed in this legislation, veterans pursuing their 
education at public institutions of higher education would become 
eligible for even less support from the federal government. Equity is a 
real concern. Additionally, by requiring public institutions to charge 
in-state rates for veterans from anywhere in the country in order to 
remain eligible for the different variations of the GI Bill - a 
decision that most public institutions do not have the authority to 
make - the Yellow Ribbon could become a program geared primarily toward 
private higher education. Such a move creates another disadvantage for 
veterans at public institutions.
    I must also point out that the deadline of 2014 for states to make 
changes may not be workable even in states that are interested in 
making those changes. In a number of states, the state legislature 
meets only every two years. In some states, the residency issue may 
become a state constitutional matter, and thus require more time. Other 
states, for a host of legitimate reasons, may refuse to make changes. 
The potential practical consequences of the failure to meet the 
deadline for whatever the reason have been described above.
    Having expressed concerns about the deadline, I want to be very 
clear that delaying the deadline does not deal with our fundamental 
concerns about this legislation.
Possible changes for consideration
    With the inclusion of the federal mandate on state residency 
requirements in the legislation, KU and APLU cannot endorse H.R. 357 as 
written. At the same time, we would like to work with you during the 
legislative process to bring about positive changes that would assist 
veterans as they pursue a postsecondary education.

    <bullet>  Promote equity between veterans attending public and 
private institutions

    To ensure equity between veterans attending public institutions and 
private ones, we request that you consider changing the language to 
allow veterans attending public institutions to also be eligible for 
the same level of benefits that are available to those attending 
private institutions

    <bullet>  Create financial incentives for states to adopt similar 
policies.

    Instead of imposing an unworkable federal mandate on states and 
state institutions, we suggest that you consider creating a financial 
incentive for states to adopt policies similar to those called for in 
the legislation. Such financial incentives should address the cost gap 
of out-of-state students described above.
Conclusion
    In conclusion, the University of Kansas and APLU believe that 
veterans should have vast federal support to access and complete a high 
quality postsecondary education experience and should be treated fairly 
during their educational careers. We appreciate this Subcommittee's 
support and interest in student veterans. Unfortunately, for the 
philosophical and operational concerns highlighted above, we cannot 
support the legislation as drafted. However, we look forward to working 
with you to strengthen the legislation.
    Thank you again for the opportunity to testify today. I'd now be 
happy to answer any of your questions.
Executive Summary
    Thank you for holding this hearing and for the opportunity to 
testify before you on H.R. 357, the ``GI Bill Tuition Fairness Act of 
2013.'' My name is Mike Denning, Colonel (Retired), United States 
Marine Corps and I currently serve as Director of Office of Graduate 
Military Programs at the University of Kansas (KU). Prior to joining 
KU, I spent 27 years in the Marine Corps, and retired as a Colonel. I 
am here today representing both KU and the Association of Public and 
Land-grant Universities (APLU).
    KU and the public university community overall appreciate the 
spirit of H.R. 357 and I certainly do as veteran. This nation's public 
universities like KU want to ensure that our nation's veterans are 
treated fairly and with the respect they deserve. Public universities 
around the country are redoubling their efforts to address the needs of 
veterans and service members to whom we all owe an enormous amount of 
gratitude. I can also say that public universities were one of the most 
engaged groups with respect to successfully restoring the Tuition 
Assistance (TA) program during the Senate floor debate on the FY2013 
omnibus/continuing resolution.
    While we are supportive of the overall intent and spirit of H.R. 
357 to provide greater and more affordable access to higher education 
for veterans, we have an array of concerns about the bill and believe 
that it may have the unintended consequence of limiting or denying 
veterans access to higher education institutions.
    Specifically, the bill requires all public universities to offer 
in-state tuition to all veterans regardless of where they live. We are 
troubled that, in this case, the federal government would, in effect, 
impose a federal definition of a ``resident'' for a given state. 
Additionally, this legislation imposes a new unfunded mandate that 
would force states and/or public institutions to find additional 
resources to fully support the educational experiences of non-resident 
veterans. States, not higher education institutions, set residency 
requirement rules, and state governments determine how to best use 
their state tax revenues.
    Since states are already facing budget crunches, many of them might 
simply be unable to afford to change their residency requirements to 
allow all veterans from across the country to receive in-state tuition. 
As currently written, H.R. 357 imposes the penalty of cutting off GI 
benefits to those states and schools that don't comply with the in-
state residency requirement. We're greatly concerned that many states 
would be unable to meet the unfunded in-state tuition mandate, which 
potentially would lead to veterans losing the benefit of the GI bill.
    For states that do adjust their residency requirements to provide 
lower in-state rates for all veterans, universities will be forced to 
make up the loss of out of-state tuition, which could have a real 
impact on all students as campuses may be forced to cut services and 
programs to cover the lack of additional resources or even raise 
tuition rates across the board. This would impact all students, 
including veterans on our campus.
    Despite the aforementioned problems with the current form of the 
bill, we share your commitment to improving access for veterans to 
quality, affordable higher education. We hope to work with you to 
improve the effectiveness of the bill. In particular, we suggest that 
the state mandate and penalty be removed and replaced with incentives 
and supplementary federal funds for states and institutions that 
broaden the scope of their in-state tuition rates for veterans.
                         Financial Disclosures
    VA funds to Association of Public and Land-grant Universities 
(APLU):

    <bullet>  APLU has not received any funds from the VA in the last 
two fiscal years.

                                 <F-dash>
       Prepared Statement of Lt. Gen Joseph F. Weber, (USMC) Ret.
    Chairman Flores and distinguished members of the Subcommittee on 
Economic Opportunity of the House Committee on Veterans' Affairs, my 
name is Joe Weber and I have the privilege of serving as Vice President 
of Student Affairs at Texas A&M University. In addition, I am a retired 
LtGen with 36 years of service in the US Marine Corps.
    I want to begin by thanking you for the chance to come before you 
today to present testimony on important issues relating to supporting 
veteran's success in pursuing higher education. At Texas A&M, and 
indeed in the state of Texas, we deeply value the sacrifice and service 
of veterans and their families. We appreciate this committee's desire 
to reflect the fact that these men and women have served all states in 
the nation by providing them with in-state tuition benefits regardless 
of residency.
    Texas A&M agrees that it is critically important to provide access 
to higher education for our veterans. With thousands of commissioned 
officers and seven Congressional Medal of Honor recipients, no 
university in the nation outside of the service academies has 
contributed more to military service than Texas A&M. Texas A&M is 
undeniably veteran friendly; hence the large number of active duty 
personnel, and veterans on campus. Currently, the veteran enrollment at 
Texas A&M is approximately 600 students.
    We offer numerous programs and resources that benefit veterans. 
There are two offices designed specifically to support veterans--
Scholarships and Financial Aid Veteran Service Office (VSO) and the 
Veteran Resource and Support Center (VRSC). These offices strive to 
``serve well, those who have served'' through a unique and powerful 
partnership to ensure veteran and military dependent success from 
``application to vocation.''
    The VSO offers streamlined processing of all federal and state 
educational benefits, deferred tuition pending Veterans Administration 
(VA) funds, veteran new student orientation, faculty and staff mentor 
training and cross campus referrals that reach campus wide. The VSO 
also identifies and awards scholarships for veterans. We are a partner 
school with the Pat Tillman Foundation and currently have recipients on 
campus that benefit from that scholarship. Recent procedural 
improvements in the VSO have significantly improved military 
educational benefit processing to ensure the best possible financial 
support for both veterans and military dependents.
    The VRSC was established in September 2012 to provide additional 
student support and programming for veterans. The office has developed 
and implemented a variety of new programs that enhance veteran 
recognition, improve health service access, increase academic support 
opportunities and connect students with local community veteran 
organizations and resources. The VRSC was designed to ensure that Texas 
A&M can continue to provide the highest quality of support as our 
student veteran population increases.
    The VRSC facilitates a cross functional university committee called 
the Troops to College Committee which identifies and addresses areas 
for improvement in veteran success. Two subcommittees have been created 
to improve data collection for Veterans and to oversee assessment of 
veteran needs and programs. The Troops to College Committee is 
comprised of key leaders from offices across campus including 
admissions, disability services, career center, counseling center, 
academic offices, Office of the Registrar, Student Veteran Association, 
Student Government, ROTC departments, Office of the Commandant, Student 
Business Services and others as needed to better support our student 
veterans.
    The VRSC launched the Aggie Veteran Network (AVN). It is designed 
to connect Aggie student vets, dependents, military families, and 
veteran faculty/staff with each other and with external organizations. 
The mission of the AVN is twofold: First, to connect those who are 
providing, or are willing to provide, resources and support to our 
students. Second, to link our military affiliated students with high-
impact opportunities to support each other and the local community. The 
AVN will link with the new Association of Former Student Aggie Veteran 
& Military Constituent Network next year.
    Each veteran student who graduates from Texas A&M wears a red, 
white and blue Veteran Graduation cord at their commencement ceremony, 
as a visible sign of our respect and honor for them.
    The Texas A&M University System hosts a Military Symposium 
annually. System schools, other Texas schools and community 
organizations attend every year. There are informative veteran related 
sessions, ``best practices'' discussions and networking opportunities 
at the event. Veteran students are invited to share their experiences 
in college and transition challenges to provide attendees with a better 
sense of how to prioritize their efforts to improve programs and 
support. The system wide document on best practices for military and 
veteran support and services is also attached for you information.
    Texas A&M is home to the Entrepreneurship Bootcamp for Veterans 
with Disabilities (EBV), which is a collaboration between the Center 
for New Ventures and Entrepreneurship, and the Center for Executive 
Development and Mays Business School. The EBV initiative offers cutting 
edge, experiential training in entrepreneurship and small business 
management to soldiers, sailors, airmen and marines disabled as a 
result of their service supporting operations Enduring Freedom and 
Iraqi Freedom.
    Texas A&M University is a member of the Servicemembers Opportunity 
Colleges (SOC) Consortium of approximately 1,900 college and 
universities. SOC Consortium members subscribe to principles and 
criteria to ensure that quality academic programs are available to 
service members, including members of the National Guard and Coast 
Guard, their family members, reservists, and veterans of all Services. 
As a SOC Consortium member, we ensure that military students share in 
appropriately accredited postsecondary educational opportunities 
available to other citizens. Flexibility of programs and procedures, 
particularly in admissions, counseling, credit transfer, course 
articulations, recognition of non-traditional learning experiences, 
scheduling, course format, and residency requirements are provided to 
enhance access of service members and their family members to higher 
education programs.
    Indeed, Texas A&M was ranked #11 Best for Vets in Military Edge 
magazine in 2011. In 2012 Texas A&M was an honoree in Top Military 
Friendly Colleges and Universities by Military Advanced Education.
    Clearly these examples demonstrate that Texas A&M greatly values 
our veteran student population. In addition, Texas A&M sees the veteran 
student population as bringing this value back to the state of Texas. 
States offering higher education benefits to veterans benefit greatly 
from veterans' presence in the state both during and after their 
enrollment in college. Veterans contribute to the state economy and 
local community through a variety of means. Indeed, high-quality public 
colleges and universities improve states and communities by attracting 
veterans, scholars, students and researchers who lay down roots, pay 
taxes, buy property, and contribute to the community in countless 
immeasurable ways. The opportunity to draw more veterans to a state 
often provides a strong rationale for adopting policies to extend in-
state tuition eligibility to veterans.
    As a case in point, student veteran expansion has dramatically 
increased in Texas, bringing an estimated $1 billion in educational 
benefit revenues to the state in FY 2012 alone. Nationally the total GI 
Bill expenditure approaches $26 billion since 2009. Texas has 
demonstrably embraced our veteran population and I believe that a 
discussion of the Texas state benefits for veterans can help inform the 
policy this committee desires to enact.
    The most prominent program which benefits the veterans of Texas is 
the Hazlewood Act. This program provides qualified veterans, spouses 
and dependent children with an education benefit of up to 150 hours of 
tuition exemption, including most fees at public institutions of higher 
education in Texas. It does not include living expenses, books or 
supply fees. The Hazlewood Act is also extended to spouses and 
dependent children of eligible active duty, Texas National Guard, and 
Air National Guard Veterans who died in the line of duty or as a result 
of injury or illness directly related to military service, are missing 
in action, or who become totally disabled for purposes of employability 
as a result of service-related injury or illness.
    The use of the Hazlewood provision has exploded in the past several 
years. In 2007, the program at Texas A&M included 148 veteran students, 
totaling $679K tuition and fees benefit. In fiscal year 2012, the 
number rose to 285 veteran students, totaling $1.6M. With the expansion 
of Hazlewood benefits to dependents, the total benefit to veterans and 
their families at Texas A&M stands at $9.4M. Statewide public 
universities provided this benefit to 4,549 veteran students in 2007, 
totaling $14.6M. In 2012, that number grew to 8,444 veteran students, 
totaling $37.3M in tuition and fees benefit.
    Texas A&M wholeheartedly supports these exemptions and the students 
who use them. However, I would be remiss if I did not mention the 
growing financial consequences of this program to our University, 
especially with the expansion in 2009 to allow dependents to receive 
the Hazlewood Act benefits. In short, the exemption results in foregone 
revenue to the institution in what is typically considered an unfunded 
mandate, since there is currently no state reimbursement or other 
payment. Given that the growth in this program comes at a time when 
funding for state universities across the nation is being cut, 
sometimes drastically (Texas A&M was cut by 14% in state general 
revenue funding for FY12 and FY13), it is difficult for universities to 
maintain services and programs without this revenue. The Texas 
Legislature is currently considering ways to address this issue to 
ensure that Texas universities can continue to offer these benefits.
    Also relevant to H.R. 357 are two programs through which Texas A&M 
currently provides resources specifically for non-resident veterans; 
the Military Personnel Waiver and the Yellow Ribbon GI Education 
Enhancement Program (Yellow Ribbon Program).
    The Military Personnel Waiver is provided through Texas Education 
Code section 54.058. Current members of the Armed Forces, veterans, and 
their spouses and children who meet certain eligibility requirements 
may receive the waiver. Veterans must intend to establish residency in 
Texas to receive this waiver.
    The Yellow Ribbon Program is a provision of the Post-9/11 GI Bill. 
This program allows institutions of higher learning to voluntarily 
enter into an agreement with VA to fund tuition expenses that exceed 
the in-state tuition and fee rates. The institution can contribute up 
to 50% of those expenses and VA will match the same amount as the 
institution. Texas A&M University participates in the Yellow Ribbon 
Program because we want to ensure all veterans, even those who are non-
residents, can have their tuition and fees covered if they have the 
Post-9/11 GI Bill.
    To quantify, Texas A&M has 56 non-resident veterans for the spring 
2013 semester, which represents less than 10% of our total veteran 
student population. Twenty of these students are eligible for the 
Military Personnel Waiver, 16 for a competitive scholarship waiver, and 
2 for the Yellow Ribbon Program. Thus, 20 students for spring 2013 are 
paying out-of-state tuition. We are fully aware that the numbers of 
non-resident veterans vary across the state and nation, and that other 
states and possibly other schools in Texas may not be in a similar 
situation. We also note that there is a greater impact on institutions 
with extensive distance education programs.
    In summary, Texas has numerous policies in place that generously 
benefit veterans, which Texas A&M has embraced. The spirit of H.R. 357 
runs parallel to the spirit of support Texas A&M has provided its 
students who are veterans. We have examined the bill in detail and 
offer some suggestions for your consideration, which we believe will 
improve the ability for universities to provide this benefit to the 
veteran.
    First, residency for tuition purposes at public universities is 
usually under the purview of state legislatures; this is certainly true 
in Texas. The proposed implementation date of the bill provides 
insufficient time for states to address this issue if they choose to do 
so given the timing of state legislative cycles. As a result, public 
institutions will not be able to comply and all veterans (and their 
dependents) will lose the ability to utilize their benefits, not just 
those classified as a non-resident. At Texas A&M, 100% of the veterans 
would be negatively impacted when only 3.3% are currently not receiving 
in-state tuition rates. A potential solution is to simply delay 
implementation another year or two to enable states to comply through 
established legislative procedures.
    Another option would be to change the language from `` . . . unless 
the institution charges tuition and fees for a veteran at the same rate 
as the institution charges for residents of the State . . . '' in 
section 2, subsection (c) to ``unless the institution's net charges to 
a veteran, after federal veteran benefits, waivers, scholarships, and 
grants are applied, is at the same rate as the institution charges for 
residents of the State . . . ''. This would allow institutions 
flexibility in how to meet this requirement through other means. By 
making this change, an institution, even in a state that does not grant 
residency for tuition purposes, could provide other financial 
assistance to the student to accomplish the same effect. While this may 
cost institutions some funding, it would preserve the ability to 
receive funding from the VA to cover the tuition charges to provide 
better overall veteran educational benefit support.
    It should be noted that private institutions are not impacted by 
this bill. In essence, it only requires public universities to provide 
a lower tuition rate for veterans and results in additional forgone 
revenue. Public institutions want to do their part to serve the 
veteran. Providing a mechanism to allow funding currently being 
received by public institutions through the VA to continue will lessen 
the impact of another unfunded mandate that either shifts the costs of 
higher education onto other students, or drives up the overall cost for 
everyone in order to recover lost revenue.
    The overarching concern is to ensure that the veteran receives the 
maximum benefit while not placing institutions in a position of 
shifting costs throughout the university that would hinder the 
educational mission including current or expanded veteran services.
    Thank you again for providing this opportunity for me and Texas A&M 
to discuss this important legislation and for your leadership in 
support of our veterans.
Executive Summary
    Chairman Flores and distinguished members of the Subcommittee on 
Economic Opportunity of the House Committee on Veterans' Affairs, my 
name is Joe Weber and I have the privilege of serving as Vice President 
of Student Affairs at Texas A&M University. In addition, I am a retired 
LtGen with 36 years of service in the US Marine Corps.
    Thank you for the chance to present testimony on important issues 
relating to supporting veteran's success in pursuing higher education. 
At Texas A&M, and indeed in the state of Texas, we deeply value the 
sacrifice and service of veterans and their families. No university in 
the nation outside of the service academies has contributed more to 
military service than Texas A&M. Currently, the veteran enrollment at 
Texas A&M is approximately 600 students and we offer numerous programs 
and resources that strive to ``serve well, those who have served.''
    Texas also has demonstrably embraced our veterans, providing 
several benefits programs. The most prominent of these programs is the 
Hazlewood Act, which provides qualified veterans, spouses and dependent 
children with an education benefit of up to 150 hours of tuition 
exemption, including most fees at public institutions of higher 
education in Texas. The growth in this program has exploded in the past 
several years at Texas A&M and across the state. Texas A&M also makes 
use of state and federal programs to address out-of-state residency.
    The spirit of H.R. 357 runs parallel to the spirit of support Texas 
A&M has provided its students who are veterans. We have examined the 
draft bill in detail and offer some suggestions for your consideration.
    One possible change is to consider delaying the implementation 
date, because residency (for tuition purposes) at public universities 
is usually under the purview of state legislatures. The proposed 
implementation date of the bill provides insufficient time for some 
states to address this issue, given the timing of state legislative 
cycles. As a result, public institutions will not be able to comply and 
all veterans (and their dependents) will lose the ability to utilize 
their benefits, not just those classified as a non-resident. Another 
option would be a small language change in the bill to allow 
institutions some flexibility in how to meet this requirement through 
other means.
    The overarching concern is to ensure that the veteran receives the 
maximum benefit while not placing institutions in a position of 
shifting costs throughout the university that would hinder the 
educational mission including current or expanded veteran services.

                                 <F-dash>
               Prepared Statement of Alexander Nicholson


----------------------------------------------------------------------------------------------------------------
        Bill #                    Bill Name                      Sponsor                      Position
----------------------------------------------------------------------------------------------------------------
            H.R 357     The GI Bill Tuition Fairness                     Miller                       Support
                                      Act of 2013
----------------------------------------------------------------------------------------------------------------
            H.R 562     The VRAP Extension Act of                        Miller                       Support
                                             2013
----------------------------------------------------------------------------------------------------------------
            H.R 631     Servicemembers' Choice in                        Flores                       Support
                           Transition Act of 2013
----------------------------------------------------------------------------------------------------------------
            H.R 844     VetSuccess Enhancement Act                       Takano                       Support
                                          of 2013
----------------------------------------------------------------------------------------------------------------
           H.R 1305      To Provide Clarification                      Wenstrup                       Support
                        Regarding Eligibility for
                                   Services . . .
----------------------------------------------------------------------------------------------------------------
           H.R 1316        Directors of Veterans'                        Flores                       Support
                            Employment & Training
                               Accountability Act
----------------------------------------------------------------------------------------------------------------
           H.R 1402     The Veterans Paralympic Act                     Coffman                       Support
                                          of 2013
----------------------------------------------------------------------------------------------------------------
            Draft 1             The Improving Job                       Coffman                       Support
                        Opportunities for Veterans
                                      Act of 2013
----------------------------------------------------------------------------------------------------------------
            Draft 2        To Extend Authority to                        Miller                       Support
                        Provide Work-Study Allowance
                                            . . .
----------------------------------------------------------------------------------------------------------------

    Chairman Flores, Ranking Member Takano, & Distinguished Members of 
the Subcommittee:
    On behalf of Iraq and Afghanistan Veterans of America, or IAVA, I 
would like to thank you for convening a hearing on these bills, and for 
your continued dedication to improving the lives of and opportunities 
available to America's veterans. We also appreciate this invitation to 
share our organization's members' views on these particular bills 
before us here today.
    IAVA is the nation's first and largest nonprofit, nonpartisan 
organization for veterans of the wars in Iraq and Afghanistan and their 
supporters. Founded in 2004, our mission is critically important but 
simple - to improve the lives of Iraq and Afghanistan veterans and 
their families. With a steadily growing base of over 200,000 members 
and supporters, we strive to help create a society that honors and 
supports veterans of all generations.
    While our country's economic position and the employment status of 
all Americans remains a grave concern for everyone, it should distress 
each and every one of us that America's newest veterans - those who 
have shouldered the burden of fighting our recent wars - are being hit 
the hardest. In its most recent release on the employment status of 
veterans, the Bureau of Labor Statistics revealed that one out of every 
ten post-9/11 veterans is unemployed. Alarmingly, the rate rises even 
higher for female veterans.
    And although we are focused here today on legislation to enhance 
opportunities for veterans who are able to work, I would be remiss if I 
did not remind the committee members that those who cannot seek work 
because of a service-connected disability continue to face an 
unacceptably backlogged VA disability claims pipeline, which denies 
those veterans who cannot work the compensation the deserve to make up 
for their loss of earnings. This problem, which has seen astronomical 
growth since 2009 despite a 40% increase in the VA's budget over that 
period, needs your urgent attention as well.
    But for those veterans who are able to work and who want nothing 
more than to be able to transition back into civilian life, get an 
education, find gainful employment, and build a better life for 
themselves and their families after faithfully and honorably carrying 
out their service obligations, we owe it to them to ensure that they 
have the tools, resources, and knowledge to successfully take those 
next steps in life. As a result, IAVA is supportive of all of the 
legislation that is the subject of this hearing today. We believe that 
these bills provide important improvements upon existing programs that 
serve these purposes.
H.R. 357
    IAVA supports H.R. 357, which would grant in-state status for all 
veterans using the GI Bill. For those who elect to return to school 
after completing their military service obligations, the GI Bill has 
been a remarkable personal development and economic mobility tool for 
our nation's veterans, and a tremendously successful investment for our 
country. The new, Post-9/11 GI Bill in particular has also been a 
tremendous boon for veterans of the wars in Iraq and Afghanistan who 
deserve the same opportunities and adjusted benefit levels as were 
afforded to veterans of previous generations.
    But with the entry of millions of new veterans into the ranks of 
those now utilizing their earned education benefits, the need for 
various adjustments and fixes to the program have come to light over 
the years. Given that Congress and the American people agree that all 
veterans deserve a fair opportunity to be able to utilize their 
benefits without undue hardship, this body has generally been amenable 
to quickly addressing these various issues as they have come up. H.R. 
357 would fix another one of these benefit access and utilization 
issues by allowing veterans to attend public colleges and universities 
at their respective in-state rates and, thereby, actually be able to 
afford to go to school and live comfortably using their Post-9/11 GI 
Bill benefits.
    Because of the nature of military service, service members are 
required to move around according to the needs of their service. 
Typically that means they are forced to settle down and reside for 
years in communities outside of their original state of residence. 
Service members who are stationed at a particular base or post may live 
in that state for years, buy a home in that state, shop and pay local 
taxes to that state, raise a family in that state, and generally become 
part of the community in that locale. However, that service member is 
technically still not considered a resident of that state. So if he or 
she retires or ends his or her term of service in that state and wants 
to stay local and go back to school as a new veteran in the place where 
he or she has already functionally settled, that service member would 
nevertheless be considered a non-resident as a new veteran there and 
would be forced to pay the often-exorbitant out-of-state tuition rates 
for his or her education there.
    Veterans who wind up living in an area outside of their home states 
through no fault or choice of their own because of the obligations 
associated with serving their country in uniform should not be denied 
the opportunity to use their deserved and earned education benefits to 
cover the full cost of their education in an area where they have 
already become functional - but not technical - residents simply 
because of their military service. This bill would remedy that gap in 
tuition and residency fairness and ensure that all veterans can take 
advantage of the promise of the Post-9/11 GI Bill without undue 
hardship.
H.R. 562
    IAVA supports H.R. 562, which would extend the Veterans Retraining 
and Assistance Program for an additional three months. This program 
continues to provide need practical and vocational training to tens of 
thousands of veterans who are not eligible for any other VA education 
benefit program. In today's employment climate, this type of support 
for struggling veterans constitutes a worthwhile investment.
H.R. 631
    IAVA supports H.R. 631, which would enhance, expand, and 
standardize the content of the Transition Assistance Program for 
service members who are preparing to reintegrate into the civilian 
world, go back to school using their VA education benefits, and/or 
enter the civilian job market, constitutes a positive step in the right 
direction toward equipping troops with the knowledge and skills they 
need to be successful as new veterans.
    We cannot simply turn new veterans loose into the civilian world 
and expect them to be successful, just as we would not release them as 
new troops onto a battlefield without proper acculturation and 
training. A strong, comprehensive, substantive, and consistent 
Transition Assistance Program is vital to ensuring service members' 
successful transition back into civilian life, and to ensuring the 
security and stability of their families.
    We need to remember that many of these men and women go into the 
military right out of high school, shortly after college, or early in 
their professional lives, and although they have shouldered great 
responsibilities and successfully advanced in their careers within the 
military system during their period of service, the requirements, 
expectations, and unspoken rules of the civilian employment landscape 
can be quite different.
H.R. 844
    IAVA supports H.R. 844, which would extend the eligibility period 
for vocational rehabilitation programs. Those who have sacrificed their 
ability to work in service to our nation deserve all the tools and 
resources we are capable of providing in order to help rehabilitate and 
equip them for future employment opportunities.
H.R. 1305
    IAVA supports H.R. 1305, which clarifies eligibility for services 
under the Homeless Veterans Reintegration Program. Ensuring that all 
veterans who quality for this program receive these benefits is 
critical to helping remedy the veterans homelessness epidemic and to 
helping these veterans become self-sustaining.
H.R. 1316
    IAVA supports H.R. 1316, which would clearly delineate certain 
duties and responsibilities of Directors and Assistant Directors of 
Veterans' Employment and Training. Prudent supervision and oversight is 
important to ensuring accountability, and Congress is right to help 
ensure that the departments and agencies it oversees have sufficiently 
explicit standards and expectations promulgated.
H.R. 1402
    IAVA supports H.R. 1402, which would extend VA support for disabled 
veterans' participation in the Paralympics. The promotion of 
therapeutic and rehabilitative initiatives for veterans has always been 
a priority of the VA, and competitive programs such a the Paralympics 
that foster both recovery and national pride are worthy of our support.
DRAFT BILL 1
    IAVA would support Draft Bill 1, which would improve and increase 
the availability of on-the-job training and apprenticeship programs for 
veterans. This bill represents an important acknowledgement of the 
enormous benefits that can come from practical learning and training 
experiences. Sometimes, and in some fields, there is simply no better 
way to learn a job or trade than to actually dive in and get hands-on 
experience in that field. And in today's highly competitive job market, 
getting an initial foot in the door and being able to effectively 
network can make the difference between finding a job and spending 
months or years more searching. We should encourage veterans entering 
the civilian job market to develop and hone these types of practical 
skills to help them compete with their civilian job-seeking 
counterparts who may have more experience on the civilian side of their 
respective industries and fields.
    This bill not only expands opportunities for veterans to do just 
that, but it also smartly focuses on requiring the VA to widely 
advertise the availability of such programs. After all, the VA can have 
the best benefits and programs the world, but if no one knows about 
them and knows how to take advantage of them, then our investment in 
them and the return on that investment is significantly diminished.
DRAFT BILL 2
    IAVA would support Draft Bill 2, which would extend the 
availability of work-study allowances for certain veterans receiving 
educational benefits from the VA. For those veterans pursuing higher 
education who need additional assistance to help finance the cost of 
their education and living expenses while in school, work-study 
programs provide a relevant and positive way to earn income while 
supporting the ongoing work of eligible work-study partners.
    We again appreciate the opportunity to offer our views on these 
bills, and we look forward to continuing to work with each of you, your 
staff, and the Committee to improve the lives of veterans and their 
families. Thank you for your time and attention.
        Statement on Receipt of Federal Grant or Contract Funds
    Neither Mr. Nicholson nor the organization he represents, Iraq and 
Afghanistan Veterans of America, has received federal grant or contract 
funds during the current or two previous fiscal years.

                                 <F-dash>
                 Prepared Statement of Ryan M. Gallucci
    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee, on behalf of the nearly 2 million members of the Veterans 
of Foreign Wars of the United States (VFW) and our Auxiliaries, I want 
to thank you for the opportunity to present the VFW's stance on 
legislation pending before this Subcommittee.
    Though the economy continues to slowly recover, unemployment among 
young veterans who served after 9/11 continues to outpace unemployment 
among civilians. Over the last few years, the VFW has prioritized 
veteran-hiring initiatives and championed legislation before this 
committee in an effort to help our service members and veterans secure 
meaningful careers after military service.
    I want to first thank the subcommittee for its hard work in the 
112th Congress, championing legislation like the VOW to Hire Heroes 
Act, the Improving Transparency in Education for Veterans Act, and 
dozens of other initiatives that have helped make today's veterans more 
competitive during difficult economic times.
    However, with the war in Iraq over, drawdown in Afghanistan 
imminent, proposed reductions in the active duty military and plans to 
rely heavily on the Guard and Reserve for future missions, we must 
continue to do more. The bills we are discussing today will help 
veterans of all eras remain competitive in the workforce; improve 
transitional resources for separating service members; foster 
rehabilitation among severely wounded veterans; and enhance services to 
homeless and at-risk veterans.
H.R. 357, GI Bill Tuition Fairness Act of 2013:
    Over the last few years, the VFW, American Legion and Student 
Veterans of America have worked closely to improve educational 
resources for veterans, ensuring potential student-veterans are 
academically and financially prepared for the rigors of college life. A 
major roadblock that prevents student-veterans from receiving a 
quality, reasonably-priced education through the Post-9/11 GI Bill is 
the inability to qualify as in-state residents for tuition purposes 
while attending public colleges and universities. Specifically, 
recently-separated veterans who may be legal residents of a particular 
state, but who have been stationed on a military installation in 
another state, will not qualify as residents when they seek to attend a 
public college or university because they have not been physically 
present in the state long enough to qualify as a resident for tuition 
purposes. As of 2011, Student Veterans of America reports that only one 
out of every five veterans attending a public school is eligible to 
attend at the in-state rate.
    The Post-9/11 GI Bill was intended to offer veterans a free, public 
education and a modest living stipend, allowing veterans to treat 
college as a full-time job, without worrying about financial stability. 
Current law only allows VA to reimburse veterans attending public 
schools for the cost of an in-state education, meaning veterans who 
cannot qualify for in-state tuition will only receive meager 
reimbursement for college. This clerical oversight forces veterans to 
find other ways to pay for college either through other federal aid 
programs, finding full time employment or amassing student loan debt 
even when they make a good faith effort to legally reside in a state 
and attend a public school.
    An easy solution to this issue would be for public colleges and 
universities to allow Post-9/11 GI Bill-eligible veterans to attend at 
the in-state rate. Service members already have similar protections 
when they use military Tuition Assistance at public schools, with 
minimal impact on the ability of state colleges and universities to 
deliver a quality, reasonably-priced education.
    Ten states already offer in-state tuition to veterans, eight states 
offer conditional waivers for veterans in certain circumstances, and 16 
states have legislation pending. Of the states that have passed in-
state tuition initiatives for veterans, both Republican and Democrat 
state leaders have all agreed that the financial benefits for the state 
far outweigh the illusory financial burdens that some in higher 
education believe would be detrimental to institutional budgets - 
particularly since graduates of public colleges and universities 
traditionally pursue careers close to their alma mater.
    When Ohio passed its in-state tuition waiver in 2009, then- Gov. 
Ted Strickland said of in-state tuition, ``It delivers real support to 
veterans while helping strengthen Ohio's strategic plan for higher 
education, which calls for attracting and keeping talent in the state. 
Who better to have as part of Ohio's colleges and universities, 
workforce and communities than the veterans who have served, led, and 
protected our country?''
    When Virginia passed its law in 2011, Gov. Bob McDonnell said 
``These men and women have served our country; it is essential that we 
continue to work to better serve them. Veterans are the kind of 
citizens we want in the Commonwealth and that we want as part of our 
workforce.''
    When Louisiana passed its law in 2012, Gov. Bobby Jindal said, 
``This new law encourages members of the U.S. military - who are the 
best trained professionals in the world - to pursue an education in our 
state, which will be an economic boost, but most importantly, it's yet 
another means for us to thank these brave men and women for their 
service.''
    The Post-9/11 GI Bill is a federal program designed to help our 
nation's heroes acquire the skills necessary to build a successful 
career after military service. Our veterans served the nation; not a 
particular state. They should not be penalized for their honorable 
service when they cannot satisfy strict residency requirements for 
tuition purposes. The VFW regularly hears from student-veterans who 
confirm that financial uncertainty is the most significant roadblock to 
persistence and graduation. To combat this, it only makes sense to 
allow our student-veterans to attend college at a reasonable rate when 
seeking to use their earned Post-9/11 GI Bill benefits, and we hope the 
committee moves quickly to pass this legislation.
H.R. 562, VRAP Extension Act of 2013:
    The VFW was proud to support the establishment of the Veterans 
Retraining Assistance Program (VRAP) as part of the VOW to Hire Heroes 
Act on 2011. To date, more than 93,000 veterans between the ages of 35-
60 have certified eligibility for the program. Unfortunately, fewer 
than 41,000 eligible veterans have enrolled in an eligible program to 
date. The original VRAP program is set to expire on March 31, 2014, 
meaning that veterans who did not enroll as of April 1 will not be able 
to use all 12 months of eligibility for the program. The VFW supports 
extending this deadline to June 30, 2014 to ensure that eligible 
veterans can enroll in an academic program and use their full year of 
benefits.
    However, the VFW echoes the concerns of this committee that 
enrollment remains too low. We fully support a report to Congress on 
the outcomes of VRAP, but we also ask the committee to consider two 
critical improvements to the program.
    First, Congress should ease the restriction on institutional 
eligibility for VRAP. The VFW understands that VRAP will only pay for 
programs no longer than two years in duration. As a result, four-year 
institutions are ineligible to participate. On the surface, this makes 
sense. Unfortunately, quality four-year institutions that offer 
certificate and two-year programs are locked out of VRAP, and veterans 
are told to enroll at community colleges or online schools.
    However, not all communities offer community colleges. For example, 
in Erie, Pennsylvania, the Pennsylvania State University Erie Campus 
serves as a de facto community college, even though the school also 
offers four-year programs. Veterans who wish to use their VRAP benefits 
will not find an eligible community college nearby. They simply do not 
exist in Erie.
    Second, Congress must make it easier for VRAP benefits to cover 
remediation training. Recently, the VFW heard from the Student Veterans 
Organization at the Community College of Rhode Island, which boasts 
significant enrollment from VRAP-eligible veterans. By the very nature 
of the program, many eligible veterans require significant remediation 
in areas like math, composition and computer literacy. Unfortunately, 
CCRI's student-veterans report that these basic remedial skills cannot 
be paid for through VRAP since they are not part of the core curriculum 
for VRAP-approved programs. The VFW believes this sets up eligible 
veterans for failure. Veterans must be able to use VRAP for basic 
remediation. Otherwise, we cannot reasonably expect veterans to have 
the skills necessary to complete their approved programs in a timely 
manner.
H.R. 631, Servicemembers' Choice in Transition Act of 2013:
    The VFW fully supports the redesign of the military's transition 
assistance programs (TAP), and we thank VA, Department of Labor, the 
Small Business Administration, and Department of Defense for allowing 
VFW to audit and evaluate pilot curricula for redesigned TAP and the 
new Transition GPS model.
    While we acknowledge that TAP has significantly improved through 
this latest redesign, we have concerns that the program will still fail 
to adequately prepare service members for civilian life, since 
participation in individualized tracked curricula will not be 
mandatory.
    Rather than mandating participation in one of three new tracks 
focusing on education, vocational/technical careers or 
entrepreneurship, DoD has instead decided that service members will 
need to meet ``career readiness standards'' in the track of their 
choice. To the VFW, this is not what we envisioned when we suggested 
that DoD develop curricula from which a transitioning service member 
could choose prior to separation.
    Instead, the VFW envisioned a model similar to Marine Corps TAP, 
through which a service member would attend service-specific training, 
the VA benefits briefings, then choose from one of four tracks: 
Employment, education, entrepreneurship, and vocational/technical. 
Chairman Flores, your bill clarifies that the intent of the TAP 
redesign was to offer this kind of transitional training, and we are 
proud to support it.
    The VFW supports DoD's efforts to build a life cycle model for 
military professional development, but we are concerned that the new 
model will still fail to adequately prepare service members for 
civilian life. We prefer the model set forth in H.R. 631, which allows 
service members to actively choose their unique transition plan, but 
also acknowledges the finite time frame services can dedicate to 
preparing separating service members for civilian life.
H.R. 844, VetSuccess Enhancement Act:
    The VFW has a long-standing resolution calling on VA to lift the 
delimiting date for participation in the Vocational Rehabilitation 
(VR&E) program, and we are proud to support H.R. 844, which extends the 
delimiting date by five years.
    The VFW has long held that if disabled veterans need additional 
skills to be employable, then VA has a duty to offer these resources 
regardless of how long a veteran has been separated from the military. 
Over time, service-connected disabilities can limit veterans in their 
career choices. Veterans limited by their disabilities may need VR&E 
services later in life to remain competitive in an ever-changing 
workforce, and the VFW believes it is our obligation to offer those 
resources without arbitrary time restrictions.
    VA already has some regulatory flexibility in how it can administer 
VR&E benefits, but the VFW prefers to see the delimiting date lifted in 
code.
H.R. 1305, To amend title 38, United States Code, to provide 
        clarification regarding eligibility for services under the 
        Homeless Veterans Reintegration Program:
    The Homeless Veterans Reintegration Program (HVRP) offers 
tremendous transitional resources to homeless veterans seeking to 
reenter the workforce. Unfortunately, due to the rigid definition of 
``homeless veteran,'' many formerly homeless, formerly incarcerated, or 
transitioning veterans who could benefit the most from the program are 
ineligible. By expanding the definition to include these categories of 
at-risk veterans, HVRP will offer more veterans the opportunity to 
successfully reenter the workforce.
H.R. 1316, To amend title 38, United States Code, to specify the 
        responsibilities of the Directors and Assistant Directors of 
        Veterans' Employment and Training:
    The VFW is proud to support H.R. 1316, which will finally codify 
the specific responsibilities of Directors of Veterans Employment and 
Training (DVETS) and Assistant Directors of Veterans Employment and 
Training (ADVETS) in state workforce development agencies. The VFW 
understands that many DVETS and ADVETS already fulfill these 
responsibilities, but we echo Department of Labor Veterans Employment 
and Training Services that federally-funded directors responsible for 
managing veterans' employment resources on the state level must have 
consistency in mission. The VFW is also concerned that DVETS and ADVETS 
must be protected should the SKILLS Act (H.R. 803) gain momentum in 
Congress, transforming how state workforce development programs are 
funded and structured. Our goal is to ensure that veteran-specific 
resources continue to be available in every state and that services are 
rendered consistently. In order to do this, the House Veterans Affairs 
Committee must be able to provide direct funding and continue to have 
direct oversight of DVETS and ADVETS.
H.R. 1402, To amend title 38, United States Code, to extend the 
        authorization of appropriations for the Secretary of Veterans 
        Affairs to pay a monthly assistance allowance to disabled 
        veterans training or competing for the Paralympic Team and the 
        authorization of appropriations for the Secretary of Veterans 
        Affairs to provide assistance to United States Paralympics, 
        Inc.:
    The VFW believes that rehabilitation through sports fosters healthy 
living, physical fitness, and a competitive spirit for our disabled 
veterans, many of whom have suffered catastrophic injuries in the line 
of duty. VFW Posts and Departments around the country consistently 
support rehabilitative sports in their communities, which is why we are 
proud to support extending VA's collaboration with United States 
Paralympics, Inc. through 2018.
    By supporting responsible rehabilitative sports initiatives like 
those provided by the U.S. Paralympic Team, the VFW believes that 
combat-wounded veterans will not simply overcome their injuries, but 
also discover new personal strengths and abilities.
Draft bill, Improving Job Opportunities for Veterans Act of 2013:
    The VFW believes that the intent of the GI Bill is to allow 
veterans to acquire the necessary skills to compete in the civilian job 
market. For many veterans, the simplest path to acquiring these skills 
is through higher education. However, we must stress that college is 
not for everybody, which is why GI Bill-eligible veterans can also 
acquire highly-marketable job skills through VA-approved apprenticeship 
and on-the-job training programs (OJT).
    The National Association of State Approving Agencies (NASAA) 
consistently touts the merits of approved OJT programs, but admittedly 
has trouble informing eligible veterans that the programs exist.
    Through this draft legislation, VA will be able to readily 
publicize the availability of OJT and also make the program more 
attractive to potential employers by offering greater flexibility in 
compensation for trainees. To take this one step further, the VFW would 
suggest restoring outreach funding to State Approving Agencies, which 
play a critical role in informing veterans of OJT opportunities.
    The VFW would proudly support this initiative to increase the 
visibility and viability of VA-approved OJT programs.
Draft bill, To amend title 38, United States Code, to extend the 
        authority to provide work-study allowance for certain 
        activities by individuals receiving educational assistance by 
        the Secretary of Veterans Affairs:
    This draft bill is a simple extension of VA's authority to offer 
work-study allowances for student-veterans. The VFW has long supported 
the VA work-study program and we would proudly support this initiative 
to extend the program to 2018.
    Chairman Flores, Ranking Member Takano, and members of the 
Subcommittee, this concludes my testimony and I would be happy to 
answer any questions you may have.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, VFW has 
not received any federal grants in Fiscal Year 2013, nor has it 
received any federal grants in the two previous Fiscal Years.

                                 <F-dash>
                Prepared Statement of Steve L. Gonzalez
    Chairman Flores, Ranking Member Takano and distinguished Members of 
the Subcommittee, on behalf of Commander Koutz and the 2.4 million 
members of The American Legion, I thank you and your colleagues for the 
work you do in support of our service members and veterans as well as 
their families. The hard work of this Subcommittee in creating 
significant legislation has left a positive impact on our military and 
veterans' community.
    In the last Congress alone, The American Legion was pleased to 
support and advocate for the passage of legislation out of this 
Committee that included the VOW to Hire Heroes Act, the Veteran Skills 
to Jobs Act, and the Improving Transparency of Education Opportunities 
for Veterans Act. These bills, and others passed into law during the 
112th Congress, show the commitment and determination of members of 
this Committee to improving the lives of those who have served our 
country.
    As you know, our servicemen and women returning from Iraq and 
Afghanistan are met with daunting challenges at home. These soldiers, 
sailors, airmen and Marines are greeted by a soft economy that has 
resulted in an alarmingly high unemployment rate among our highly 
skilled veteran community. What our veterans need are jobs, business 
opportunities or education pathways that can help support a successful 
transition from military service to prosperous civilian careers.
    As the largest organization of wartime veterans, the Legion's voice 
is representative of more than 4 million veterans and patriotic 
Americans. Our positions are guided by nearly 100 years of consistent 
advocacy, and resolutions that originate at the grassroots level of the 
organization - the local American Legion posts and veterans in every 
congressional district of America. The Headquarters staff of the Legion 
works daily on behalf of veterans, military personnel and our 
communities through roughly 20 national programs, and hundreds of 
outreach programs led by our posts across the country.
    We appreciate the opportunity to present The American Legion's 
views regarding this legislation, and believe we are uniquely qualified 
to participate in this discussion.
             H.R.357: GI Bill Tuition Fairness Act of 2013
    Directs the Secretary of Veterans Affairs (VA), for purposes of the 
educational assistance programs administered by the Secretary, to 
disapprove courses of education provided by public institutions of 
higher education that do not charge tuition and fees for veterans at 
the same rate that is charged for in-state residents, regardless of the 
veteran's state of residence.
    The American Legion is synonymous with veteran's education, being 
instrumental in the first and most recent GI Bill's passage and helping 
the modern-day veteran navigate the confusing world of education 
benefits. The main reason for the Post 9/11 GI Bill was that VA 
education benefits were no longer covering fast-rising tuition costs. 
Working with Congress, we stressed the need for a ``21st century GI 
Bill'' that would provide benefits worthy of our veterans and offer the 
same opportunities afforded to those who fought in World War II.
    However, over the last couple of years, we have heard from 
countless veterans who, because of the nature of military service, 
often have a difficult time establishing residency for purposes of 
obtaining in-state tuition rates. Under current rules 40,000 student-
veterans have to pay the difference between in-state tuition, which is 
covered by the Post-9/11 GI Bill, and out-of-state tuition if they are 
attending school as a nonresident. Because of this, many of our 
student-veterans are unable to use their GI Bill benefits at an 
institution of higher education of their choice or are required to pay 
thousands of dollars in out-of-pocket expenses in nonresidential 
tuition rates. Furthermore, public colleges and universities have 
significantly raised the costs of out-of-state tuition to offset 
decreasing revenues due to state budget cuts. Circumstances such as 
these pose significant challenges to using this important benefit.
    Therefore, The American Legion has led a state-by-state initiative 
to introduce, advocate for and support state legislation that would 
make all student-veterans eligible for in-state tuition at public 
colleges and universities, regardless of their residency status.
    We were also pleased to see Chairman Miller and Ranking Member 
Michaud cooperate to introduce this bipartisan legislation, H.R. 357, 
which would require public colleges and universities to give veterans 
in-state tuition rates even though they may not be residents. The 
requirement would apply to state schools which have programs which are 
eligible for the GI Bill.
    Veterans shouldn't have to go into deep debt for their education 
just because their permanent residence is in another state or assume 
tremendous financial burdens due to the recent change in law which 
often capped GI Bill benefits far short of high out-of-state rates. 
Therefore, this legislation is absolutely essential to thousands of 
veterans who were promised this funding for their college education 
when the Post-9/11 GI Bill was originally passed and is vital to giving 
veterans an equal opportunity to afford the school of their choice.
The American Legion supports this bill.
                  H.R.562: VRAP Extension Act of 2013
    Amends the VOW to Hire Heroes Act of 2011 to extend through June 
30, 2014, the veterans retraining assistance program (VRAP). Directs 
the Secretary of Veterans Affairs (VA) to submit to Congress an interim 
report on the retraining assistance provided under such program.
    The American Legion has worked with thousands of veterans who need 
to update their skill sets in order to be competitive in today's 
workforce, which is why we actively supported passage of the VOW to 
Hire Heroes Act of 2011. As part of the VOW Act, VRAP provides up to 12 
months of education benefits to unemployed veterans between the ages of 
35-60, a group comprising nearly two thirds of all unemployed veterans. 
As the law currently stands, VRAP is scheduled to expire March 31, 
2014, and The American Legion supports this extension which will allow 
veterans using VRAP to continue to receive funding through what is 
considered the traditional spring semester of 2014 at the institution 
where they are enrolled, making it possible for participants to 
complete training while receiving VRAP benefits. The American Legion 
works closely with many of these program participants and can testify 
to the need for them to be able to complete the programs they started 
through this new initiative. As such, The American Legion supports 
extending this deadline to ensure that participating veterans can use 
their full year of benefits.
    The bill would also require an interim report to Congress to 
measure VRAP's success in helping unemployed veterans find jobs. 
Understanding the program's effectiveness would give Congress and 
stakeholders monitoring this program, like the Legion, the information 
needed to decide whether extending VRAP makes sense for our veterans as 
well as American taxpayers.
The American Legion supports this bill.
       H.R. 631: Servicemembers' Choice in Transition Act of 2013
    Amends provisions concerning the Transition Assistance Program of 
the Department of Defense (employment and job training assistance and 
related services for members of the Armed Forces being separated from 
active duty, and for their spouses) to require such Program to consist 
of at least five days of instruction as follows: (1) at least one day 
of service-specific pre-separation training; (2) up to one day each for 
instruction in preparation for employment, preparation for education or 
career or technical training, preparation for entrepreneurship, or 
other options determined by the Secretary of the military department 
concerned; (3) at least two days of in-depth instruction of the 
participant's choice in any of the subjects described under (2), above; 
and (4) up to one day in benefits provided under laws administered by 
the Secretary of Veterans Affairs (VA) and in other subjects determined 
by the Secretary concerned.
    The American Legion works with transitioning veterans through a 
variety of programs, including job fairs and resume writing workshops. 
Over the past several years, The American Legion has attended and 
audited many of the Transition Assistance Programs (TAP) that are 
administered nationwide. Recognizing the importance TAP plays in the 
lives of separating service member and their families, The American 
Legion heartily supported the VOW to Hire Heroes Act of 2011 which, in 
relevant part, makes TAP mandatory for most service members 
transitioning to civilian status, upgrades career counseling options, 
and job hunting skills, as well as ensures the program is tailored to 
individuals and the 21st Century job market.
    Transition Goals Plans Success, known simply as Transition GPS, 
replaces the 20-year-old Transition Assistance Program and takes 
military members through a week-long class, compared to the original 
TAP's mandatory two to four hours of separation counseling. In the 
course of five days, service members develop an individual transition 
plan that maps out financial planning and a budget to follow the first 
12 months after separating from the military. It also covers how to 
write a resume and how to interview for a job, along with exploring how 
military skills can be carried over into the civilian work force. In 
addition to the DOL workshop, a Veterans Affairs representative goes 
over benefits.
    The new curriculum also includes optional two-day capstone courses 
which cover an educational track, a technical and skills training track 
and entrepreneurship track, and allows the separating service members 
to hone in on the field they intend to pursue after service. However, 
these capstone courses are not recognized by DOD as being a part of the 
core curriculum.
    The American Legion has been hosting veterans Small Business 
Training programs for almost 10 years, and understands the critical 
need for transitioning service members to have a variety of post-
military choices that best suit their individual employment goals and 
particular family needs. Therefore, we share the concerns of this 
Subcommittee, that mandatory training must include those alternative 
paths, and that forcing every service member to sit through 3 days of 
job-hunting skills at the expense of training that tailored to their 
post-discharge intentions is a poor use of resources. A program of 
providing a core instruction summarizing the highlights of the detailed 
tracks, followed by allowing the servicemember to choose a track as 
part of the mandatory coursework, is a superior approach to meeting the 
needs of TAP participants. H.R. 631 clarifies that the intent of the 
TAP redesign was to offer this kind of transitional training, and we 
are pleased to support it.
The American Legion supports this bill.
                  H.R. 844: VetSuccess Enhancement Act
    To amend title 38, United States Code, to extend the eligibility 
period for veterans to enroll in certain vocational rehabilitation 
programs.
    The number of service members, National Guard, and reservists who 
separate from active duty with service-connected disabilities has risen 
as a result of the engagement of the U.S. Armed Forces in Iraq and 
Afghanistan. The Vocational Rehabilitation and Employment (VR&E) 
Program provides comprehensive services and assistance to enable 
veterans with service-connected disabilities and employment handicaps 
to achieve maximum independence in daily living, to become employable, 
and to obtain and maintain suitable employment.
    However, the basic period of eligibility for VR&E benefits is 
limited to 12 years from the date of separation from the military or 
the date the veteran was first notified by VA of a service-connected 
disability rating. Based on American Legion case studies, several years 
ago The American Legion passed a resolution calling on VA to lift the 
delimiting date for participation in the program. We have found that 
many service members and veterans do not understand their eligibility 
to VR&E services and the benefits of the program until later in life 
when they become so disabled that their disabilities create an 
employment barrier. Because this legislation would extend the 
delimiting date by five years, we can support it as a step in the right 
direction, but The American Legion would prefer to see the delimiting 
date eliminated altogether.
The American Legion supports this bill.
                               H.R. 1305
    To amend title 38, United States Code, to provide clarification 
regarding eligibility for services under the Homeless Veterans 
Reintegration Program
    The American Legion has taken a leadership role within local 
communities by volunteering, fundraising, and advocating for programs 
and funding for homeless veterans, as well as hosting workshops and 
roundtables in Washington, D.C. and around the country. In doing so, 
we've seen and heard from homeless veterans and their families that 
obtaining meaningful employment is absolutely key to their transition 
back into mainstream society.
    Currently, homeless veterans are eligible for job training and 
placement services under the Homeless Veteran Reintegration Program 
(HVRP), the only nationwide program focused on assisting homeless 
veterans to reintegrate into the workforce. Unfortunately, the U.S. 
Department of Labor has determined that some homeless veterans are not 
eligible to participate in this existing program. Specifically, the 
Department of Labor has concluded veterans who are participating in 
another program, known as the HUD-VASH voucher program, are not 
considered truly ``homeless'', and are therefore ineligible for the 
very programs that will help them re-enter the workforce and get them 
back on their feet.
    While it's true that some veterans in the HUD-VASH Program do not 
actively seek employment due to serious mental illness, substance use 
disorders, physical disabilities or co-occurring disorders, many others 
are in need of the job placement and retention services provided by 
HVRP. Access to HVRP while being housed with a HUD-VASH voucher will 
allow many formerly homeless, formerly incarcerated, or transitioning 
veterans to leverage the available federal resources that will 
strengthen their financial stability and independent living. The HUD-
VASH Program does not alleviate a veteran's need for the employment 
support provided by HVRP.
    Finally, in our view HVRP is a highly successful grant program and 
needs to be fully funded at $50 million. Currently, HVRP is funded at 
$38.26 million.
The American Legion supports this bill.
                               H.R. 1316
    To amend title 38, United States Code, to specify the 
responsibilities of the Directors and Assistant Directors of Veterans' 
Employment and Training.
    The Veterans Employment and Training Service (VETS) is an 
independent agency within the Department of Labor (DOL) created 
specifically to assist veterans in making the transition from military 
to civilian life, train for and find good jobs, and to protect the 
employment and reemployment rights of veterans, Reservists and National 
Guard Members. VETS maintains a network of State Directors and 
Assistant Directors of Veterans' Employment and Training Service 
(DVETs/ADVETs).
    The American Legion has long supported Labor's VETS program. We 
have worked closely with the Department of Labor and the program since 
it was introduced, we are a member of the Department's Veterans 
Advisory Committee, and Legionnaires have worked at all levels of the 
organization. VETS leadership actively consults with the Legion to 
ensure their work is in keeping with Legion views and we believe 
strongly in the agency's expertise and experience to manage the program 
effectively.
    We have reviewed the current position descriptions for the DVETs 
and note the almost total overlap between them and the proposed duties 
outlined in the bill.
    For these reasons, The American Legion does not see the need at 
this point in specifying in the code the responsibilities for these 
positions. Further, we believe VETS, which has responsibly managed 
these positions heretofore, should retain the authority and flexibility 
to define the positions.
The American Legion is unable to support this bill at this time.
                               H.R. 1402
    To amend title 38, United States Code, to extend the authorization 
of appropriations for the Secretary of Veterans Affairs to pay a 
monthly assistance allowance to disabled veterans training or competing 
for the Paralympic Team and the authorization of appropriations for the 
Secretary of Veterans Affairs to provide assistance to United States 
Paralympics, Inc.
    Public Law 110-389 (2008) authorized VA to award grants to the U.S. 
Olympic Committee to plan, manage and implement an adaptive sports 
program for disabled veterans and disabled members of the Armed Forces. 
In addition, it authorized a monthly subsistence allowance to 
qualifying disabled veterans in training or competing for the 
Paralympics to help them more easily take part in competitive sports. 
Further, both were authorized during fiscal years 2010 through 2013. 
H.R. 1402 would extend these authorizations through 2018.
    Since its foundation in 1919, The American Legion has identified as 
its most important issue the rehabilitation and reintegration of the 
disabled veteran. We have been working intimately with the Paralympic 
program since 2005 and are also strong believers in the physical and 
psychological benefits that come from involvement in sports and 
recreation. Thus, we support such programs of the U. S. Olympic 
Committee that facilitate the rehabilitation and reintegration of our 
disabled veterans and service members. We know that sports and physical 
activity can have a transformative effect on those with a physical 
disability and the continued provision of funds will help to expand and 
provide greater access to sports programs for injured veterans and 
disabled members of the Armed Forces.
The American Legion supports this bill.
    Draft bill: Improving Job Opportunities for Veterans Act of 2013
    To improve and increase the availability of on-job training and 
apprenticeship programs carried out by the Secretary of Veterans 
Affairs.
    On-the-job training is still the predominant form of job training 
in the United States, particularly for non-managerial employees and 
numerous studies indicate that it is the most effective form of job 
training.
    The VA's On-the-Job & Apprenticeship Training Program offers 
veteransor currently serving guard or reserve an alternative way to use 
their GI Bill education and training benefits if they would rather not 
utilize them through higher education. Unfortunately, The American 
Legion has found that most veterans are not aware they can use their GI 
Bill benefits for on-the-job training and apprenticeship programs with 
many businesses.
    This draft legislation would mandate VA promote this program to 
veterans in national media outlets as highly efficient and effective 
ways of obtaining jobs, as The American Legion has been promoting this 
program locally through our posts. It would also lower the costs to 
companies who participate in the program making it more attractive for 
them to participate.
    The American Legion works closely with the State Approving Agencies 
(SAAs) to ensure they correctly administer on-the-job and 
apprenticeship programs and understand both their value and importance. 
They have historically also been at the forefront of promoting and 
marketing these programs through their outreach efforts, so we believe 
VA should partner with SAAs in any public relations campaign they 
undertake and we furthermore recommend that VA restore outreach funding 
for SAAs so they can more effectively promote these and other GI Bill 
educational programs.
The American Legion supports this bill.
                               Draft bill
    To amend title 38, United States Code, to extend the authority to 
provide work-study allowance for certain activities by individuals 
receiving educational assistance by Secretary of Veterans Affairs
    This draft bill is an extension of the Department of Veteran 
Affairs authority to offer certain work-study allowances for student-
veterans due to expire mid-year. The American Legion has long supported 
the Department of Veteran Affairs work-study program and supports this 
initiative to maintain as many of these work-study opportunities as 
possible.
    This program provides a valuable benefit to student-veterans and 
that benefit is often multiplied many times over when, for example, 
they are allowed to perform outreach services to service members and 
veterans furnished under the supervision of a State approving agency 
employee. This is just one instance of the important work that is 
accomplished by these student-veterans.
The American Legion supports this bill.
    As always, The American Legion thanks this Subcommittee for the 
opportunity to explain the position of the over 2.4 million veteran 
members of this organization.
    For additional information regarding this testimony, please contact 
Mr. Jeffrey Steele at The American Legion's Legislative Division, 202-
263-2987 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e445d5a4b4b424b6e424b4947414000415c4900">[email&#160;protected]</a>
Executive Summary


----------------------------------------------------------------------------------------------------------------
                        H.R. 357                                             Legion supports
----------------------------------------------------------------------------------------------------------------
                                          H.R. 562                                          Legion supports
----------------------------------------------------------------------------------------------------------------
                                          H.R. 631                                          Legion supports
----------------------------------------------------------------------------------------------------------------
                                          H.R. 844                   Legion supports, suggests improvements
----------------------------------------------------------------------------------------------------------------
                                         H.R. 1305                                          Legion supports
----------------------------------------------------------------------------------------------------------------
                                         H.R. 1316                                    Legion cannot support
----------------------------------------------------------------------------------------------------------------
                                         H.R. 1402                                          Legion supports
----------------------------------------------------------------------------------------------------------------
Improving Job Opportunities for Veterans Act of 2013                 Legion supports, suggests improvements
----------------------------------------------------------------------------------------------------------------
Draft bill to extend the authority to provide work-                                         Legion supports
                                    study allowance
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>
                  Prepared Statement of Michael Dakduk
    Chairman Flores, Ranking Member Takano and members of the 
Subcommittee:
    Thank you for inviting Student Veterans of America to participate 
in this hearing to discuss pending legislation intended to increase 
support for military servicemembers and veterans.
    Student Veterans of America (SVA) is the largest and only national 
association of military veterans in higher education. Our mission is to 
provide military veterans with the resources, support, and advocacy 
needed to succeed in higher education and after graduation. We 
currently have over 800 chapters, or student veteran organizations, at 
colleges and universities in all 50 states that assist veterans in 
their transition to and through higher education. SVA chapters are 
organized at four-year and two-year public, private, nonprofit, and 
for-profit institutions of higher learning. This diverse and direct 
contact gives SVA a unique perspective on the needs and obstacles faced 
by our nation's veterans as they utilize education benefits in 
preparation for their future transition into the civilian workforce.
H.R. 357, GI Bill Tuition Fairness Act of 2013:
    The Post-9/11 GI Bill pays the highest in-state tuition and fees. 
Due to military obligations, many veterans are unable to establish in-
state residency for the purposes of enrolling at a public university or 
college. Ultimately, this becomes a financial burden that leaves 
veterans vying for additional financial aid due to out-of-state 
residency status.
    According to a state-by-state landscape analysis conducted by our 
organization, 11 states waive the residency requirement for any veteran 
to receive in-state tuition. They include Arizona, Colorado, Idaho, 
Louisiana, Minnesota, New Mexico, North Dakota, Ohio, South Dakota, 
Utah, and Virginia.
    Eight states waive the residency requirement for some veterans to 
receive an in-state tuition waiver or the state's public university 
school system offers the waiver. They include Alaska, Delaware, 
Georgia, Iowa, Maryland, Mississippi, Rhode Island, and Texas.
    16 state legislatures are currently considering legislation that 
would waive the residency requirement for veterans to receive in-state 
tuition. Those currently reviewing state legislation include Alabama, 
California, Florida, Illinois, Indiana, Massachusetts, Michigan, 
Missouri, New York, North Carolina, Oklahoma, Oregon, South Carolina, 
Tennessee, and Washington.
    However, the nuanced policies and variability between states and 
university systems are highly complex.
    For example, the board of regents of the Alaska higher education 
system decided to waive the 12 month residency requirement, a virtually 
universal waiting period in higher education to gain in-state residency 
status, to all veterans and dependents.
    In contrast, Maryland offers in-state residency only to those 
veterans that graduated from a Maryland high school. They currently 
have pending legislation to provide in-state tuition to all veterans.
    There are many other unique examples across the spectrum of higher 
education related to veterans and residency status for the purposes of 
gaining in-state tuition.
    We are proud to be working with the American Legion on a state-by-
state initiative to see in-state tuition granted to all veterans. We 
are also very proud to be aligned with both the American Legion and the 
Veterans of Foreign Wars (VFW) in seeing this issue resolved in 
Congress. SVA fully supports H.R. 357 and we encourage Congress to 
recognize that veterans served our nation in its entirety, not just one 
state.
H.R. 562, VRAP Extension Act of 2013:
    Many student veterans do not follow a traditional path toward 
college completion, which makes it very difficult to enroll in and 
complete programs of higher learning based on a set time block. For 
this reason, SVA fully supports this bill to extend the VRAP program by 
three months. SVA is also in favor of quality measures to determine the 
success of this program in order to make data-driven decisions for VRAP 
and future veteran employment initiatives.
    SVA, however, shares the same concerns as the VFW with regard to 
institutional and remedial course restrictions. The VRAP program should 
be expanded to include four-year institutions of higher learning. They 
too provide critical certificates and two-year degree programs designed 
to combat veteran unemployment. Additionally, remedial courses have 
been omitted from VRAP. We cannot reasonably expect veterans to succeed 
in a program of higher learning after being removed from the college 
classroom for several years and one or more combat deployments. 
Remedial coursework is critical to a student veteran's academic 
success.
H.R. 631, Servicemembers' Choice in Transition Act:
    SVA has long supported the reform of the military transition 
assistance programs (TAP). While we believe the improvements to TAP are 
a step in the right direction, we support formally linking TAP tracks 
to the mandatory curriculum.
    Currently, there exist three optional tracks administered at the 
tail-end of the TAP course. The three optional tracks include 
education, entrepreneurship, and vocational training. However, none of 
the aforementioned tracks are truly integrated into the mandatory TAP 
program, leaving servicemembers at-risk of losing valuable information 
during their transition.
    SVA supports institutionalizing tracks as a mandatory component of 
TAP as written in H.R. 631.
H.R. 844, VetSuccess Enhancement Act:
    Student Veterans of America fully supports any initiative to extend 
the life of meaningful veteran programs. Veterans are nontraditional 
students, meaning some will return to school or other training programs 
later in life. By extending Vocational Rehabilitation programs from 12 
years to 17 years, many wounded veterans would have more flexibility in 
using their benefits. Ultimately, SVA would like to see the delimiting 
date fully lifted.
H.R. 1305, To amend title 38, United States Code, to provide 
        clarification regarding eligibility for services under the 
        Homeless Veterans Reintegration Program:
    We understand this bill would clarify rigid language currently 
written in the law for the Homeless Veterans Reintegration Program. We 
stand with the American Legion and VFW in offering our support for this 
bill, which would ultimately increase employment support for veterans.
H.R. 1316, Directors of Veterans' Employment and Training 
        Accountability Act:
    SVA supports accountability and consistency across the state 
workforce development agencies as it relates to Veterans' Employment 
and Training. However, SVA respects the American Legion's reservations 
in supporting this legislation. Before fully endorsing this bill, we 
will work with our colleagues at the American Legion and the VFW to 
better gauge the full range of issues addressed by this bill.
H.R. 1402, To amend title 38, United States Code, to extend the 
        authorization of appropriations for the Secretary of Veterans 
        Affairs to pay a monthly assistance allowance to disabled 
        veterans training or competing for the Paralympic Team and the 
        authorization of appropriations for the Secretary of Veterans 
        Affairs to provide assistance to United States Paralympics, 
        Inc.:
    Generally, SVA does not endorse legislation outside of education 
and employment unless such legislation has a clear link to education 
and employment. Therefore, SVA cannot endorse this bill. However, SVA 
stands in support of the VFW and the American Legion in recognizing 
that initiatives like the Paralympics remain a major part of many 
wounded veterans' whole-life improvement, ultimately leading to greater 
success in academia and the labor force.
Draft Bill, Improving Job Opportunities for Veterans Act of 2013:
    SVA supports increased awareness for on-the-job training (OJT) and 
apprenticeship programs. We remain a strong proponent of the OJT 
provisions in the Post-9/11 GI Bill and understand that some veterans 
seek better futures through apprenticeships and other OJT programs that 
may not be found in a traditional college classroom setting. We also 
support incentivizing employers to hire more veterans, especially now 
as the military force is projected to downsize.
Draft Bill, To amend title 38, United States Code, to extend the 
        authority to provide work-study allowance for certain 
        activities by individuals receiving educational assistance by 
        Secretary of Veterans Affairs:
    Many student veterans use the work-study program as a supplement to 
pay for their bills and other costs not covered by primary VA 
educational programs. SVA strongly supports the VA work-study program.
    Thank you Chairman Flores, Ranking Members Takano, and 
distinguished members of the subcommittee for allowing Student Veterans 
of America to present our views on legislation focused on supporting 
veterans, military servicemembers, and their families.
Executive Summary
    <bullet>  H.R. 357: Currently, 11 states have passed laws providing 
in-state residency status to student veterans. Another eight states 
provide some or limited support to veterans or have university-based 
policies granting in-state residency status to veterans. 16 states have 
pending legislation to grant in-state tuition to veterans. Given that 
the Post-9/11 GI Bill pays the highest in-state tuition and fees, SVA 
fully supports granting in-state tuition to veterans as proposed in 
H.R. 357.
    <bullet>  H.R. 562: SVA support extending VRAP by three months and 
measuring the success of the program. SVA supports H.R. 562 and 
encourages Congress to loosen some institutional and remedial 
coursework restrictions in the VRAP program.
    <bullet>  H.R. 631: While we believe the improvements to TAP are a 
step in the right direction, SVA supports formally linking the optional 
TAP tracks to the mandatory curriculum that is reflected in H.R. 631.
    <bullet>  H.R. 844: SVA supports extending the life of Vocational 
Rehabilitation programs by five years. Ultimately, SVA would like to 
see the delimiting date fully lifted. We support H.R. 844.
    <bullet>  H.R. 1305: We stand with the American Legion and VFW in 
offering our support for this bill, which would ultimately increase 
employment support for veterans.
    <bullet>  H.R. 1316: SVA supports accountability and consistency 
across the state workforce development agencies as it relates to 
Veterans' Employment and Training. Before fully endorsing this bill, we 
will work with our colleagues at the American Legion and the VFW to 
better gauge the full range of issues addressed by this bill.
    <bullet>  H.R. 1402: Generally, SVA does not endorse legislation 
outside of education and employment unless such legislation has a clear 
link to education and employment. We support our colleagues at the 
American Legion and VFW, but SVA cannot endorse this bill.
    <bullet>  Draft Bill Entitled ``Improving Job Opportunities for 
Veterans Act of 2013'': SVA supports increased awareness for on-the-job 
training (OJT) and apprenticeship programs as described in this draft 
bill.
    <bullet>  Draft Bill Extending Work Study Allowance: SVA fully 
supports the VA Work Study program.

                                 <F-dash>
                       Statements For The Record
              The National Coalition for Homeless Veterans
    Chairman Bill Flores, Ranking Member Mark Takano, and distinguished 
members of the House Committee on Veterans' Affairs, Subcommittee on 
Economic Opportunity:
    The National Coalition for Homeless Veterans (NCHV) is honored to 
present this Statement for the Record for the legislative hearing on 
April 10, 2013. On behalf of the 2,100 community- and faith-based 
organizations that NCHV represents, we thank you for your commitment to 
serving our nation's most vulnerable heroes.
    This written statement will focus on NCHV's strong support for Rep. 
Brad R. Wenstrup's H.R. 1305, ``To amend title 38, United States Code, 
to provide clarification regarding eligibility for services under the 
Homeless Veterans Reintegration Program.'' If signed into law, this 
legislation would immediately impact veteran service providers and 
their clients.
    H.R. 1305 serves a simple purpose: to clarify eligibility for the 
Homeless Veterans Reintegration Program (HVRP). Specifically, the bill 
would ensure that the following two subgroups of homeless veteran are 
able to access HVRP:

    1. Veterans who participate in the interagency supportive housing 
program known as HUD-VASH, and
    2. Veterans who are transitioning out of incarceration.

    While current law could potentially be construed in such a way as 
to render H.R. 1305 unnecessary, this bill would eliminate any 
uncertainty. Therefore, NCHV strongly supports its swift passage.
Background on Federal Programs Impacted by H.R. 1305
    Administered by the U.S. Department of Labor-Veterans' Employment 
and Training Service (DOL-VETS) for more than two decades, HVRP is the 
nation's largest employment program wholly dedicated to serving 
homeless veterans, most of whom have serious and multiple barriers to 
re-entering the workforce.
    HVRP is authorized by Title 38, U.S. Code, Sec.  2021, which 
instructs the Secretary of Labor to conduct such programs ``to expedite 
the reintegration of homeless veterans into the labor force.'' The term 
``homeless veteran'' is defined in Title 38, U.S. Code, Sec.  2002 as: 
``a veteran who is homeless (as that term is defined in section 103(a) 
of the McKinney-Vento Homeless Assistance Act (42 U.S.C. 11302(a))).''
    A veteran who is housed through the HUD-VA Supportive Housing (HUD-
VASH) Program - jointly administered by the U.S. Departments of Housing 
and Urban Development and Veterans Affairs - does not meet the 
definition of ``homeless veteran'' as described above. However, a 
veteran possessing a HUD-VASH voucher and actively searching for 
housing is not prohibited from enrolling in HVRP. If a veteran resides 
in a shelter while searching for permanent housing, for instance, he or 
she would be considered homeless. Only once that veteran moves into 
permanent housing with a HUD-VASH voucher would he or she no longer 
meet the McKinney-Vento definition of ``homeless.''
    The HUD-VASH Program was revamped in fiscal year (FY) 2008, when 
the U.S. Congress appropriated $75 million for approximately 10,000 
HUD-VASH vouchers. Through FY 2013, Congress has appropriated at least 
$50 million for new vouchers each fiscal year. Today, about 57,000 
vouchers are funded by Congress.
Why Does HVRP Eligibility Need to Be Clarified?
    The modern-day version of the HUD-VASH Program did not exist when 
HVRP was introduced, and the rapid advancement of homeless persons into 
permanent housing was not necessarily an expected outcome for clients 
in VA-funded transitional assistance programs. There is mounting 
pressure to reduce inefficiencies among federal homeless assistance 
programs, yet HVRP is constrained by regulations conceived in a bygone 
era of limited homeless veteran services.
    Certain realities for veterans have not changed over the past two 
decades, however. Income supports remain a critical need for veterans 
searching for and working to remain in permanent housing. While some 
veterans in the HUD-VASH Program do not actively seek employment due to 
serious mental illness, chronic substance abuse, physical disabilities 
or co-occurring disorders, many others need the specialized job 
preparation, placement and retention services offered by HVRP.
    It can take up to 120 days for a veteran who receives a HUD-VASH 
voucher to secure and move into permanent housing. In theory, this is 
an ideal opportunity for voucher-holders to become enrolled in the HVRP 
program. But if the veteran client and his or her case manager have not 
identified employment services as a priority early in the housing 
search process, or they are unaware that the veteran is only eligible 
for HVRP before moving into permanent housing, the opportunity is lost.
    The ``Housing First'' strategy adopted by the federal government 
under the ``Federal Strategic Plan to Prevent and End Homelessness'' in 
June 2010 fundamentally changed the nation's homeless services delivery 
landscape. This strategy calls for rapid re-housing of homeless persons 
and families - including veterans - and waives many of the requirements 
veterans had to satisfy to participate in the HUD-VASH Program.
    As the name Housing First implies, placement in permanent housing 
as rapidly as possible with sound case management is the top priority, 
with additional services provided on a case-by-case basis according to 
client preferences. Considering the multiple challenges faced by 
veterans eligible for the HUD-VASH Program, the intense focus on 
successful housing placements can delay or preclude referrals to 
employment assistance programs.
H.R. 1305 Provides an Immediate Resolution to This Issue
    The permanent supportive housing provided through the HUD-VASH 
Program does not reduce a veteran's need for the employment supports 
provided by HVRP. Helping veterans increase their earning potential and 
employment security hastens their advancement off the rolls of those 
who depend on subsidized housing. This, in effect, makes those vouchers 
available for other veteran families in desperate need of housing 
assistance.
    Knowledge of HVRP is not uniform among HUD-VASH case managers, and 
there is no mandate in place to ensure that voucher-holders are 
considered for HVRP enrollment while they are still eligible. Even if 
these veterans are able to apply in time, local HVRP programs may be 
operating at capacity, which could prevent them from utilizing this 
resource or require them to postpone their move into permanent housing 
until their enrollment is effected.
    In light of these possibilities, and to ensure that homeless 
veterans are able to make full use of the federal assistance available 
to them, NCHV urges the Subcommittee on Economic Opportunity to help 
shepherd H.R. 1305 to the president's desk.
In Summation
    Thank you for the opportunity to submit this Statement for the 
Record for today's hearing. It is a privilege to work with the House 
Committee on Veterans' Affairs, Subcommittee on Economic Opportunity, 
to ensure that every veteran in crisis has reasonable access to the 
employment supports they earned.

    Matt Gornick
    NCHV Policy Director
    National Coalition for Homeless Veterans
    333 \1/2\ Pennsylvania Avenue SE
    Washington, DC 20003
    202-546-1969

                   NCHV Disclosure of Federal Grants

    Grantor: U.S. Department of Labor
    Subagency: Veterans' Employment and Training Service
    Grant/contract amount: $350,000
    Performance period: 8/13/2012 - 8/12/2013
    Indirect costs limitations or CAP limitations: 20% total award
    Grant/contract award notice provided as part of proposal: Yes

    Grantor: U.S. Department of Labor
    Subagency: Veterans' Employment and Training Service
    Grant/contract amount: $350,000
    Performance period: 8/13/2011 - 8/12/2012
    Indirect costs limitations or CAP limitations: 20% total award
    Grant/contract award notice provided as part of proposal: Yes

    Grantor: U.S. Department of Labor
    Subagency: Veterans' Employment and Training Service
    Grant/contract amount: $350,000
    Performance period: 8/13/2010 - 8/12/2011
    Indirect costs limitations or CAP limitations: 20% total award
    Grant/contract award notice provided as part of proposal: Yes

                                 <F-dash>
                               VETSFirst

    April 10, 2013

    The Honorable Bill Flores
    Chairman, Economic Opportunity Subcommittee
    House Committee on Veterans' Affairs
    Washington, D.C. 20515

    The Honorable Mark Takano
    Ranking Member, Economic Opportunity Subcommittee
    House Committee on Veterans' Affairs
    Washington, D.C. 20515

    Dear Chairman Flores and Ranking Member Takano:

    VetsFirst, a program of United Spinal Association, wishes to 
express our strong support for the Servicemembers' Choice in Transition 
Act of 2013 (H.R. 631). We ask that our below comments be submitted for 
the record of the April 10, 2013, Economic Opportunity Subcommittee 
hearing on pending legislation.
    The Transition Assistance Program (TAP) plays a critical role in 
ensuring that separating servicemembers have the information they need 
to prepare for future education and employment opportunities. The 
content requirements detailed in H.R. 631 will ensure that these men 
and women receive a well-rounded program that includes the types of 
information they need throughout their transition process. Requiring 
information on service-specific pre-separation requirements, different 
pathways to employment, and the types of benefits available through the 
Department of Veterans Affairs will provide them with a strong 
foundation for future success.
    Although we fully support, H.R. 631, we believe that it would be 
strengthened by amending it to ensure that information about disability 
related employment and education protections is included in the TAP 
curriculum. Veterans who have acquired disabilities as a result of 
their military service need a basic understanding of the protections 
available to them under the law as they return to the workforce or seek 
out education opportunities. To ensure that this information is 
received by all those servicemembers who need it, we believe that it 
should be integrated into the curriculum about preparing for employment 
or education opportunities. Including this information in the TAP 
curriculum will provide disabled veterans with the specialized 
knowledge they need to ensure their success in navigating their future 
career goals.
    Thank you for the opportunity to present our comments regarding 
H.R. 631. Please do not hesitate to contact Heather Ansley, Vice 
President of Veterans Policy for VetsFirst, a program of United Spinal 
Association, at (202) 556-2076, ext. 7702 or by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98188879a858c90a99f8c9d9a8f809b9a9dc7869b8e">[email&#160;protected]</a>, if we can be of assistance.

    Sincerely,

    Paul J. Tobin
    President and CEO

                                 <F-dash>
                    Gold Star Wives of America, Inc
    Chairmen Flores, Ranking Member Takano and Members of the House 
Veterans Affairs Committee Economic Opportunity Subcommittee, Gold Star 
Wives of America, Inc. is grateful for the privilege of presenting 
testimony for the record on issues pertaining to surviving spouses of 
our Nation's veterans.
    Gold Star Wives of America (GSW), founded in 1945 and 
Congressionally Chartered in 1980, is an organization of surviving 
spouses of veterans who died while serving on active duty or died of a 
service-connected cause. Current members are survivors of military 
members who served during World War II, the Korean War, the Vietnam 
War, the Gulf War, the conflicts in both Iraq and Afghanistan, and 
every period in between. GSW is an all-volunteer organization 
encompassing approximately 8,500 members.
    GSW's primary mission is to support survivors after the death of 
their spouse and provide a place for them to connect with each other. 
GSW also provides information about survivor benefits and assists 
survivors in obtaining these benefits. We strive to raise the awareness 
of Congress, the public, the veterans' community and the military 
community to the many inequities existing in survivor benefit programs.
    Recent proposed legislation (H.R. 357 and S.257) requires states to 
provide in-state tuition rates for Veterans using Federal education 
benefits. To ensure that Federal education dollars are spent most 
effectively and efficiently, surviving spouses and dependents using 
Chapter 35 education benefits should be included in legislation to 
require that states provide in-state tuition rates. Further, such 
protections should be extended to all VA Education Chapters.
    Gold Star Wives of America has additional concerns regarding VA 
educational benefits for surviving spouses and children and would 
welcome the opportunity to discuss them. It is difficult to determine 
how many surviving spouses of active duty and service-connected deaths 
are using education benefits because the VA is unwilling or unable to 
provide that information.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
